 ADMINISTRATION OF DEPARTMENT OF JUSTICE GRANTS
        AWARDED TO NATIVE AMERICAN AND
       ALASKA NATIVE TRIBAL GOVERNMENTS

                           EXECUTIVE SUMMARY


       The Department of Justice (DOJ) provides leadership and support to
tribal governments to develop their capacity to prevent and control crime
and administer justice fairly and effectively through various grant, training,
technical assistance, and research programs. Within the DOJ, the Office of
Community Oriented Policing Services (COPS Office), Office of Justice
Programs (OJP), and Office on Violence Against Women (OVW) are the
primary agencies responsible for providing criminal justice grant funding to
tribal governments. These components provide funding through the
following programs intended specifically for tribal governments.

                         TRIBAL-SPECIFIC GRANT PROGRAMS

      COPS Office                          OJP                        OVW
 • Tribal Resource Grant    •   Indian Alcohol and           •   S•T•O•P Violence
   Program                      Substance Abuse Program          Against Indian
 • Tribal Hiring Renewal    •   Tribal Courts Assistance         Women Program
   Grant Program                Program
 • Mental Health and        •   Correctional Facilities on
   Community Safety             Tribal Lands Program
   Initiative               •   Tribal Youth Program
 • Tribal Courts Pilot      •   Tribal Victim Assistance
   Program                      Program
                            •   Children’s Justice Act
                                Partnerships for Indian
                                Communities Program


       In an effort to enhance the DOJ’s communication and coordination with
tribal governments, in 1995 the Attorney General established the Office of
Tribal Justice (OTJ). The OTJ coordinates DOJ policies and positions on
Native American issues; maintains a liaison with the federally recognized
tribes; and works on Native American issues with appropriate federal, state,
and local officials, professional associations and public interest groups.
Background

      According to the 2000 Census, 4.1 million people,1 or 1.5 percent of
the total population, identified themselves as American Indians or Alaska
Natives (Native Americans).2 Despite the relatively small Native American
population, a 2001 study conducted by the Bureau of Justice Statistics (BJS)
indicated that Native Americans are more likely to experience rape or sexual
assault, robbery, aggravated assault, and simple assault than people of any
other race.3 Therefore, the enhancement of tribal criminal justice systems is
essential.

      This audit by the Office of the Inspector General (OIG) primarily
reviewed grants awarded to tribal governments by the COPS Office, OJP, and
OVW during FYs 2000 through 2003. During this 4-year period, the COPS
Office, OJP, and OVW budgets for grant programs to improve criminal justice
systems totaled $18.8 billion, of which $424.2 million (2.3 percent) was
awarded to tribal governments. The grant programs addressed issues of law
enforcement, domestic violence, child abuse, juvenile justice, and victims’
services.

       The COPS Office, OJP, and OVW provided $77.4 million in funding to
tribal governments through competitive programs and mandatory
set-asides, and an additional $346.8 million through programs intended
specifically for tribal governments.4




       1
        This statistic includes 2.5 million individuals in the United States who identify
themselves as Native American, and another 1.6 million who identify themselves as part
Native American.
       2
         Throughout this report, the term “Native Americans” is used to indicate American
Indians and Alaska Natives.
       3
           BJS Special Report, Violent Victimization and Race, 1993-98, March 2001.
       4
         Mandatory set-asides are requirements established through the legislation funding
grant programs that require the granting agencies to ensure that a specified amount or
percentage of the total program funding is awarded to tribal governments.



                                            - ii -
TABLE 1. TRIBAL FUNDING AWARDED (Dollars in Millions)
COMPONENT           FY 2000        FY 2001           FY 2002    FY 2003          TOTAL
COPS Office           $37.15         $37.11           $35.69      $37.18         $147.13
OJP                    63.45          49.41            88.82        50.04         251.72
OVW                     5.92           7.65             4.84         6.90          25.31
Total               $106.52         $94.17           $129.35      $94.12        $424.16
Source: COPS Office, OJP, and OVW



Audit Objectives

      For the last 5 years, grant management has been identified by the OIG
as one of the DOJ’s top 10 management challenges.5 Specifically, the OIG
has reported that grant management continues to be a challenge for the
following reasons:

   •    reviews continue to find that many grantees do not submit financial
        and progress reports;

   •    numerous deficiencies continue to be found in the COPS Office
        monitoring of grantee activities;

   •    audits found that grant funds were not regularly awarded in a timely
        manner and grantees were slow to spend available monies; and

   •    more than 375 OIG audits of COPS Office grants have resulted in
        significant dollar-related findings.

      The OIG conducted this audit at the request of OJP to review the
administration of DOJ grants awarded to tribal governments. Our audit
included grants awarded by the COPS Office, OJP, and OVW. In developing
the objectives of the audit, we also considered the concerns identified in the
OIG’s report on the DOJ’s top 10 management challenges. As a result, the
objectives of this audit were to evaluate:

   •    the adequacy of monitoring and administration of tribal-specific grant
        programs;

        5
            Since 1998, the OIG has created a list of the top management challenges facing
the DOJ. Initially, the report was created in response to congressional requests. By statute
this list is now required to be included in the DOJ’s annual Performance and Accountability
Report.



                                           - iii -
   •   whether costs charged to the tribal-specific grants are allowable and in
       accordance with applicable laws, regulations, guidelines, and terms
       and conditions of the grants; and

   •   the effectiveness of the DOJ’s overall strategy for awarding grants to
       tribal governments.


Summary of Findings and Recommendations


Adequacy of Grant Monitoring

      Grant monitoring is an essential management tool to ensure that grant
programs are implemented, objectives are achieved, and tribal grantees are
properly expending funds. To this end, federal regulations require that
grantees be monitored throughout the life of the grant to ensure that:
1) the grantee complies with the programmatic, administrative, and fiscal
requirements of the relevant statutes, regulations, policies, and guidelines;
2) programs initiated by the grantee are carried out in a manner consistent
with the relevant statutes, regulations, policies, and guidelines of the
program; 3) the grantee is provided guidance on policies and procedures,
grant program requirements, general federal regulations, and basic
programmatic, administrative, and financial reporting requirements; and
4) any problems that may impede the effective implementation of grant
programs are identified and resolved.

       Formal grant monitoring techniques include on-site monitoring and
office-based desk reviews. On-site monitoring provides grant managers with
the opportunity to observe and discuss with the grantee specific issues
related to implementation plan progress, observe grant activities, and
provide on-site technical assistance. Office-based desk reviews involve a
review of the grant file in order to: 1) ensure that files are complete,
2) determine if the grantee is in compliance with the program guidelines,
3) determine if grant special conditions are being implemented and properly
cleared, and 4) assess the progress of the program and identify any
administrative or budgetary problems. In addition, grant managers make
periodic telephone contacts with grantees to monitor grant activities and
project status.

       The COPS Office, OJP, and OVW officials stated that in monitoring
tribal grantees they rely on required periodic financial and progress reports.
Financial reports contain information on the actual grant expenditures and


                                     - iv -
unliquidated obligations, while progress reports provide information on grant
activities and accomplishments during the reporting period. The accuracy of
financial and progress reports can only be assessed through on-site
monitoring since grantees are not required to provide accounting records
and other documentation supporting the information included in their
reports.

      To assess the adequacy of tribal-specific grant program monitoring, we
judgmentally selected a sample of 102 grants awarded by the COPS Office,
OJP, and OVW. For each grant selected, we examined the grant file(s) for
compliance with reporting requirements and monitoring activities. Based on
the results of our review, we found that:

  •   Only 4 percent of the 102 grant files reviewed contained on-site
      monitoring reports, only 12 percent contained office-based desk
      reviews, and none contained evidence that telephone monitoring was
      conducted. OJP and OVW policy requires that grant managers conduct
      quarterly office-based desk reviews.

  •   Out of the 900 COPS Office grants totaling $165.47 million awarded to
      tribal governments during FYs 1999 through 2003, the COPS Office
      had conducted only 4 office-based desk reviews and 35 on-site
      program monitoring visits. No on-site monitoring visits were
      conducted in FY 2001 and only one was conducted in FY 2003.

  •   Most of the OJP and OVW grant files reviewed did not contain required
      program monitoring plans, which include the type and timing of
      monitoring activities anticipated (e.g., quarterly office-based desk
      reviews and annual on-site monitoring visits). The COPS Office does
      not require monitoring plans for its grants.

  •   Eighty-one percent of the grant files reviewed were missing one or
      more financial reports, and financial reports were not submitted in a
      timely manner for 97 percent of grants. Additionally, the COPS Office,
      OJP, and OVW generally did not follow up with grantees on missing or
      late financial reports.

  •   Despite the fact that financial guidelines prohibit grantees from
      drawing down grant funds if required financial reports are not current,
      OJP and OVW grantees were able to draw down funds totaling
      $1.26 million during periods for which a current financial report had
      not been submitted.



                                    -v-
   •   The COPS Office progress reporting requirements are inadequate for
       effectively monitoring grant activities. Although grantees are to be
       monitored primarily through periodic progress reports, the COPS Office
       has only sporadically required progress reports for its grants and no
       progress reports were required for grants awarded after FY 2001.

   •   Eighty percent of the grant files reviewed were missing one or more
       progress reports and progress reports were not submitted in a timely
       manner for 88 percent of the grantees required to submit such
       reports. Additionally, the COPS Office, OJP, and OVW generally did not
       follow up with grantees on missing or late progress reports.

   •   Despite the fact that guidelines prohibit grantees from drawing down
       grant funds if required progress reports are not current, COPS Office,
       OJP, and OVW grantees were able to draw down funds totaling
       $9.43 million during periods for which a current progress report had
       not been submitted.

      Based on the significance of the findings detailed above, in our
judgment the COPS Office, OJP, and OVW are not effectively monitoring
grants awarded to tribal governments. Consequently, the DOJ has no
assurances that the objectives of its tribal-specific grant programs are being
met or that expenditures of grant funds are in accordance with applicable
laws, regulations, guidelines, and terms and conditions of the grants.


Utilization of Grant Funds

       To ensure the effectiveness of the DOJ grant programs in meeting the
criminal justice needs of tribal governments, it is essential that grant funding
be made available and utilized in a timely manner. To determine the
effectiveness of the COPS Office, OJP, and OVW’s administration of
tribal-specific grant programs, we reviewed grant obligations and drawdowns
for all tribal-specific grants. We realize that while the rate of drawdowns is
not the only definitive indicator of grant activity, drawdowns can be an
important indicator of overall grantee progress toward achieving the grant
objectives. Our review included 900 COPS Office grants totaling
$165.47 million, 495 OJP grants totaling $204.09 million, and 140 OVW
grants totaling $41.78 million. Based on the results of our review, we found
that:

   •   Funds were not obligated until more than 6 months after the award
       start date for 128 OJP grants (26 percent) totaling $29.50 million, and


                                     - vi -
       71 OVW grants (51 percent) totaling $29.43 million. If grant funds are
       not obligated in a timely manner, tribal governments may encounter
       significant delays in implementing essential criminal justice programs.

   •   No funds had been drawn down for more than 2 years after the
       obligation date for 52 COPS Office grants totaling $17.22 million,
       23 OJP grants totaling $20.84 million, and 3 OVW grants totaling
       $0.15 million. These amounts include 29 COPS Office grants totaling
       $2.28 million, 9 OJP grants totaling $0.63 million and 2 OVW grants
       totaling $0.10 million that had expired, indicating the grant programs
       had not been implemented at all.

   •   The initial drawdown did not occur for over 1 year after the funds were
       obligated for 200 COPS Office grants totaling $31.90 million, 71 OJP
       grants totaling $71.89 million, and 10 OVW grants totaling
       $1.96 million, indicating that the grant programs were not
       implemented in a timely manner.

   •   The last drawdown occurred more than 1 year prior to our review for
       126 COPS Office grants with remaining funds totaling $2.80 million,
       34 OJP grants with remaining funds totaling $1.71 million, and
       11 OVW grants with remaining funds totaling $1.09 million. These
       amounts include 112 COPS Office grants, 28 OJP grants, and 8 OVW
       grants that had expired, indicating the grant programs were not fully
       implemented.

   •   For expired grants, based on a comparison of grant expenditures
       included in grantee financial reports to grant drawdowns, tribal
       grantees were allowed to draw down funds totaling $0.93 million that
       exceeded grant expenditures; as a result, we are questioning this
       amount.6

       Based on the findings detailed above, we found that OJP and OVW are
not ensuring that funds for tribal-specific grant programs are made available
to tribal grantees in a timely manner. Additionally, the COPS Office, OJP,
and OVW are not monitoring the utilization of grant funds. If grant funds
are not obligated timely, tribal governments may encounter delays in
providing essential criminal justice services. Further, failure to utilize grant

       6
          Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.



                                          - vii -
funds may be an indication that the grantee encountered problems
implementing the grant program or that the programs are not meeting the
criminal justice needs of tribal governments.


Administration of Expired Grants

      An important aspect of grant monitoring and administration is timely
and proper grant closeout. As a part of the closeout process, grant
managers are required to ensure that grant objectives have been achieved.
Therefore, timely grant closeout is essential to determine whether grant
programs are effectively meeting the criminal justice needs of tribal
governments. Pursuant to policy, OJP and OVW are required to close out
grants within 180 days after the award end date. Although the COPS Office
does not have a specific timeframe in which expired grants should be closed,
in our judgment 180 days after the award end date is a reasonable
timeframe.

       To determine whether the COPS Office, OJP, and OVW were closing out
grants timely and properly, we reviewed all expired tribal-specific grants
included in our audit. Our review included 507 COPS Office grants totaling
$62.08 million, 177 OJP grants totaling $51.11 million, and 74 OVW grants
totaling $19.58 million. Based on the results of our review, we found that
the COPS Office, OJP, and OVW are not closing out grants or are not closing
out grants in a timely manner, resulting in questioned costs totaling
$6.06 million and funds put to better use of $10.95 million.7 Specifically,

   •   Only 16 COPS Office grants, 11 OJP grants, and 5 OVW grants were
       closed within 180 days after the grant end date. Further, from our
       analysis of the closed grants, we identified COPS Office grant funds
       totaling $200.38 thousand and OVW grant funds totaling
       $6.87 thousand that should have been deobligated and put to better
       use prior to closing the grants.

   •   We identified 337 COPS Office grants, 91 OJP grants, and 32 OVW
       grants that had not been closed, despite the fact that the grants were
       more than 180 days past the grant end date.




       7
           Funds Put to Better Use are funds not yet expended that could be used more
efficiently if management took actions to implement and complete audit recommendations.



                                        - viii -
   •   According to policy, grant funds must be drawn down within 90 days
       after the end of the grant period. We identified questioned costs
       totaling $3.08 million for COPS Office grants, $2.31 million for OJP
       grants, and $0.68 million for OVW grants related to drawdowns
       occurring more than 90 days past the grant end date.

   •   Further, according to policy, any funds not drawn down within 90 days
       after the end of the grant period will lapse and revert to the awarding
       agency. We identified funds put to better use totaling $6.49 million for
       COPS Office grants, $3.01 million for OJP grants, and $1.25 million for
       OVW grants related to funds remaining on expired grants that are
       more than 90 days past the grant end date.


Allowability of Costs Charged to Grants

      After the grant award has been accepted, the COPS Office, OJP, and
OVW are responsible for managing and administering the programmatic and
financial aspects of the award. As stated in the Background section of this
report, from FYs 1998 through 2003 the OIG performed 27 individual audits
of grants awarded to tribal governments by the COPS Office and OJP.8 For
the 27 prior grant audits, the OIG identified $4.19 million in questioned costs
and $3.04 million in funds put to better use.9

      The results of these prior audits indicate that the COPS Office and OJP
are not effectively managing the DOJ’s grant programs for tribal
governments.10 Therefore, as a part of our audit, we conducted audits of
selected COPS Office, OJP, and OVW grantees to determine whether costs
charged to the grant programs are allowable and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grants. We selected a total of 41 COPS Office grants totaling $16.80 million,
21 OJP grants totaling $36.64 million, and 6 OVW grants totaling
$3.69 million. Eighteen separate audit reports were issued for the grantees
and grants selected.

      Based on the results of the individual grant audits, we found that
unallowable and unsupported costs totaling $4.57 million were charged to

       8
            Executive summaries of these audits are available at www.usdoj.gov/oig.
       9
        See Appendices VII and VIII for a listing of audits, including dollar-related findings,
of COPS Office and OJP tribal grantees conducted by the OIG.
       10
            No OVW grants were included in the 27 prior audits conducted by the OIG.



                                            - ix -
the grants. Further, we identified funds put to better use totaling
$0.97 million related to grant funds that will not or should not be used. As a
result, these costs were not used to meet the criminal justice needs funded
under the grant program. We also found that essential grant requirements
were not met. Specifically,

   •   Financial reports were not submitted in a timely manner and were not
       always accurate.

   •   Progress reports were not submitted or not submitted in a timely
       manner.

   •   Grantees were allowed to draw down grant funds during periods when
       required reports had not been submitted.

   •   Grantees did not properly account for equipment purchased.

   •   COPS Office grantees did not have formal plans to retain grant-funded
       positions and used grant funds to supplant local funds.

   •   OJP grantees charged unallowable or unsupported matching costs and
       did not adequately monitor subgrantees.

       Based on the individual grant audits, we found that costs charged to
the grant programs were not always allowable and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grants. Further, the frequency and magnitude of issues identified in our
individual grant audits indicate that critical grant requirements are not being
met. In our judgment, these findings support our conclusion that the COPS
Office, OJP, and OVW are not adequately monitoring the tribal-specific grant
programs, resulting in significant numbers of tribal grantees who are not
administering their grant(s) in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grant(s).


DOJ Strategy for Awarding Grants to Tribal Governments

       Our audit was initiated at the request of OJP who asked that the OIG
conduct a review of the DOJ criminal justice funding awarded to tribal
governments. Among the issues that OJP suggested we address were the
effectiveness of various funding mechanisms in meeting short-term and
long-term objectives and in having a long-term impact in the way criminal
justice issues are addressed by tribal governments. During our audit, we


                                     -x-
determined that the audit request was initiated by the Bureau of Justice
Assistance (BJA) in part because of a proposal to restructure its
tribal-specific grant programs into a combined criminal justice program.
However, because of the ineffective monitoring and administration of the
current tribal-specific grant programs noted previously in our report, we
were unable to fully evaluate the effectiveness of the current DOJ strategy.
Therefore, in our judgment, changes to the current funding strategy are
premature because there is no indication at this time that such changes in
the funding strategy will enhance tribal-specific grant programs.

       The BJA has proposed consolidating the Tribal Courts, Indian Alcohol
and Substance Abuse, Tribal Drug Courts, and Tribal Youth programs “in an
effort to streamline funding” that would allow tribal governments increased
flexibility in prioritizing criminal justice needs and determining how the grant
funds will be utilized. According to the BJA, the proposed Tribal Justice
Assistance Grant (TJAG) Program would also streamline the application
process and grant requirements, and attempt to eliminate duplication of
monitoring efforts.

       The proposed TJAG Program is in line with the DOJ policy on tribal
sovereignty, in that it would allow tribal governments to assess their criminal
justice priorities and determine how the grant funds will be utilized.
However, any proposed strategy must balance accountability with flexibility.
In Findings I through IV of this audit, we found that current grant programs
have not been adequately monitored or effectively administered by the
granting agencies. Further, we found that tribal grantees were not always in
compliance with grant requirements and did not always expend grant funds
in accordance with laws, regulations, and the terms and conditions of the
grant. In light of the many issues identified in Findings I through IV, the
proposed TJAG Program may not best strike the balance between ensuring
that criminal justice needs of tribal governments are met, while balancing
the need for accountability.

       Our audit also disclosed that the COPS Office, OJP, and OVW did not
ensure that the grantees are providing basic information necessary to
determine whether grant programs have been implemented and grant
objectives have been achieved. Specifically, for the majority of the grants
reviewed one or more required financial and progress reports, which contain
the minimum information necessary to determine whether grant programs
have been implemented and grant objectives are being achieved (especially
final reports), were not submitted or were not submitted in a timely manner.
Further, grant closeout should include a review to determine whether grant
objectives were achieved. However, we found that grants were not closed


                                     - xi -
out in a timely manner, which limited our ability to determine the
effectiveness of grant programs.

       As a result, our audit focused on the utilization of grant funding as an
indicator of whether the grants have been fully implemented and program
objectives have been achieved. Our review of the obligation and utilization
of grant funds found that the tribal-specific grant programs were not always
fully implemented in a timely manner, an indication that grant objectives
have not been achieved and that the current programs are not fully effective
in meeting the criminal justice needs of tribal governments. To more fully
evaluate tribal grant effectiveness, the OIG is also planning to initiate a
separate follow-on audit of a tribal-specific grant program that will examine
grantee performance information to determine whether grant objectives are
being achieved.

       Historically, the DOJ implemented a series of initiatives designed to
improve law enforcement and the administration of criminal and juvenile
justice in Indian Country. These initiatives also attempted to address some
of the problems that significantly impact the federal government’s ability to
effectively implement grant programs that provide funding to tribal
governments, discussed in the Background section of this report.

       Currently, the DOJ funds criminal justice needs in Indian Country
through mandatory set-asides or programs intended specifically for tribal
governments. Tribal governments benefit from the DOJ’s current practice
because they are not required to compete with state and local governments
for limited criminal justice funding.

       Based on the successful practices identified by the National Institute of
Justice (NIJ) from research conducted on past initiatives, coordination and
information sharing are an essential part of any strategy for effectively
providing assistance to tribal governments and addressing the wide range of
unique issues specific to Indian Country. The DOJ grants to tribal
governments are administered by various DOJ components, bureaus, and
offices, including the COPS Office, BJA, Office of Juvenile Justice Delinquency
Prevention (OJJDP), Office of Victims of Crime (OVC), and OVW. The OJP is
responsible for policy coordination and general management of the BJA,
OJJDP, OVC, and the American Indian and Alaska Native Affairs Desk (AI/AN
Affairs Desk).11 Additionally, the OTJ coordinates DOJ policies and positions
       11
           The AI/AN Affairs Desk is designed to enhance access to information by federally
recognized American Indian and Alaska Native tribes regarding funding opportunities,
training and technical assistance, and other relevant information.



                                           - xii -
on Indian Country issues. As a result, any comprehensive strategy to
improve the responsiveness of the DOJ to criminal justice needs in Indian
Country must start with the development of a formal process for
coordination and training.

       We found that there is no formal mechanism in place for coordination
and information sharing within OJP and among the DOJ components.
Generally, each component had an informal mechanism in place for
coordination and information sharing. However, these coordination efforts
appear to be ad hoc, occurring only when one of the participants initiates
efforts for specific activities. A formal mechanism for coordination and
information sharing could require grant mangers to provide copies of
monitoring reports to the other components, bureaus, and offices.

       We also found the DOJ has not effectively implemented a training
program to deal with the unique issues related to tribal governments. In our
judgment, the DOJ should establish a formal process to train staff
responsible for administering and monitoring tribal-specific grant programs.
Training should focus on: 1) the wide range of unique issues specific to
tribal governments; 2) cultural awareness, including the history of the
relationship between the federal and tribal governments; 3) the sovereign
status of tribal governments; and 4) the jurisdictional complexities and
limitations in Indian Country.


Recommendations

      Our report contains 53 recommendations that focus on specific steps
that the COPS Office, OJP, and OVW should take to improve the monitoring
and administration of tribal-specific grant programs and enhance the DOJ
strategy for grants awarded to tribal governments. Specifically, our
recommendations seek to ensure that:

  •   monitoring by grant managers, including on-site visits and desk
      reviews, systematically occur;

  •   required financial and progress reports are submitted in a timely
      manner;

  •   grant funds are withheld during periods when required financial and
      progress reports have not been submitted;

  •   grant funds are made available to grantees in a timely manner;


                                   - xiii -
•   grantees utilize grant funds in a timely manner;

•   funds drawn down by grantees do not exceed immediate needs for
    active grants and excess funds are not drawn down for expired grants;

•   expired grants are closed in a timely manner;

•   grantees are not allowed to draw down grant funds more than 90 days
    after the grant end date;

•   remaining grant funds for expired grants are deobligated and put to
    better use;

•   a formal process for coordinating and sharing information related to
    tribal-specific grant programs is implemented; and

•   staff responsible for monitoring and administering tribal grants receive
    adequate training.




                                  - xiv -
  ADMINISTRATION OF DEPARTMENT OF JUSTICE GRANTS
         AWARDED TO NATIVE AMERICAN AND
        ALASKA NATIVE TRIBAL GOVERNMENTS

                                  TABLE OF CONTENTS
INTRODUCTION .................................................................................. 1

  DOJ Grant Funding Agencies .............................................................. 3

       Office of Community Oriented Policing Services.................................. 3
       Office of Justice Programs ............................................................... 5
       Office on Violence Against Women ................................................... 7

  Issues Affecting Federal Grant Programs for Tribal Criminal Justice
      Systems ................................................................................... 8

  Efforts to Improve Relations Among Federal and Tribal Governments....... 9

  Prior Reviews................................................................................. 10

  DOJ Top Management Challenges ..................................................... 12

  Audit Objectives ............................................................................. 13

FINDINGS AND RECOMMENDATIONS ................................................... 14

  I.      EFFECTIVENESS OF GRANT MONITORING ................................... 14

       Formal Grant Monitoring ............................................................... 16
       Financial Reports ......................................................................... 19
       Progress Reports ......................................................................... 20
       Conclusion .................................................................................. 24
       Recommendations ....................................................................... 25

  II.     UTILIZATION OF GRANT FUNDS................................................. 27

       Availability of Grant Funds ............................................................ 28
       Utilization of Grant Funds ............................................................. 29
       Drawdowns in Excess of Cumulative Grant Expenditures ................... 34
       Conclusion .................................................................................. 35
       Recommendations ....................................................................... 35
  III. GRANT CLOSEOUT ................................................................... 38

    Grant Closeout ............................................................................ 39
    Analysis of Drawdowns on Expired Grants ....................................... 41
    Conclusion .................................................................................. 44
    Recommendations ....................................................................... 44

  IV. ALLOWABILITY OF COSTS CHARGED TO TRIBAL-SPECIFIC
      GRANT PROGRAMS .................................................................. 47

    Dollar-Related Findings................................................................. 49
    Periodic Grantee Reports .............................................................. 51
    Other Findings Reported ............................................................... 52
    Conclusion .................................................................................. 53

  V.    DOJ STRATEGY FOR AWARDING GRANTS TO TRIBAL
        GOVERNMENTS ....................................................................... 54

    Proposed Funding Strategy ........................................................... 55
    Effectiveness of the Current DOJ Funding Strategy ........................... 56
       Grant Program Effectiveness ...................................................... 57
       Impairments to the Current Funding Strategy ............................... 59
       Analysis of Current Tribal-Specific Grant Programs ........................ 60
       Tribal Response to Current Funding Strategy ................................ 63
    Prior DOJ Funding Strategies ......................................................... 64
    Coordination and Training ............................................................. 66
    Conclusion .................................................................................. 69
    Recommendations ....................................................................... 70
STATEMENT ON INTERNAL CONTROLS ................................................. 71

  Finding I ....................................................................................... 71

  Finding II ...................................................................................... 71

  Finding III ..................................................................................... 72

  Finding V....................................................................................... 72

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ............... 74
APPENDIX I - SCHEDULE OF DOLLAR-RELATED FINDINGS ...................... 75

APPENDIX II - OBJECTIVES, SCOPE, AND METHODOLOGY ...................... 76

APPENDIX III - OFFICE OF JUSTICE PROGRAMS BUREAUS, PROGRAM
  OFFICES, AND AGENCY-WIDE SUPPORT OFFICES ............................... 82

APPENDIX IV - OTHER GRANT PROGRAMS OFFERED TO TRIBAL
  GOVERNMENTS BY THE COPS OFFICE ............................................... 85

APPENDIX V- OTHER GRANT PROGRAMS OFFERED TO TRIBAL
  GOVERNMENTS BY OJP ................................................................... 87

APPENDIX VI - CRIMINAL JURISDICTION IN INDIAN COUNTRY................ 90

APPENDIX VII - PRIOR AUDITS CONDUCTED BY THE OIG OF COPS
  OFFICE GRANTS AWARDED TO TRIBAL GOVERNMENTS ....................... 93

APPENDIX VIII - PRIOR AUDITS CONDUCTED BY THE OIG OF OJP
  GRANTS AWARDED TO TRIBAL GOVERNMENTS .................................. 94

APPENDIX IX - COPS OFFICE TOTAL QUESTIONED COSTS RELATED TO
  EXCESS DRAWDOWNS ON EXPIRED GRANTS..................................... 95

APPENDIX X - OJP TOTAL QUESTIONED COSTS RELATED TO EXCESS
  DRAWDOWNS ON EXPIRED GRANTS................................................. 96

APPENDIX XI - OVW TOTAL QUESTIONED COSTS RELATED TO EXCESS
  DRAWDOWNS ON EXPIRED GRANTS................................................. 97

APPENDIX XII - COPS OFFICE TOTAL FUNDS PUT TO BETTER USE
  RELATED TO REMAINING GRANT FUNDS ON CLOSED GRANTS ............. 98

APPENDIX XIII - OVW TOTAL FUNDS PUT TO BETTER USE RELATED TO
  REMAINING GRANT FUNDS ON CLOSED GRANTS................................ 99

APPENDIX XIV - COPS OFFICE TOTAL QUESTIONED COSTS RELATED
  TO DRAWDOWNS ON EXPIRED GRANTS OCCURRING MORE THAN 90
  DAYS PAST THE GRANT END DATE ................................................. 100

APPENDIX XV - OJP TOTAL QUESTIONED COSTS RELATED TO
  DRAWDOWNS ON EXPIRED GRANTS OCCURRING MORE THAN 90
  DAYS PAST THE GRANT END DATE ................................................. 104
APPENDIX XVI - OVW TOTAL QUESTIONED COSTS RELATED TO
  DRAWDOWNS ON EXPIRED GRANTS OCCURRING MORE THAN 90
  DAYS PAST THE GRANT END DATE ................................................. 106

APPENDIX XVII - COPS OFFICE TOTAL FUNDS PUT TO BETTER USE
  FOR EXPIRED GRANTS 90 DAYS PAST THE GRANT END DATE ............ 107

APPENDIX XVIII - OJP TOTAL FUNDS PUT TO BETTER USE FOR
  EXPIRED GRANTS 90 DAYS PAST THE GRANT END DATE ................... 113

APPENDIX XIX - OVW TOTAL FUNDS PUT TO BETTER USE FOR
  EXPIRED GRANTS 90 DAYS PAST THE GRANT END DATE ................... 116

APPENDIX XX - COPS OFFICE RESPONSE TO THE DRAFT REPORT ...........117

APPENDIX XXI - OFFICE OF THE INSPECTOR GENERAL COMMENTS ON
  THE COPS OFFICE RESPONSE TO THE DRAFT REPORT....................... 129

APPENDIX XXII - OJP RESPONSE TO THE DRAFT REPORT ......................142

APPENDIX XXIII - OFFICE OF THE INSPECTOR GENERAL COMMENTS
  ON THE OJP RESPONSE TO THE DRAFT REPORT ............................... 148

APPENDIX XXIV - OVW RESPONSE TO THE DRAFT REPORT ....................151

APPENDIX XXV - ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
  TO CLOSE THE REPORT................................................................. 162
                                  INTRODUCTION


      According to the 2000 Census, 4.1 million people,1 or 1.5 percent of
the total population, identified themselves as American Indians or Alaska
Natives (Native Americans).2 Despite the relatively small Native American
population, a 2001 study conducted by the Bureau of Justice Statistics (BJS)
indicated that Native Americans are more likely to experience rape or sexual
assault, robbery, aggravated assault, and simple assault than people of any
other race.3 Another study conducted by the BJS indicated that:4

   •   Native Americans experience per capita rates of violence that are more
       than twice those of the United States resident population.

   •   Rates of violence in every age group are higher among Native
       Americans than that of all other races.

   •   Nearly a third of all Native American victims of violence are between
       ages 18 and 24, the highest per capita rate of violence of any racial
       group considered by age - approximately 1 violent crime for every
       4 persons of this age range.

   •   The arrest rate among Native Americans for alcohol-related offenses
       was more than double that found among all races.

   •   On a per capita basis, Native Americans had a rate of prison
       incarceration about 38 percent higher than the national rate.

       One strategic objective of the Department of Justice (DOJ) is to
improve the crime fighting and criminal justice administration capabilities of
tribal governments.5 This objective is incorporated in the DOJ Strategic


       1
        This statistic includes 2.5 million individuals in the United States who identify
themselves as Native American, and another 1.6 million who identify themselves as part
Native American.
       2
         Throughout this report, the term “Native Americans” is used to indicate American
Indians and Alaska Natives.
       3
           BJS Special Report, Violent Victimization and Race, 1993-98, March 2001.
       4
           BJS, American Indians and Crime, February 1999.
       5
          U.S. Department of Justice, Fiscal Years 2003 - 2008, Strategic Plan, (DOJ
Strategic Plan).




                                            -1-
Plan, which includes the goals, objectives, and strategies for achieving its
mission. The DOJ’s strategies for achieving this objective include:

   •   providing resources to states, tribes, and local jurisdictions to enhance
       law enforcement efforts;

   •   providing direct technical support to state, local, and tribal law
       enforcement;

   •   facilitating the prosecution and adjudication of federal, state, tribal,
       and local laws;

   •   enhancing the human and technological capability of state, tribal, and
       local jurisdictions to share information and resources to combat crime;
       and

   •   providing funding, information, training, and technical assistance to
       state, local, and tribal governments to prevent juvenile delinquency
       and improve the juvenile justice system.

       Although the federal government’s role in crime-fighting has expanded
in recent years, most of the responsibility for crime control and prevention
rests with our state and local governments, including tribal governments. To
this end, the DOJ seeks to provide leadership and support to further develop
their capacity to prevent and control crime and administer justice fairly and
effectively by providing various grant programs, training, technical
assistance, research, and statistics.

      Within the DOJ, the Office of Community Oriented Policing Services
(COPS Office), Office of Justice Programs (OJP), and Office on Violence
Against Women (OVW) are the primary agencies responsible for providing
grant funding to enhance and support the efforts of tribal governments to
address crime, violence, and victimization in Native American communities
and villages.6 The COPS Office, OJP, and OVW also provide funding for
research and evaluation projects, and training and technical assistance.
These components provide funding to tribal governments mostly through
mandatory set-asides or programs intended specifically for tribal
governments.



       6
         Under a provision in the 2002 Justice Department reauthorization bill, enacted in
October 2002, OVW became a permanent and independent office within the DOJ.




                                           -2-
DOJ Grant Funding Agencies

       During FYs 2000 through 2003, the COPS Office, OJP, and OVW
funding for grant programs to improve criminal justice systems totaled
$18.8 billion, of which $424.2 million (2.3 percent) was awarded to tribal
governments. These components provided funding to tribal governments
totaling $77.4 million through competitive programs and mandatory
set-asides and $346.8 million through programs intended specifically for
tribal governments.


Office of Community Oriented Policing Services

       The mission of the COPS Office is to advance community policing in
jurisdictions of all sizes across the country. To this end, the COPS Office
provides grants to state, local, and tribal law enforcement agencies to hire
and train community-policing professionals, acquire and deploy new
crime-fighting technologies, and develop and test innovative policing
strategies.

       Our audit generally included, but was not limited to, grants awarded to
tribal governments during FYs 2000 through 2003. During the period
covered by our audit, the COPS Office budget totaled $4.1 billion, of which
$147.13 million (3.6 percent) was awarded to tribal governments, as shown
in Table 1.

TABLE 1. TRIBAL FUNDING AWARDED BY THE COPS OFFICE
               (Dollars in Millions)
                                       FY 2000   FY 2001   FY 2002   FY 2003   TOTAL
Total Budget                           $595.00 $1,037.12 $1,050.44 $1,381.03 $4,063.59
Tribal Resource Grant Program           $35.23    $34.10    $31.63    $29.33   $130.29
Tribal Hiring Renewal Grant Program       0.00      0.55      1.18      6.83      8.56
Tribal Mental Health and Community
  Safety Initiative                       0.24      0.80      0.92      0.00      1.96
Other Programs                            1.68      1.66      1.96      1.02      6.32
Total Funding Awarded to Tribal
 Governments, All Programs              $37.15    $37.11    $35.69    $37.18   $147.13
Source: DOJ Budget Summaries for FYs 2001 – 2003 and the COPS Office




                                           -3-
     The COPS Office awards funding to tribal governments through
programs that are open to all state, local, and tribal governments, and
through the following programs that are intended specifically for tribal
governments.7

   •   Tribal Resource Grant Program (TRGP) is a broad grant program
       designed to meet law enforcement needs in Native American
       communities and villages. This program offers a wide variety of
       funding in areas such as hiring additional officers, law enforcement
       training, uniforms, basic issue equipment, emerging technologies, and
       police vehicles.

   •   Tribal Hiring Renewal Grant Program (THRGP) is designed to assist
       fiscally distressed tribal governments by renewing previous COPS
       hiring grant positions that have been exempted from the retention
       requirement on recently expired COPS hiring grants.8 The THRGP
       provides 100 percent of allowable salary and benefit costs for renewed
       officer positions with no local funding match requirement for an
       additional 2-year period. This program focuses on Native American
       communities and villages which have limited resources, many of which
       are affected by high rates of crime and violence.

   •   Tribal Mental Health and Community Safety Initiative (MHCSI)
       provides funding directly to tribal jurisdictions with established law
       enforcement agencies. The MHCSI offers a variety of funding options,
       including entry-level salaries and benefits of newly hired officers,
       training, uniforms, basic issue equipment, officer-related technology,
       and vehicles for new and existing police officers. The MHCSI was
       designed to expand the implementation of community policing and
       meet the most serious needs of law enforcement in Native American
       communities and villages through a broadened comprehensive
       program. All officers hired under the MHCSI grant program (or an
       equal number of veteran, locally funded officers) must serve as school
       resource and/or community resource officers. The MHCSI grant
       program is intended to strengthen the overall law enforcement
       infrastructure in Native American communities and villages.



       7
          See Appendix IV for a listing of other COPS Office grant programs awarded to
tribal governments.
       8
         The COPS Office provides grants to state, local, and tribal law enforcement
agencies to hire and train sworn officers and enhance community policing efforts.




                                           -4-
   •   Tribal Court Pilot Program (TCPP) funding is intended to provide
       assistance to address the increase in caseloads associated with
       increased arrests anticipated from grant funding to support tribal law
       enforcement. Specifically, this program funds 100 percent of the total
       costs to implement one or more of the following: 1) salaries and
       benefits to hire additional court personnel (e.g., probation officers,
       process servers); 2) additional training for new and existing court
       personnel; 3) additional technology to improve and enhance case
       management (e.g., computer hardware, software); and 4) any other
       measure that may provide a significant improvement in case
       management and is not otherwise funded with tribal, state, or local
       funds.


Office of Justice Programs

       The OJP administers grant programs, supports research and evaluation
projects, and provides training and technical assistance for state, local, and
tribal governments.9 Our audit generally included, but was not limited to,
grants awarded to tribal governments during FYs 2000 through 2003.
During the period covered by our audit, the combined OJP and OVW budget
totaled $15.4 billion of which $277.03 million (1.8 percent) was awarded to
tribal governments, as shown in Table 2.10




       9
        See Appendix III for a listing of the OJP bureaus, program offices, and
agency-wide support offices.
       10
         Under a provision in the 2002 Justice Department reauthorization bill, enacted in
October 2002, OVW became a permanent and independent office within the DOJ; however,
funding was not reported separately from OJP until the FY 2005 proposed budget.




                                           -5-
TABLE 2. TRIBAL FUNDING AWARDED BY OJP AND OVW
             (Dollars in Millions)
                                    FY 2000 FY 2001 FY 2002 FY 2003          TOTAL
Total Combined OJP and OVW
 Budget                            $3,919.61 $4,175.72 $4,636.63 $1,960.68 $14,692.64
OJP - Indian Alcohol and Substance
 Abuse Program                         $0.00     $0.00     $0.00     $7.60      $7.60
OJP - Tribal Courts Assistance
 Program                                3.91      0.00      7.91     11.58      23.40
OJP - Correctional Facilities on
 Tribal Lands Program                  28.84     19.45     42.67      0.00      90.96
OJP - Tribal Youth Program               7.73      10.04     20.28        9.82      47.87
OJP - Tribal Victim Assistance
 Discretionary Grant Program             0.92       1.36       1.64       2.11           6.03
OJP - Children’s Justice Act
 Partnerships for Indian
 Communities Program                     0.56       1.22       1.44       1.56           4.78
OJP - Other Programs                    21.49      17.34     14.88      17.37       71.08
Total OJP Funding Awarded to
  Tribal Governments                  $63.45     $49.41     $88.82     $50.04     $251.72
OVW - S●T●O●P Violence Against
  Indian Women Program                  $5.92      $7.65     $4.84      $6.90      $25.31
Total OJP and OVW Funding
  Awarded to Tribal Governments       $69.37     $57.06     $93.66     $56.94     $277.03
Source: DOJ Budget Summaries for FYs 2001 – 2003, OJP, and OVW

      The OJP awards funding to tribal governments through its programs
that are open to all state, local, and tribal governments, and through the
following programs that are intended specifically for tribal governments.11

   •   Indian Alcohol and Substance Abuse Program is designed to reduce
       crimes associated with the distribution and abuse of alcohol and
       controlled substances in tribal communities. The program seeks to
       mobilize Native American communities and villages to implement or
       enhance innovative, collaborative efforts to address public safety
       issues related to alcohol and substance abuse.

   •   Tribal Courts Assistance Program is designed to support the
       implementation, enhancement, and continuing operation of tribal
       justice systems.


       11
           See Appendix V for a comprehensive listing of OJP grant programs offered to
tribal governments.




                                          -6-
  •   Correctional Facilities of Tribal Lands Program is designed to support
      the construction of jails on tribal lands for the incarceration of
      offenders subject to tribal jurisdiction.

  •   Tribal Youth Program is designed to support and enhance tribal efforts
      to prevent and control delinquency and improve the juvenile justice
      system for Native American youth. A major focus of the program is
      providing Native American youth with mental health services. Up to
      10 percent of the allocation will be invested in program-related
      research, evaluation, and statistics on tribal activity.

  •   Tribal Victim Assistance Discretionary Grant Program is designed to
      create accessible and responsive victim assistance services on tribal
      lands and reservations where federal prosecution of major crimes
      occurs.

  •   Children’s Justice Act Partnerships for Indian Communities
      Discretionary Grant Program is designed to help tribal justice systems
      address serious child abuse cases by developing specialized services
      and procedures to address the needs of Native American child victims
      and strategies to handle cases of child sexual abuse.


Office on Violence Against Women

       The OVW is responsible for managing the DOJ’s legal and policy issues
regarding violence against women and coordinating DOJ efforts in this area
by providing national and international leadership, receiving international
visitors interested in learning about the federal government’s role in
addressing violence against women, and responding to requests for
information regarding violence against women. The OVW administers the
following tribal-specific grant program.

  •   S●T●O●P Violence Against Indian Women Discretionary Grant Program
      is intended to develop and strengthen tribal law enforcement and
      prosecution efforts to combat violence against Native American women
      and to develop and enhance services for victims of such crimes.




                                     -7-
Issues Affecting Federal Grant Programs for Tribal Criminal Justice
Systems

      According to a study funded by Office of Victims of Crime (OVC), there
are a wide range of concerns that significantly impact the federal
government’s ability to effectively implement grant programs that provide
funding for tribal criminal justice systems.12 These concerns include:

   •   The critical issue of cultural differences must be addressed in any
       effort to promote a strong relationship between the tribal government
       and the federal government.

   •   As stated previously, the crime rate, especially the violent and juvenile
       crime rates, has been increasing in Indian County while crime rates
       have declined nationwide.

   •   There are numerous jurisdictional complexities and limitations in
       Indian Country that present overwhelming difficulties in any effort to
       improve the relationship between tribal governments and the federal
       government. The confusing jurisdiction among tribal, federal, and
       state governments has resulted in jurisdictional gaps and disputes.13
       The difficulty of determining jurisdiction, and provisions for concurrent
       jurisdiction of certain cases, can cause conflict and confusion for law
       enforcement, prosecution, courts, service providers, and crime victims
       in Indian Country.

   •   There is a lack of understanding and contact by the federal
       government with tribal criminal justice systems, including tribal court
       systems.

   •   Tribal justice systems are inadequately funded and the lack of
       adequate funding impairs their operation.

   •   The lack of facilities and resources available to most criminal justice
       systems is complicated by the isolated, rural location of most Indian
       reservations.


       12
          The Center on Child Abuse and Neglect, Improving the Relationship between
Indian Nations, the Federal Government, and State Governments: Developing and
Implementing Cooperative Agreements or Memorandums of Understanding, March 2000.
       13
            See Appendix VI for an analysis of criminal jurisdiction in Indian Country.




                                              -8-
Efforts to Improve Relations Among Federal and Tribal Governments

       In April 1994, during a meeting with the heads of tribal governments,
former President Clinton made a commitment to improve the federal
government’s relationship with tribal governments and issued a directive to
all executive departments and agencies of the federal government to:

  •   operate within a government-to-government relationship with federally
      recognized tribes;

  •   consult, to the greatest extent practicable and permitted by law, with
      tribal governments before taking actions that affect federally
      recognized tribes;

  •   assess the impact of agency activities on tribal trust resources and
      assure that tribal interests are considered before the activities are
      undertaken;

  •   remove procedural impediments to working directly with tribal
      governments on activities that affect trust property or governmental
      rights of the tribes; and

  •   work cooperatively with other agencies to accomplish the goals
      established by the President.

       In an effort to enhance the DOJ’s communication and coordination with
tribal governments, in 1995 the Attorney General established the Office of
Tribal Justice (OTJ). The OTJ coordinates DOJ policies and positions on
Native American issues; maintains a liaison with the federally recognized
tribes, and works on Native American issues with appropriate federal, state
and local officials, professional associations and public interest groups.

       In June 1995, the DOJ issued policy on Indian Sovereignty and
Government-to-Government Relations With Indian Tribes. The policy
reaffirms the DOJ’s recognition of the sovereign status of federally
recognized tribes as domestic dependent nations, and provides guidance on
Indian affairs.




                                     -9-
Prior Reviews

      The Office of the Inspector General (OIG) has conducted several
reviews of the COPS Office and OJP’s grant monitoring activities that
addressed concerns related to those identified in this audit. Specifically,

   •   Police Hiring and Redeployment Grants, Summary of Audit Findings
       and Recommendations, October 1996 - September 1998,
       Report No. 99-14, April 1999, found that the COPS Office did not
       always ensure that its grant recipients complied with critical grant
       requirements.

   •   Management and Administration of the Community Policing Services
       Grant Program, Report No. 99-21, July 1999, found that the COPS
       Office: 1) did not always ensure that unaccepted grants funds were
       deobligated in a timely manner, 2) needed to improve guidance for
       grantees in critical areas of compliance, 3) needed to increase the
       level of monitoring efforts of grantee compliance with critical grant
       requirements; and 4) needed to improve financial controls.

   •   Office of Justice Programs, State and Local Domestic Preparedness
       Grant Programs, Report No. 02-15, March 2002, found that grant
       funds were not awarded quickly and grantees were very slow to spend
       available monies.

   •   The Office of Justice Programs Convicted Offender DNA Sample
       Backlog Reduction Grant Program, Report No. 02-20, May 2002, found
       that financial and progress reports were not always filed or were not
       filed in a timely manner.

   •   The No Suspect Casework DNA Backlog Reduction Program, Report
       No. 05-02, November 2004, found that there were significant delays in
       drawing down grant funds for DNA backlog reduction efforts, and
       unallowable and unsupported costs were charged to the grants.

   •   U.S. Department of Justice Annual Financial Statement, Fiscal
       Year 2004, Report No. 05-03, December 2004, found significant issues
       with OJP’s overall control environment for financial reporting, and
       grant accounting and monitoring.




                                     - 10 -
      From FYs 1998 through 2003, the OIG conducted 27 audits of COPS
Office and OJP grants awarded to tribal grantees.14 These audits resulted in
questioned costs totaling $4.19 million and funds put to better use totaling
$3.04 million, and identified weaknesses in the following areas.15

   •   Unallowable and unsupported costs were charged to the grants.

   •   Financial and progress reports were missing, late, and inaccurate.

   •   Grant activities were not fully implemented.

   •   Drawdowns occurred after the grant end date.

   •   Grants funds awarded were not used.

   •   Grant funds in excess of grant expenditures were drawn down.

       These findings are consistent indications that the COPS Office and OJP
are not effectively monitoring and administering the DOJ’s grants awarded to
tribal governments.

       The Government Accountability Office (GAO) has also conducted
reviews of the COPS Office and OJP grant monitoring activities which are
related to our audit. Although these reports were not related to any
tribal-specific grant programs, each addressed concerns similar those
identified in our audit. Specifically,

   •   Community Policing: Issues Related to the Design, Operation, and
       Management of the Grant Program, Report No. GAO/GGD-97-167,
       September 1997, found that on-site and telephone monitoring by
       grant managers did not systematically occur.

   •   Justice Discretionary Grants: Byrne Program and Violence Against
       Women Office Grant Monitoring Should Be Better Documented,
       14
           See Appendices VII and VIII for a listing of audits, including dollar-related
findings, of COPS Office and OJP tribal grantees conducted by the OIG.
       15
           Questioned Costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.
             Funds Put to Better Use are funds not yet expended that could be used more
efficiently if management took actions to implement and complete audit recommendations.




                                            - 11 -
      Report No. GAO-02-25, November 2001, found that: 1) grant
      monitoring plans were not always developed for each award and
      monitoring was not always documented, 2) progress reports were not
      always filed for the majority of awards reviewed, 3) financial status
      reports were not always filed for about half the awards reviewed, and
      4) based on a limited review, grant files did not contain required
      closeout materials.

  •   Juvenile Justice: Better Documentation of Discretionary Grant
      Monitoring is Needed, Report No. GAO-02-65, October 2001, found
      that: 1) telephone monitoring contacts were not documented for
      almost all awards reviewed, 2) there was no documentation supporting
      that on-site monitoring requirements were met for almost all awards
      reviewed, 3) progress reports were not always filed for the majority of
      awards reviewed, 4) grant manager compliance with grant monitoring
      requirements was not systematically reviewed by the program office,
      and 5) various closeout materials were missing from the grant files.


DOJ Top Management Challenges

      Since 1998, the OIG has created an annual list of the top
10 management challenges for the DOJ. For the last 5 years, grant
management has been identified by the OIG as one of the DOJ’s
top management challenges. The OIG reported that grant management
continues to be a challenge for the following reasons:

  •   reviews continue to determine that many grantees do not submit
      financial and progress reports;

  •   numerous deficiencies continue to be found in monitoring COPS Office
      grants;

  •   audits found that grant funds were not always awarded quickly and
      grantees were slow to spend available monies; and

  •   more than 375 OIG audits of COPS Office grants have resulted in
      significant dollar-related findings.




                                   - 12 -
Audit Objectives

      The OIG conducted this audit at the request of OJP to review the
administration of DOJ grants awarded to tribal governments by the COPS
Office, OJP, and OVW. In developing the objectives of the audit, we also
considered the concerns identified in past grant audits and in the OIG’s
report on the DOJ’s top 10 management challenges. As a result, the
objectives of this audit were to evaluate:

  •   the adequacy of monitoring and administration of tribal-specific grant
      programs;

  •   whether costs charged to the tribal-specific grants are allowable and in
      accordance with applicable laws, regulations, guidelines, and terms
      and conditions of the grants; and

  •   the effectiveness of the DOJ’s overall strategy for awarding grants to
      tribal governments.




                                    - 13 -
              FINDINGS AND RECOMMENDATIONS


I.   EFFECTIVENESS OF GRANT MONITORING

     The COPS Office, OJP, and OVW are not effectively monitoring
     the tribal-specific grant programs. We found that only 4 percent
     of the 102 grant files reviewed contained on-site monitoring
     reports, only 12 percent contained office-based desk reviews,
     and none contained evidence that telephone monitoring was
     conducted. Officials in the COPS Office, OJP, and OVW stated
     that they rely on required financial and progress reports, which
     do not generally contain documentation supporting the
     information reported, to monitor tribal grantees. However,
     81 percent of the grant files reviewed were missing one or more
     required financial reports and 80 percent were missing one or
     more required progress reports. Moreover, financial reports
     were not submitted in a timely manner for 97 percent of grants
     and progress reports were not submitted in a timely manner for
     88 percent of the grants. Further, the COPS Office has only
     sporadically required progress reports for its grants and no
     progress reports have been required for grants awarded after
     FY 2001. We also found that, despite the fact that required
     financial and progress reports are not being submitted for certain
     grants, the COPS Office, OJP, and OVW did not prohibit those
     grantees from drawing down funds totaling $10.69 million.

      Grant monitoring is an essential management tool to ensure that grant
programs are implemented, objectives are achieved, and tribal grantees are
properly expending funds. To this end, federal regulations require that
grantees be monitored throughout the life of the grant to ensure that:
1) the grantee complies with the programmatic, administrative, and fiscal
requirements of the relevant statutes, regulations, policies, and guidelines;
2) programs initiated by the grantee are carried out in a manner consistent
with the relevant statutes, regulations, policies, and guidelines of the
program; 3) the grantee is provided guidance on policies and procedures,
grant program requirements, general federal regulations, and basic
programmatic, administrative and financial reporting requirements; and
4) any problems that may impede the effective implementation of the
program are identified and resolved.

     To assess the adequacy of monitoring related to tribal-specific grant
programs, we judgmentally selected a sample of 102 grants totaling



                                   - 14 -
$82.74 million awarded to tribal governments. Our sample consisted of
59 COPS Office grants totaling $32.16 million, 34 OJP grants totaling
$47.43 million, and 9 OVW grants totaling $3.15 million.16 For each grant
selected, we reviewed the grant file(s) to determine whether the COPS
Office, OJP, and OVW were monitoring grants awarded to tribal
governments, and whether required financial and progress reports were
submitted in a timely manner.

        Based on the results of our review, we determined that the COPS
Office, OJP, and OVW are not effectively monitoring grants awarded to tribal
governments. As a result, the DOJ has no assurances that the objectives of
its tribal-specific grant programs are being met or that expenditures of grant
funds are in accordance with applicable laws, regulations, guidelines, and
terms and conditions of the grants. Specifically, we found that:

   •   only 4 percent of the 102 grant files reviewed contained on-site
       monitoring reports, only 12 percent contained office-based desk
       reviews, and none contained evidence that telephone monitoring was
       conducted;

   •   81 percent of the grant files reviewed were missing one or more
       financial reports, and financial reports were not submitted in a timely
       manner for 97 percent of grants;

   •   80 percent of the grant files reviewed were missing one or more
       progress reports, and progress reports were not submitted in a timely
       manner for 88 percent of the grants;

   •   the COPS Office has only sporadically required progress reports for its
       grants and no progress reports have been required for grants awarded
       after FY 2001; and

   •   the COPS Office, OJP, and OVW allowed grantees to draw down funds
       totaling $10,689,765 during periods when required financial and
       progress reports had not been submitted.




       16
           It should be noted that although OVW is currently a permanent and independent
office within the DOJ, at the time the grants were awarded the OVW was still within the
OJP; as a result, the OVW grants reviewed were originally included as a part of the OJP
sample.




                                         - 15 -
Formal Grant Monitoring

      Tribal-specific grant programs should be monitored through formal
methods such as on-site monitoring and office-based desk reviews. Grant
managers in the COPS Office, OJP, and OVW are responsible for conducting
on-site programmatic monitoring for their respective grants. On-site
programmatic monitoring provides grant managers with the opportunity to
observe and discuss with the grantee specific issues related to
implementation plan progress, observe grant activities, and provide on-site
technical assistance. The OJP Office of the Comptroller (OC) is responsible
for conducting on-site financial monitoring reviews for the COPS Office, OJP,
and OVW. The OC develops an annual monitoring plan for conducting
on-site financial reviews that takes into account risk-based factors such as
new grantees, new grant programs, and discretionary grants of $1 million or
more. In addition, the OJP’s National Institute of Justice is responsible for
conducting evaluations of the long-term impact that grant programs have on
crime control and criminal justice issues.

      Office-based desk reviews involve a review of the grant file in order
to: 1) ensure that files are complete, 2) determine if the grantee is in
compliance with the program guidelines, 3) determine if grant special
conditions are being implemented and properly cleared, and 4) assess the
progress of the program and identify any administrative or budgetary
problems. Office-based desk reviews often require grant managers to make
direct contact with the grantee in order to obtain documentation to
demonstrate whether the grantee is in compliance with grant requirements.

      The COPS Office has a monitoring division that is responsible for
conducting on-site monitoring and office-based desk reviews. The COPS
Office prioritizes monitoring using a three-tiered system based on population
served and grant funding received. Each year, the COPS Office Monitoring
Division selects grantees for both on-site monitoring and office-based desk
reviews. Generally, only grantees servicing a population greater than
150,000 or receiving funding of $1 million or more are selected for on-site
monitoring. Grantees that would not normally be selected for an on-site
review may be selected for an office-based desk review.

      The OJP and OVW require that grant managers conduct office-based
desk reviews for all grants at least quarterly. Further, OJP and OVW require
grant managers to develop monitoring plans that includes on-site monitoring
based on the assessed risk of the grantee. The timing and frequency of
on-site reviews is determined by each bureau or program office.




                                   - 16 -
      For each of the 102 grants selected, we reviewed the grant file(s) to
determine whether: 1) a monitoring plan was developed, 2) telephone
monitoring contacts were documented, 3) office-based desk reviews were
conducted, and 4) on-site program monitoring visits were conducted. Based
on the results of our review, we found that formal program and financial
monitoring generally did not occur.17

TABLE 3. FORMAL MONITORING ANALYSIS
                                                 COPS OFFICE         OJP           OVW
 Percentage of grant files that contained
  monitoring plans                                    N/A            26%            22%
 Percentage of grant files that contained
  on-site program monitoring reports                  2%             6%             11%
 Percentage of grant files that contained
  on-site financial monitoring reports                5%             6%             11%
 Percentage of grant files that contained one
  office-based desk review report                     2%             18%            56%
 Percentage of grant files that contained
  evidence that office-based desk reviews
  were conducted quarterly                            N/A            0%              0%
 Percentage of grant files that contained
  evidence that telephone monitoring was
  conducted                                           0%             0%              0%
Source: COPS Office, OJP, and OVW grant files

      As shown in Table 3, most of the OJP and OVW grant files reviewed did
not contain the required program monitoring plans, which should establish
the type and timing of monitoring activities anticipated, including quarterly
desk reviews or annual on-site monitoring visits. The COPS Office does not
require monitoring plans for its grants. Although the COPS Office, OJP, and
OVW grant managers stated that they made periodic telephone contacts with
grantees to discuss grant activities and project status, we found no evidence
of routine telephone contacts documented in the grant files. We also found
that OJP and OVW grant managers did not conduct quarterly office-based
desk reviews; however, the OVW had conducted at least one office-based
desk review for 56 percent of the grants reviewed. Both program and


       17
           During this review, the COPS Office initially did not provide the OIG timely access
to its grant monitoring files. After repeated requests, the COPS Office finally provided its
grant monitoring files; however, it was clear that during the period that access was withheld
from the OIG, the COPS Office had updated the files to add: 1) issue reports, 2) site visit
checklists, and 3) other information related to work that was conducted 2 years previously.
This matter was addressed in a memorandum from the OIG to the COPS Office, dated
March 3, 2004.




                                           - 17 -
financial on-site monitoring reviews were not conducted for the majority of
grants reviewed.

       We discussed the lack of formal monitoring with grant managers from
the COPS Office, OJP, and OVW. The COPS Office grant managers stated
that formal program monitoring is conducted by the COPS Office Monitoring
Division. Officials in the COPS Office Monitoring Division stated that they do
not specifically target tribal grantees for on-site monitoring reviews.
Grantees are generally selected for monitoring based on population, funding,
and additional factors including the location of the grantee. COPS Office
officials stated they will conduct site visits of multiple grantees within
selected geographical areas, which generally would exclude tribal grantees
because they are often located in remote locations.

       Officials from the OJP Bureau of Justice Assistance (BJA) stated that
they are in the process of developing a risk assessment tool to select
grantees for on-site visits. The risk assessment will include the amount of
the award, compliance with grant requirements, and number of other OJP
awards. Additionally, BJA officials are working on a formalized process that
would require desk reviews of all grantees. Other OJP officials stated that
only grantees with extreme problems are selected for site visits. OVW
officials stated that they have not conducted any site visits since August
2002 because of high staff turnover.

       We also determined the number of office-based desk reviews and
on-site monitoring visits conducted by the COPS Office Monitoring Division
for tribal grantees during FYs 2000 through 2003. We found that out of the
900 grants awarded during that period, the COPS Office had only conducted
4 office-based desk reviews and 35 on-site program monitoring visits. For
the 35 on-site monitoring visits, 15 were conducted in FY 2000 and 19 in
FY 2002. No on-site monitoring visits were conducted in FY 2001 and only
one was conducted in FY 2003. Officials from the COPS Office Monitoring
Division stated that on-site monitoring has decreased because of budgetary
constraints.

       The limited on-site monitoring reviews are currently selected based on
factors including the award amount, type of program, and population, rather
than past performance and compliance. In our judgment, the COPS Office,
OJP, and OVW should conduct a risk assessment of each grantee based on
past performance and compliance with grant requirements to determine the
relative priority, timing, and frequency of office-based and on-site
monitoring.




                                    - 18 -
       In the absence of formal monitoring, the COPS Office, OJP, and OVW
officials stated that to monitor tribal grantees they rely on required financial
and progress reports. However, the accuracy of financial and progress
reports can only be assessed through on-site monitoring since grantees are
not required to provide accounting records and other documentation
supporting the information included in their reports. However, we found
that the COPS Office, OJP, and OVW did not ensure that these financial and
progress reports were submitted or submitted in a timely manner.


Financial Reports

       Pursuant to federal regulations, grantees must submit quarterly
financial reports that include actual and cumulative expenditures, and
unliquidated obligations for the reporting period (calendar quarter) for each
grant. As stated previously, according to the COPS Office, OJP, and OVW,
grantees are monitored primarily through these quarterly financial reports.
However, our audit found that 81 percent of the grant files did not contain
all required financial reports. In addition, financial reports were not
submitted in a timely manner for 97 percent of the grants. We also found
that the COPS Office, OJP, and OVW generally did not follow up with
grantees to request missing and late financial reports. In our judgment the
COPS Office, OJP, and OVW cannot adequately monitor grantees if required
financial reports are not submitted or are not submitted in a timely manner.
As a result, the COPS Office, OJP, and OVW do not have any assurances that
tribal grant funds are being properly administered.

      For each of the 102 grants selected, we reviewed the grant file(s) to
determine whether: 1) all required financial reports were submitted,
2) financial reports were submitted in a timely manner, and 3) the granting
agency followed-up with grantees to request missing and late financial
reports.18




       18
           The COPS Office was unable to locate the financial file for one of the grants
selected; therefore, our review of financial reports was based on 58 COPS Office grants
rather than 59.




                                           - 19 -
TABLE 4. FINANCIAL REPORT ANALYSIS
                                               COPS OFFICE   OJP      OVW
Percentage of grant files missing one or
 more financial reports                              83%     76%       89%
Percentage of grant files where one or
 more financial reports were not
 submitted in a timely manner                        97%     100%      89%
Percentage of grants files that contained
 documentation requesting missing and
 late financial reports                              21%     0%        13%
Source: COPS Office, OJP, and OVW grant files

      As shown in Table 4, more than 75 percent of the COPS Office, OJP,
and OVW grants files reviewed were missing one or more financial reports
and almost all grants had one or more reports that were not submitted in a
timely manner.

      We discussed the issue of missing and late financial reports with COPS
Office and OJP financial officials. COPS Office financial officials stated that
they generate a delinquency report quarterly. If financial reports are not
received, COPS Office officials stated that they make telephone contact with
grantees to request the delinquent reports. In June 2003, the COPS Office
stated that they started sending “dunning letters” to follow up with grantees
that are delinquent. However, we found that the telephone contacts and
“dunning letters” generally were not documented in the sample case files.
OJP financial officials stated that there are controls in place to ensure that
financial reports are received. For example, pursuant to OJP policy,
grantees are prohibited from drawing down grant funds if required financial
reports are not filed. However, based on our audit results, we found these
controls do not appear to be working and that the policy to withhold funds
has not been fully enforced.

      OJP financial officials stated that on the 46th day after the end of each
quarter, its system automatically places a hold on grant drawdowns until the
financial report is submitted. However, as discussed in Finding IV of this
report, we determined that for 31 percent of the OJP grants and 25 percent
of the OVW grants audited, grantees were able to draw down funds totaling
$1,263,942 during periods for which a current financial report had not been
submitted.


Progress Reports

      According to federal regulations, grantees are required to submit
periodic progress reports that provide information on grant activities and


                                            - 20 -
accomplishments during the reporting period. Unlike financial reporting
requirements, the reporting period and due dates for progress reports are
set by the granting agency. The OJP and OVW required semi-annual
progress reports for the tribal-specific grant programs included in our audit.
For most COPS Office grants, prior to the 2003 awards, the grant guidelines
required that grantees submit progress reports for its grant programs
annually. However, as shown in Table 5, we found that the reporting
periods for the required “annual” reports generally covered more than
1 year. The required reports for the tribal-specific grant programs are
shown in Table 5.

TABLE 5. COPS OFFICE PROGRESS REPORT REQUIREMENTS
                                                   NO. OF DAYS IN    REPORT DUE
         PROGRAM              REPORTING PERIOD    REPORTING PERIOD      DATE
         TRGP – Hiring        9/1/99 – 12/31/00         488           6/29/01
 1999    TRGP – Hiring        1/1/01 – 12/31/02         730           3/21/03
         TRGP – Equipment     9/1/99 – 12/31/00         488           6/29/01
         TRGP – Hiring        9/1/00 – 12/31/02         852           3/14/03
         TRGP – Equipment     9/1/00 – 12/31/02         852           3/14/03
 2000
         TMHCSI – Hiring      9/1/00 – 12/31/01         487           11/29/02
         TMHCSI – Equipment   9/1/00 – 12/31/01         487           11/29/02
         TRGP – Hiring        8/1/01 – 12/31/03         883           3/12/04
 2001
         TRGP – Equipment     8/1/01 – 12/31/03         883           3/12/04
Source: COPS Office

       In our judgment, the COPS Office progress reporting requirements are
not adequate for effectively monitoring grant activities. As shown in
Table 5, the COPS Office has only required one progress report for the
2000 Tribal Resource Grant Program, 2000 Tribal Mental Health and
Community Safety Initiative, and 2001 Tribal Resource Grant Program Hiring
grants. No other progress reports have been required for these 3-year grant
programs. Further, the required progress reports covered more than a
2-year period for the 2000 and 2001 Tribal Resource Grant Program Hiring
and Equipment grants. As a result, in the absence of a grant extension, the
1-year 2000 and 2001 Tribal Resource Grant Program Equipment grants had
expired long before the COPS Office received any information on grant
activities and accomplishments necessary to determine whether grant
programs were being implemented and objectives were being achieved.

      Further, the COPS Office changed its progress reporting criteria for
most grants awarded after 2002 and now only requires periodic progress
reports (to be defined by the COPS Office). Under this revised approach, the
COPS Office has not yet required any progress reports for the tribal-specific
grant programs shown on the following page.


                                     - 21 -
                      COPS OFFICE GRANTS FOR WHICH
                 NO PROGRESS REPORTS HAVE BEEN REQUIRED

          • 2001 Mental Health and Community Safety Initiative – Hiring
          • 2001 Mental Health and Community Safety Initiative – Equipment
          • 2002 Tribal Resource Grant Program – Hiring
          • 2002 Tribal Resource Grant Program – Equipment
          • 2002 Mental Health and Community Safety Initiative– Hiring
          • 2002 Mental Health and Community Safety Initiative – Equipment
          • 2002 Tribal Hiring Renewal Grant Program
          • 2003 Tribal Hiring Renewal Grant Program
          • 2003 Tribal Resource Grant Program – Hiring
          • 2003 Tribal Resource Grant Program – Equipment


      In the absence of formal monitoring, COPS Office officials stated that
they rely on periodic progress reports. However, it is not possible to rely on
progress reports for monitoring purposes if the COPS Office does not require
reports to be submitted. In our judgment, the COPS Office must require, at
a minimum, annual progress reports for the 3-year hiring grants and
semi-annual progress reports for the 1-year equipment grants, which should
be submitted within 30 days after the end of the reporting period.

       We discussed the changes to the progress report requirements with
COPS Office officials. They stated that the changes were made to ease the
reporting burden on both the tribal grantees and COPS Office grant
managers. The COPS Office officials also stated that it is difficult enough to
get grantees to fill out the currently required paperwork without adding
more frequent progress reports. In our judgment, the COPS Office progress
reporting requirements are inadequate for effectively monitoring grant
activities. Especially, since in the absence of formal monitoring, the COPS
Office officials stated that to monitor tribal grantees they rely on required
progress reports.

      For each of the 102 grants selected, we reviewed the grant file(s) to
determine whether: 1) all required progress reports were submitted,
2) progress reports were submitted in a timely manner, and 3) the granting
agency followed-up with grantees to request missing and late progress
reports, and 4) progress reports were annotated to document that the report
was reviewed by the grant manager. Our audit found that 80 percent of the
grant files did not contain all required progress reports and progress reports
were not submitted in a timely manner for 88 percent of the grants. We
also found that the COPS Office, OJP, and OVW generally did not follow up



                                       - 22 -
with grantees to request missing and late progress reports, and that
progress reports were not annotated to document that they were reviewed
by the grant manager.

TABLE 6. PROGRESS REPORT ANALYSIS
                                                COPS OFFICE        OJP           OVW
Percentage of grant files missing one or
                                                       19
 more progress reports                             62%             97%           100%
Percentage of grant files for which no
 progress reports have been required                24%            N/A            N/A
Percentage of grant files where one or more
 progress reports were not submitted in a
 timely manner                                      76%           100%           100%
Percentage of grant files that contained
 documentation requesting missing
 progress reports                                   33%            3%            33%
Percentage of grant files that contained
 documentation requesting late progress
 reports                                            32%            0%             0%
Percentage of grant files that contained
 evidence that the progress reports had
 been reviewed                                      31%            0%             0%
Source: COPS Office, OJP, and OVW grant files

       As shown in Table 6, most of the COPS Office, OJP, and OVW grant
files reviewed were missing one or more required progress reports and
almost all grants had one or more progress reports that were not submitted
in a timely manner. Progress reports were not required for 24 percent of the
COPS Office grant files we reviewed. COPS Office, OJP, and OVW officials
stated that they follow up with grantees and request any missing progress
reports. However, we found that the COPS Office, OJP, and OVW generally
did not document efforts to follow up with grantees on missing or late
progress reports. Financial guidelines effective for reporting periods ending
on or after June 30, 2002, require that grantees be prohibited from drawing
down grant funds if required progress reports are not filed. However,
although OJP program officials stated that they threaten to withhold funding
if required progress reports are not submitted, they also stated that they do
not prohibit grantees from drawing down funds, a position that contradicts
their policy.


       19
           This percentage only includes the 45 grants in our sample for which the COPS
Office had required progress reports. The COPS Office had not yet required progress
reports for the 14 2002 and 2003 TRGP Hiring and Equipment grants or the 2001 and
2002 TMHCSI Hiring and Equipment grants included in our sample.




                                          - 23 -
      Further, as shown in Table 6, less than a third of the COPS Office and
none of the OJP and OVW grant files reviewed contained evidence that the
progress reports submitted had been reviewed by the grant manager. COPS
Office officials stated that they use a checklist to review progress reports for
both equipment and hiring grants. However, we found no evidence in the
grant files that the progress reports were reviewed for 69 percent of the
grants reviewed. Additionally, some of the OJP and OVW grant managers
stated that not all progress reports received are reviewed due to the heavy
workload.

      As stated previously, OJP’s system automatically places a hold on
grant drawdowns until the most recent required financial report is
submitted; however, OJP officials stated that there is no automatic hold on
grant funds for grantees who fail to file required progress reports. As
discussed in Finding IV of this report, grantees were able to draw down
funds totaling $9,425,823 during periods for which a current progress report
had not been submitted, $484,975 for COPS Office grants audited,
$7,668,811 for OJP grants audited, and $1,272,037 for OVW grants audited.
These figures do not include the 24 percent of COPS Office grants audited for
which progress reports had not been required.


Conclusion

      Grant monitoring is an essential management tool to ensure that grant
programs are implemented appropriately, objectives are achieved, and tribal
grantees are properly expending funds. However, only 4 percent of the
102 grant files we reviewed contained on-site monitoring reports, and only
12 percent contained office-based desk reviews. Additionally, none of the
grant files contained evidence that telephone monitoring was conducted.

       In the absence of formal monitoring, the COPS Office, OJP, and OVW
monitor grantees primarily through required financial and progress reports.
We found that the COPS Office has not routinely required progress reports
for all of its grants and has not required any progress reports for grants
awarded after FY 2001. For those COPS grants for which progress reports
were required, we found a significant period of time during which the COPS
Office did not have the information necessary to adequately monitor its
tribal-specific grant programs.

      Additionally, our review of a sample of tribal-specific grants revealed
that the majority of grant files were missing one or more of the required
financial and progress reports and almost all grants had one or more



                                     - 24 -
financial and progress reports that were not submitted in a timely manner.
Nevertheless, we found that the COPS Office, OJP, and OVW generally did
not follow up with grantees to request missing reports. We also found that,
despite the fact that required financial and progress reports are not being
submitted, the COPS Office, OJP, and OVW allowed grantees to draw down
funds totaling $10,689,765 over the life of the grants.

      Based on the significance of the findings noted above, in our judgment
the COPS Office, OJP, and OVW are not effectively monitoring grants
awarded to tribal governments. Therefore, the DOJ has no assurances that
the objectives of its tribal-specific grant programs are being met or that
expenditures of grant funds are in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the grants.


Recommendations

     We recommend that the COPS Office:

1.   Ensure that monitoring plans are developed for each grantee that
     includes a risk assessment of each grantee based on past performance
     and compliance with grant requirements to determine the timing and
     frequency of office-based and on-site monitoring.

2.   Ensure that required financial and progress reports are submitted in a
     timely manner.

3.   Ensure that grant managers follow up with grantees if required
     financial and progress reports are not submitted or are not submitted
     in a timely manner.

4.   Ensure that grantees do not draw down grant funds if required
     progress reports are not filed.

5.   Ensure that periodic progress reports are required to be submitted at
     least annually for the 3-year hiring grants and semi-annually for the
     1-year equipment grants. These reports should be due within a
     reasonable period of time after the end of the reporting period.




                                   - 25 -
      We recommend that OJP:

6.    Ensure that monitoring plans are developed for each grantee that
      includes a risk assessment of each grantee based on past performance
      and compliance with grant requirements to determine the timing and
      frequency of office-based and on-site monitoring.

7.    Ensure that required financial and progress reports are submitted in a
      timely manner.

8.    Ensure that grant managers follow up with grantees if required
      financial and progress reports are not submitted or are not submitted
      in a timely manner.

9.    Ensure that grantees do not draw down grant funds if required
      financial or progress reports are not filed.


      We recommend that OVW:

10.   Ensure that monitoring plans are developed for each grantee that
      includes a risk assessment of each grantee based on past performance
      and compliance with grant requirements to determine the timing and
      frequency of office-based and on-site monitoring.

11.   Ensure that required financial and progress reports are submitted in a
      timely manner.

12.   Ensure that grant managers follow up with grantees if required
      financial and progress reports are not submitted or are not submitted
      in a timely manner.

13.   Ensure that grantees do not draw down grant funds if required
      financial or progress reports are not filed.




                                   - 26 -
II.       UTILIZATION OF GRANT FUNDS

          We determined that OJP and OVW are not ensuring that funds
          for tribal-specific grant programs are made available to tribal
          grantees in a timely manner. Additionally, the COPS Office, OJP,
          and OVW are not monitoring the utilization of grant funds. We
          reviewed 1,535 tribal-specific grants, including 900 COPS Office
          grants, 495 OJP grants, and 140 OVW grants. We found that
          grant funds totaling $58.93 million were not obligated until more
          than 6 months after the beginning of the award period for
          199 OJP and OVW grants. As a result, during this time grantees
          could not receive reimbursement for grant expenditures, which
          could result in significant delays in the implementation of grant
          programs. We also found that for the COPS Office, OJP, and
          OVW grants, no grant funds had been drawn down for 78 grants
          awarded prior to FY 2003, totaling $38.21 million. These
          amounts included 40 grants which had expired totaling
          $3 million. Grant funds were not drawn down for more than
          1 year after funds were obligated for 281 grants totaling
          $105.75 million. Finally, for expired grants, grantees were
          allowed to draw down funds totaling $0.93 million that based on
          financial reports exceeded cumulative grant expenditures. As a
          result of the significant deficiencies identified, the DOJ cannot
          ensure that the grantees are properly utilizing grant funds and
          implementing grant programs in a timely manner.

       To ensure the effectiveness of the DOJ grant programs in meeting the
criminal justice needs of tribal governments, it is essential that grant funding
is both made available and utilized in a timely manner. To determine the
effectiveness of the COPS Office, OJP, and OVW’s administration of
tribal-specific grant programs, we reviewed grant obligations and drawdowns
for all tribal-specific grants. We recognize that drawdowns are not the only
definitive indicator of grant activity; however, in our judgment drawdowns
are an important indicator of overall grantee progress toward achieving the
grant objectives. Our review included 900 COPS Office grants totaling
$165.47 million, 495 OJP grants totaling $204.09 million, and 140 OVW
grants totaling $41.78 million. Based on the results of our review, we found
that:

      •   grant funds totaling $58,928,223 were not made available to grantees
          in a timely manner (i.e., within 6 months of the award start date);




                                       - 27 -
   •   for more than 2 years after the obligation date, grantees had not yet
       utilized $38,210,363, including $3,003,616 related to expired grants;

   •   grantees were slow to utilize grant funds totaling $105,748,735
       (i.e., more than 1 year after the funds were obligated);

   •   grantees had not utilized available grant funds totaling $5,601,557
       (i.e., more than 1 year prior to our review); and

   •   for expired grants, grantees drew down funds in excess of cumulative
       grant expenditures, for which we are questioning $930,248.20


Availability of Grant Funds

      For each tribal-specific grant, we obtained and reviewed the grant
payment history to determine whether grant funds were made available
(obligated) to the grantee in a timely manner. We found that the COPS
Office generally obligated grant funds within 60 days of the award start date,
the beginning of the grant period; however, OJP and OVW did not obligate
grant funds totaling $58,928,223, more than 20 percent of total grant funds;
within 6 months of the award start date.

TABLE 7. OBLIGATION OF GRANT FUNDING (Dollars in Millions)
                          COPS OFFICE                  OJP                     OVW
 NO. OF MONTHS TO      NO. OF    GRANT        NO. OF       GRANT      NO. OF      GRANT
  OBLIGATE FUNDS       GRANTS   FUNDING       GRANTS     FUNDING      GRANTS     FUNDING
    < 2 Months          863     $160.64        279        $162.14        31        $3.87
   3 to 5 Months         14        2.10         88          12.45        38         8.48
  6 to 11 Months         23        2.73        121          27.84        25         7.82
  12 to 23 Months          -          -           -             -        36        14.71
  24 to 35 Months          -          -           7          1.67         -             -
   > 36 Months             -          -           -             -        10         6.90
            21          900    $165.47         495       $204.09
      TOTAL                                                             140       $41.78
Source: COPS Office, OJP, and OVW listing of tribal-specific grants awarded and the grant
        payment histories

       20
           Questioned Costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.
       21
         Differences in the total amounts are due to rounding, e.g., the sum of individual
numbers prior to rounding reported may differ from the sum of the individual numbers
rounded.




                                          - 28 -
       As shown in Table 7, grant funds were obligated within 60 days for
863 of the 900 COPS Office grants (96 percent), which we consider timely.
However, grant funds were not obligated until more than 6 months after the
award start date for 128 OJP grants totaling $29,501,235 and 71 OVW
grants totaling $29,426,988. As a result, during this time grantees could not
receive reimbursement for grant expenditures, which could result in
significant delays in the implementation of tribal-specific grant programs
that provide essential criminal justice services in Indian Country.

       We discussed this issue with OJP financial officials to determine the
amount of time it should take for grant funds to be obligated and possible
reasons for the delays in obligating grant funds. The financial officials stated
that it can take up to a year from the award start date until funds are
obligated. The financial officials stated that delays in obligating grant funds
could be caused by problems encountered in finalizing the grant budget.
The financial officials further stated that delays in obligating grant funds can
be caused by the grantees’ failure to submit current financial and progress
reports for prior grants. This statement is contradictory to financial
guidelines which required that future grant awards be withheld if the grantee
has not provided current financial and progress reports for all prior grants.

      In our judgment, OJP and OVW should ensure that grant funds are
obligated in a timely manner to avoid delays in the implementation of grant
programs in Indian Country. The OJP and OVW should consider withholding
awards if the proposed grant budget requires significant adjustments, and
withholding the award as required if the applicant is delinquent in reporting
requirements on prior grants so that limited grant funds can be utilized by
other tribal governments.


Utilization of Grant Funds

      For each tribal-specific grant, we obtained and reviewed the grant
payment history to determine whether: 1) grant funds had been drawn
down, 2) the length of time between the date the grant funds were obligated
and the date of the initial drawdown, and 3) the length of time between the
date of the last drawdown and the date of our review. During our review of
the grant drawdowns, we identified:

   •   grants totaling $38,210,363 awarded more than 2 years prior to our
       review for which no funds had been drawn down, indicating that the
       grant program had not yet been implemented;




                                     - 29 -
   •   grants totaling $105,748,735 for which the initial drawdown occurred
       more than 1 year after the funds were obligated, indicating that the
       grantee may have encountered problems implementing the grant
       program; and

   •   grants with available funds totaling $5,601,557 for which the last
       drawdown occurred more than 1 year prior to our review, indicating
       that the grantee may have encountered problems after the grant was
       initiated and that the grant program was not fully implemented.

       As detailed in the following sections, we found that the COPS Office,
OJP, and OVW are not monitoring the utilization of grant funds awarded to
tribal governments. Based on our review of grant drawdowns, we identified
78 tribal-specific grants awarded prior to FY 2003, totaling $38,210,363, for
which no grant funds had been drawn down.

TABLE 8. INACTIVE GRANT ANALYSIS (Dollars in Millions)
                         COPS OFFICE                    OJP                      OVW
 NO. OF MONTHS
  SINCE FUNDS        NO. OF        GRANT       NO. OF        GRANT       NO. OF       GRANT
             22
   OBLIGATED         GRANTS       FUNDING      GRANTS       FUNDING      GRANTS      FUNDING
 12 to 23 Months        19          $4.60         17         $10.54           3        $0.15
 24 to 35 Months        21          11.26           2         10.13           -             -
 36 to 47 Months        12           1.36           3          0.13           -             -
  > 48 Months             -             -           1          0.04           -             -
      TOTAL             52        $17.22          23        $20.84            3        $0.15
Source: COPS Office, OJP, and OVW listing of tribal-specific grants awarded and the grant
        payment histories

       As shown in Table 8, we identified 52 COPS Office grants totaling
$17,222,013, 23 OJP grants totaling $20,838,805, and 3 OVW grants
totaling $149,545, for which no funds had been drawn down as of the date
of our review. Generally, these grants were awarded between FYs 1999
through 2002, more than 2 years prior to our review. Further analysis of the
78 grants shown in Table 8 revealed that 29 COPS Office grants totaling
$2,278,520, 9 OJP grants totaling $625,551, and 2 OVW grants totaling
$99,545 had expired, indicating that the grant programs had not been


       22
          To be conservative, we used the date the funds were obligated instead of the
award start date when determining the delays on the part of the grantee in drawing down
grant funds identified in this section of the report. In the previous section of this report, we
noted that OJP and OVW did not always ensure that grant funds were obligated in a timely
manner.




                                            - 30 -
implemented. Unused funds related to expired grants are detailed further in
Finding III of this report.

       Failure to draw down grant funds is not a definitive indicator of grant
activity since it is possible that funds have been expended but not yet drawn
down as a reimbursement. To further analyze this condition, we selected a
sample of 75 grants for which no grant funds had been drawn down,
consisting of 41 COPS Office grants, 29 OJP grants, and 5 OVW grants. For
each of the grants in our sample we obtained and reviewed financial reports
to determine whether the grantees reported financial activity. We found
that 61 percent of the COPS Office grants, 31 percent of the OJP grants, and
40 percent of the OVW grants reported no financial activity. Further, for
those grants that did report financial activity, the amounts reported were
generally minimal. For example, on average only 23 percent of the total
award had been expended after more than 2 years since the funds were
obligated, indicating that the grantee may have encountered problems
implementing the grant program.

      As discussed in Finding IV of this report, we conducted audits of tribal
grantees to determine whether costs charged to the grant programs were
allowable and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the grants. For each grant included in our audit
for which no funds had been drawn down, we interviewed grantee officials to
determine whether the grant program had been implemented and the
reasons for any delays in implementation. Based on these interviews, we
determined that the majority of the grants audited had not yet been
implemented. Tribal officials were frequently unable to provide a reason for
the delay in implementing grant programs, citing turnover in tribal staff.
However, some of the reasons cited for the delays in implementing the grant
programs were:

   •   delays in hiring positions awarded under the grant;

   •   grant funds from prior grants awarded for the same program had not
       yet been fully utilized; and

   •   grant funds were being withheld by the granting agency for failure to
       comply with the Single Audit Act or other requirements on prior
       grants.

        We also identified 281 grants totaling $105,748,735, for which the
initial drawdown occurred more than 1 year after the funds were obligated,




                                    - 31 -
indicating that the grantee may have encountered problems implementing
the grant program.

TABLE 9. INITIAL DRAWDOWN ANALYSIS (Dollars in Millions)
                        COPS OFFICE                   OJP                      OVW
 NO. OF MONTHS
  SINCE FUNDS        NO. OF      GRANT       NO. OF       GRANT       NO. OF      GRANT
   OBLIGATED         GRANTS     FUNDING      GRANTS      FUNDING      GRANTS     FUNDING
 12 to 23 Months       157       $26.22         59        $64.85           6       $0.87
 24 to 35 Months        36         5.24         10          6.79           1        0.36
 36 to 47 Months          6        0.36           2         0.25           2        0.54
  > 48 Months             1        0.07           -            -           1        0.19
           23          200      $31.90          71
     TOTAL                                                  $71.89        10         $1.96
Source: COPS Office, OJP, and OVW listing of tribal-specific grants awarded and the grant
        payment histories

       As shown in Table 9, we identified 200 COPS Office grants totaling
$31,899,822, 71 OJP grants totaling $71,887,908, and 10 OVW grants
totaling $1,961,005, for which the initial drawdown did not occur for over
1 year after the funds were obligated. Generally, these grants were
awarded between FYs 1999 through 2002, indicating the grantee
encountered problems implementing the grant program.

      Finally, we identified 171 grants, with remaining grant funds totaling
$5,601,557, for which the last drawdown occurred more than 1 year prior to
our review, indicating that the grantee encountered problems after the grant
was initiated and that the grant program was not fully implemented.




       23
         Differences in the total amounts are due to rounding, e.g., the sum of individual
numbers prior to rounding reported may differ from the sum of the individual numbers
rounded.




                                          - 32 -
TABLE 10. LAST DRAWDOWN ANALYSIS (Dollars in Millions)
                       COPS OFFICE                   OJP                      OVW
 NO. OF MONTHS             REMAINING                  REMAINING                REMAINING
   SINCE LAST      NO. OF    GRANT          NO. OF      GRANT        NO. OF      GRANT
   DRAWDOWN        GRANTS   FUNDING         GRANTS     FUNDING       GRANTS     FUNDING
 12 to 23 Months     68       $1.97           19         $1.11           -            -
 24 to 35 Months     48        0.76           10          0.47           5        $0.30
 36 to 47 Months     10        0.07            5          0.13           5         0.75
  > 48 Months          -           -            -            -           1         0.05
           24       126      $2.80            34
     TOTAL                                               $1.71          11        $1.09
Source: COPS Office, OJP, and OVW listing of tribal-specific grants awarded and the grant
        payment histories

      As shown in Table 10, we identified 126 COPS Office grants with
remaining grant funds totaling $2,800,735, 34 OJP grants with remaining
grant funds totaling $1,706,726, and 11 OVW grants with remaining grant
funds totaling $1,094,096 for which the last drawdown occurred more than
1 year prior to our review. Additionally, based on further analysis of these
grants, we determined that 112 COPS Office grants, 28 OJP grants, and
8 OVW grants had expired, indicating that the grant program was not fully
implemented. Unused funds related to expired grants are detailed further in
Finding III of this report.

       Overall, we identified:

   •   grants totaling $38,210,363 for which no funds had been drawn down,
       indicating that the grant program had not been implemented;

   •   grants totaling $105,748,735 for which the initial drawdown occurred
       more than 1 year after the funds were obligated, indicating that the
       grantee may have encountered problems implementing the grant
       program; and

   •   grants with available funds totaling $5,601,557 for which the last
       drawdown occurred more than 1 year prior to our review, indicating
       that the grantee encountered problems after the grant was initiated
       and that the grant program was not fully implemented.

     We discussed these issues with officials from the COPS Office, OJP,
and OVW and found that grant managers do not routinely monitor grant

       24
         Differences in the total amounts are due to rounding, e.g., the sum of individual
numbers prior to rounding reported may differ from the sum of the individual numbers
rounded.




                                          - 33 -
drawdowns for indications that the grant programs have not yet been
implemented or implemented fully. In our judgment, failure to draw down
grant funds is an indication that the grantee is experiencing difficulties in
implementing the grant program. Therefore, grant managers should be
required to monitor grant drawdowns and follow up with grantees to identify
and resolve any problems. Further, if it is determined that the grantee
cannot or will not implement the grant program in a timely manner, grant
funds should be deobligated and made available to other grant recipients.


Drawdowns in Excess of Cumulative Grant Expenditures

       Financial guidelines require that grantee drawdowns should be based
on immediate disbursement requirements. Grantees are required to time
the drawdown requests to ensure that federal cash on hand is the minimum
needed for grant disbursements to be made immediately or within a few
days. As a part of our review of grant drawdowns, we selected a sample of
grants to determine whether grantees were drawing down funds in excess of
grant expenditures. For each grant in our sample, we obtained the most
recent financial report submitted and compared reported grant expenditures
to grant drawdowns to identify if grantees had drawn down grant funds in
excess of expenditures. Our sample included 116 COPS Office grants
totaling $23.04 million, 81 OJP grants totaling $35.57 million, and 29 OVW
grants totaling $6.22 million. Based on our review, we found that grantees
were allowed to draw down funds in excess of reported cumulative grant
expenditures. This could be an indication that rather than using grant funds
to provide essential criminal justice services, grantees may be using grant
funds for other purposes. For expired grants, we identified questioned costs
totaling $930,248 for which drawdowns exceeded reported cumulative grant
expenditures. Specifically, for expired grants we identified:

  •   excess grant funds totaling $713,567 were drawn down by 18 COPS
      Office grantees,

  •   excess grant funds totaling $145,818 were drawn down by 9 OJP
      grantees, and

  •   excess grant funds totaling $70,863 were drawn down by 2 OVW
      grantees.

     The expired grants for which we are questioning costs totaling
$930,248 related to excess drawdowns are detailed in Appendices IX
through XI.



                                    - 34 -
Conclusion

      Overall, we identified grant funds totaling $58,928,223 that were not
obligated until more than 6 months after the beginning of the award period
(award start date). Some of the reasons cited for the delays in obligating
grant funds included problems encountered in finalizing the grant budgets
and failure of grantees to provide current financial and progress reports.

       We also determined that the COPS Office, OJP, and OVW do not
systematically monitor grant drawdowns to determine whether grant funds
are utilized and grant programs are being implemented. Our review of grant
drawdowns for the tribal-specific grants identified: 1) grant funds totaling
$38,210,363 which had not been drawn down; 2) grant funds totaling
$105,748,735 for which the initial drawdown occurred more than 1 year
after the grant funds were obligated; and 3) grants with available funds
totaling $5,601,557 for which the last drawdown occurred more than 1 year
prior to our review. Each of our findings related to grant drawdowns are an
indication that the grantee may have encountered problems in implementing
the grant programs or that the grant programs were not fully implemented.

       Finally, for expired grants tribal grantees were allowed to draw down
funds totaling $930,248 that exceeded cumulative grant expenditures as
listed on grantee financial reports; as a result, we are questioning this
amount.

       In sum, OJP and OVW are not ensuring that funds for tribal-specific
grant programs are made available to tribal grantees in a timely manner.
Additionally, the COPS Office, OJP, and OVW are not monitoring the
utilization of grant funds. If grant funds are not obligated in a timely
manner, tribal governments may encounter delays in providing essential
criminal justice services. Further, failure to utilize grant funds in a timely
manner may be an indication that the grant programs are not meeting the
criminal justice needs of tribal governments.


Recommendations

      We recommend that the COPS Office:

14.   Ensure that grant drawdowns are monitored to determine if grant
      funds are being utilized in a timely manner.




                                     - 35 -
15.   Follow up with grantees that have not drawn down any grant funds to
      determine whether the grantees have encountered difficulties in
      implementing the grant program, and provide assistance as necessary.

16.   Ensure that grant funds are deobligated and the grants are closed if
      grantees are unable or unwilling to implement grant programs in a
      timely manner.

17.   Ensure that grantees are not allowed to draw down grant funds in
      excess of reported cumulative grant expenditures.

18.   Remedy the $713,567 in questioned costs related to excess
      drawdowns on expired grants.


      We recommend that OJP:

19.   Ensure that grant funds are obligated in a timely manner.

20.   Withhold grant awards if the applicant is delinquent in complying with
      prior grant requirements.

21.   Establish procedures to ensure that adjustments to the grant
      application budget are completed timely, including revoking grant
      awards if the applicant is delinquent in complying with budget revision
      requests.

22.   Ensure that grant drawdowns are monitored to determine if grant
      funds are being utilized in a timely manner.

23.   Follow up with grantees that have not drawn down any grant funds to
      determine whether the grantees have encountered difficulties in
      implementing the grant program, and provide assistance as necessary.

24.   Ensure that grant funds are deobligated and the grants are closed if
      grantees are unable or unwilling to implement grant programs in a
      timely manner.

25.   Ensure that grantees are not allowed to draw down grant funds in
      excess of reported cumulative grant expenditures.

26.   Remedy the $145,818 in questioned costs related to excess
      drawdowns on expired grants.



                                    - 36 -
      We recommend that OVW:

27.   Ensure that grant funds are obligated in a timely manner.

28.   Withhold grant awards if the applicant is delinquent in complying with
      prior grant requirements.

29.   Establish procedures to ensure that adjustments to the grant
      application budget are completed timely, including revoking grant
      awards if the applicant is delinquent in complying with budget revision
      requests.

30.   Ensure that grant drawdowns are monitored to determine if grant
      funds are being utilized in a timely manner.

31.   Follow up with grantees that have not drawn down any grant funds to
      determine whether the grantees have encountered difficulties in
      implementing the grant program, and provide assistance as necessary.

32.   Ensure that grant funds are deobligated and the grants are closed if
      grantees are unable or unwilling to implement grant programs in a
      timely manner.

33.   Ensure that grantees are not allowed to draw down grant funds in
      excess of reported cumulative grant expenditures.

34.   Remedy the $70,863 in questioned costs related to excess drawdowns
      on expired grants.




                                    - 37 -
III.   GRANT CLOSEOUT

       The COPS Office, OJP, and OVW are not closing out expired
       grants, and the small percentage of grants that have been closed
       were generally not closed in a timely manner, resulting in
       questioned costs of $6.06 million and funds put to better use of
       $10.95 million.25 We reviewed 758 expired tribal-specific grants
       and found that only 149 grants (20 percent) had been closed.
       For the 149 closed grants, only 32 grants (21 percent) were
       closed in a timely manner (within 180 days after the grant
       expired). The closed grants included COPS Office and OVW
       grants with remaining funds totaling $207.25 thousand that
       should have been deobligated and put to better use. We also
       identified 460 expired grants more than 180 days past the end
       of the award period (grant end date) that had not been closed,
       of which 112 had been expired for more than 2 years. Further,
       we identified questioned costs totaling $6.06 million related to
       drawdowns that occurred on expired grants more than 90 days
       past the grant end date and funds put to better use totaling
       $10.75 million associated with expired grants more than 90 days
       past the grant end date.

       An important aspect of grant monitoring and administration is timely
and proper grant closeout. As a part of the closeout process, grant
managers are required to ensure that grant objectives have been achieved.
Therefore, timely grant closeout is essential to determine whether grant
programs are effectively meeting the criminal justice needs of tribal
governments. According to federal regulations, official closeout of a grant
should occur when the awarding agency determines that the grantee has
completed all applicable administrative actions and work required under the
grant.26 Grants should be closed out when the grant has expired (reached
the award end date) and all open administrative, compliance, legal, and
audit issues have been resolved. An awarding agency may choose to close a
grant administratively if the grantee fails to provide the required documents,
is no longer a valid operating entity, is nonresponsive, or fails to cooperate
during the closeout process.



       25
            Funds Put to Better Use are funds not yet expended that could be used more
efficiently if management took actions to implement and complete audit recommendations.
       26
        28 CFR, Part 66, Uniform Administrative Requirements for Grants and Cooperative
Agreements to State and Local Governments.




                                        - 38 -
      Additionally, OJP and OVW policy requires that grants should be closed
within 180 days after the award end date. The COPS Office does not have a
specific timeframe in which expired grants should be closed. In our
judgment, 180 days after the award end date is a reasonable timeframe for
closing out expired grants.

      To determine the effectiveness of the COPS Office, OJP, and OVW
closeout process for tribal-specific grant programs, we reviewed all
758 expired tribal-specific grants. Our review included 507 COPS Office
grants totaling $62.08 million, 177 OJP grants totaling $51.11 million, and
74 OVW grants totaling $19.58 million. Based on the results of our review,
we found that:

  •   only 149 grants (20 percent) had been closed, including the COPS
      Office and OVW grants with remaining funds totaling $207,249 that
      should have been deobligated and put to better use;

  •   of the 149 closed grants, only 32 grants (21 percent) were closed in a
      timely manner (within 180 days after the grant expired);

  •   despite the fact that financial guidelines require that grant funds must
      be drawn down within 90 days after the end of the grant period,
      grantees were allowed to draw down grant funds totaling $6,063,471
      more than 90 days after the grant end date; and

  •   unused grant funds for expired grants totaling $10,745,048, which
      should have reverted back to the granting agency pursuant to financial
      guidelines, had not been deobligated.


Grant Closeout

      We analyzed all 758 expired tribal-specific grants to determine
whether they were properly closed. Based on the results of our audit, we
found that 337 COPS Office grants, 91 OJP grants, and 32 OVW grants had
not been closed. Overall, only 15 percent of expired COPS Office grants,
29 percent of expired OJP grants, and 27 percent of expired OVW grants had
been closed. We determined that the COPS Office and OVW failed to
deobligate remaining grant funds totaling $207,249 prior to closing the
grants.




                                    - 39 -
TABLE 11. CLOSED GRANT ANALYSIS
                              COPS OFFICE               OJP                   OVW
   NO. OF MONTHS TO
   GRANT CLOSEOUT            NO. OF GRANTS         NO. OF GRANTS         NO. OF GRANTS
      < 6 Months                    16                   11                     5
    6 to 11 Months                   4                   20                     6
    12 to 23 Months                 30                   15                     6
    24 to 35 Months                 27                     5                    3
     > 36 Months                     1                     -                     -
              27                   78                    51
        TOTAL                                                                   20
Source: COPS Office, OJP, and OVW listing of tribal-specific grants awarded and the grant
        payment histories

       As shown in Table 11, only 16 COPS Office grants, 11 OJP grants, and
5 OVW grants were closed within 180 days after the grant expired. We
identified 28 COPS Office grants, 5 OJP grants, and 3 OVW grants that were
not closed until more than 2 years after the grant expired. Further, we
identified 8 COPS Office grants with funds totaling $200,380 and 1 OVW
grant with funds totaling $6,869 that should have been deobligated and put
to better use prior to closing the grants. The closed COPS Office and OVW
grants for which funds totaling $207,249 should be deobligated and put to
better use are detailed in Appendices XII and XIII.

      We also analyzed all remaining expired tribal-specific grants that had
not been closed to determine the number of these grants that were more
than 180 days past the grant end date. Our review disclosed that the COPS
Office, OJP, and OVW failed to close 460 expired tribal-specific grants that
were more than 180 days past the grant end date.

TABLE 12. EXPIRED GRANTS THAT HAVE NOT BEEN CLOSED
                             COPS OFFICE                OJP                   OVW
     NO. OF MONTHS           NO. OF GRANTS         NO. OF GRANTS          NO. OF GRANTS
     6 to 11 Months               134                     55                     15
     12 to 23 Months              119                     14                     11
     24 to 35 Months                66                    22                      6
      > 36 Months                   18                     -                      -
          TOTAL                   337                    91                     32
Source: COPS Office, OJP, and OVW listings of tribal-specific grants awarded and closed
        grants




       27
         Differences in the total amounts are due to rounding, e.g., the sum of individual
numbers prior to rounding reported may differ from the sum of the individual numbers
rounded.




                                          - 40 -
      As shown in Table 12, we identified a total of 337 COPS Office grants,
91 OJP grants, and 32 OVW grants that had not been closed, despite the fact
that the grants were more than 180 days past the grant end date. Further,
84 COPS Office grants, 22 OJP grants, and 6 OVW grants have been expired
more than 2 years but had not been closed.

       As a part of the grant closeout, the COPS Office, OJP, and OVW are
required to ensure that grant objectives and special conditions have been
met. Based on the results of our review, the COPS Office, OJP, and OVW are
not closing out grants or are not closing grants in a timely manner. As a
result, the granting agencies cannot determine whether grant programs are
effectively meeting the criminal justice needs of tribal governments.


Analysis of Drawdowns on Expired Grants

       According to policy, grant funds must be drawn down within 90 days
after the end of the grant period, and any funds not drawn down within the
required timeframe will lapse and revert to the awarding agency. However,
we found that the COPS Office, OJP, and OVW allowed grantees to draw
down funds totaling $6,063,471 from 188 expired grants more than 90 days
past the grant end date. This funding should have reverted back to the
awarding agency and made available for other purposes.

TABLE 13. DRAWDOWNS OCCURRING 90 DAYS PAST THE GRANT
          END DATE (Dollars in Millions)
                       COPS OFFICE                   OJP                    OVW
                              AMOUNT                       AMOUNT              AMOUNT
 NO. OF MONTHS      NO. OF    DRAWN         NO. OF         DRAWN     NO. OF    DRAWN
  PAST END DATE     GRANTS     DOWN         GRANTS          DOWN     GRANTS     DOWN
 3 to 11 Months         94      $2.28          39            $2.20       20       0.51
 12 to 23 Months        19       0.57            4            0.11        3       0.17
   > 24 Months           9       0.23            -               -        -          -
      TOTAL           122      $3.08           43           $2.31       23       $0.68
Source: COPS Office, OJP, and OVW listing of tribal-specific grants awarded and the grant
        payment histories

       As shown in Table 13, we determined that:

   •   For 122 tribal-specific grants, the COPS Office allowed grantees to
       make 174 drawdowns totaling $3,077,157 more than 90 days past the
       grant end date; as a result, we are questioning this amount. It should
       be noted that 57 drawdowns totaling $792,951 occurred more than
       1 year after the grant expired. The expired COPS Office grants for




                                          - 41 -
       which we are questioning costs related to drawdowns occurring more
       than 90 days after the grant end date are detailed in Appendix XIV.

   •   For 43 tribal-specific grants, OJP allowed grantees to make
       73 drawdowns totaling $2,305,298 more than 90 days past the grant
       end date; as a result, we are questioning this amount. It should be
       noted that 9 drawdowns totaling $105,872 occurred more than 1 year
       after the grant expired. The expired OJP grants for which we are
       questioning costs related to drawdowns occurring more than 90 days
       after the grant end date are detailed in Appendix XV.

   •   For 23 tribal-specific grants, OVW allowed grantees to make
       32 drawdowns totaling $681,016 more than 90 days past the grant
       end date; as a result, we are questioning this amount. It should be
       noted that 3 drawdowns totaling $166,641 occurred more than 1 year
       after the grant expired. The expired OVW grants for which we are
       questioning costs related to drawdowns occurring more than 90 days
       after the grant end date are detailed in Appendix XVI.

       Additionally, for expired tribal-specific grants we identified a significant
amount of unused grant funds that had not been drawn down within 90 days
after the grant end date. Pursuant to DOJ policy, these funds should have
reverted back to the awarding agency and made available for other
purposes.

TABLE 14. GRANT FUNDS REMAINING FOR EXPIRED GRANTS
          90 DAYS PAST THE GRANT END DATE (Dollars in Millions)
                      COPS OFFICE                    OJP                     OVW
                          REMAINING                   REMAINING               REMAINING
 NO. OF MONTHS     NO. OF   GRANT           NO. OF      GRANT       NO. OF      GRANT
  PAST END DATE    GRANTS  FUNDING          GRANTS     FUNDING      GRANTS     FUNDING
 3 to 11 Months     121        $4.65          48          $2.28       21          $1.04
 12 to 23 Months     64         1.37          12           0.43         6          0.09
 24 to 35 Months     24         0.34          15           0.30         3          0.12
   > 36 Months        8         0.13            -             -         -              -
      TOTAL         217       $6.49           75         $3.01        30          $1.25
Source: COPS Office, OJP, and OVW listing of tribal-specific grants awarded and the grant
        payment histories.

      As shown in Table 14, we identified a total of 322 grants that were
90 days past the grant end date with total funds remaining of $10,745,048,
which had not been deobligated and put to better use. This is also an
indication that tribal-specific grant programs in Indian Country may not have
been fully implemented. Specifically, we identified:




                                          - 42 -
   •   217 COPS Office grants 90 days past the grant end date with
       remaining grant funds totaling $6,487,356; as a result, these funds
       should be deobligated and put to better use. The expired COPS Office
       grants for which funds should be deobligated are detailed in
       Appendix XVII.

   •   75 OJP grants 90 days past the grant end date with remaining grant
       funds totaling $3,006,770; as a result, these funds should be
       deobligated and put to better use. The expired OJP grants for which
       funds should be deobligated are detailed in Appendix XVIII.

   •   30 OVW grants 90 days past the grant end date with remaining grant
       funds totaling $1,250,922; as a result, these funds should be
       deobligated and put to better use. The expired OVW grants for which
       funds should be deobligated are detailed in Appendix XIX.

      Further, of these amounts, 32 COPS Office grants with funds
remaining of $465,255, 15 OJP grants with funds remaining of $296,549,
and 3 OVW grants with funds remaining of $116,614 have been expired
more than 2 years. We discussed this issue with OJP financial officials, who
stated that tribal grantees are allowed to draw down grant funds for
expenditures incurred during the grant period until the grant is fiscally and
programmatically closed, a position that is contrary to their own financial
guidelines. The COPS Office financial officials stated that grants with unused
funds are not identified until the closeout process has begun; therefore, prior
to closeout, grantees may be drawing down funds more than 90 days after
the grant end date. However, as stated in previous sections of this report,
the COPS Office, OJP, and OVW are not closing out grants in a timely
manner.

      As stated in Finding II, the COPS Office, OJP, and OVW should monitor
grant drawdowns to ensure that grant programs are fully implemented. In
our judgment, the COPS Office, OJP, and OVW should also review grant
drawdowns prior to the end of the grant period to determine if all grant
funds have been drawn down. The COPS Office, OJP, and OVW should follow
up on any grants with remaining funds to determine if the grantee has
expended or plans to expend remaining funds prior to the end of the award
period. Based on the results, of our review, the failure of the COPS Office,
OJP, and OVW to monitor grant drawdowns has resulted in $6,063,471 in
questioned costs and $10,745,048 in funds put to better use, which should
have been used by tribal governments to improve criminal justice services.




                                    - 43 -
Conclusion

      An important aspect of grant monitoring and administration is timely
and proper grant closeout. As a part of the closeout process, grant
managers are required to ensure that grant objectives have been achieved.
Therefore, timely grant closeout is essential to determine whether grant
programs are effectively meeting the criminal justice needs of tribal
governments. We found that the COPS Office, OJP, and OVW are not closing
out grants or are not closing grants in a timely manner.

      We found that out of the 758 expired tribal-specific grants, only
149 grants had been closed, including COPS Office and OVW grants with
remaining funds totaling $207,249 that should have been deobligated and
put to better use prior to closeout. We also identified 460 grants more than
180 days past the grant end date that had not been closed.

       Further, we identified questioned costs totaling $6,063,471 related to
tribal grantees that were allowed to make 279 drawdowns more than
90 days past the grant end date. We also identified funds put to better use
totaling $10,745,048 associated with unused funds for 322 expired grants
that were more than 90 days past the grant end date.


Recommendations

      We recommend that the COPS Office:

35.   Ensure that expired grants are closed in a timely manner and that
      remaining grant funds are deobligated prior to closing grants.

36.   Deobligate and put to better use the $200,380 in remaining funds
      related to grants that have been closed.

37.   Review grant drawdowns prior to the end of the grant period to
      determine if all grant funds have been drawn down, and follow up on
      any grants with remaining funds to determine if the grantee has
      expended or plans to expend remaining funds prior to the grant end
      date.

38.   Ensure that grantees are not allowed to draw down funds more than
      90 days after the grant end date and that all funds remaining on
      grants that have been expired for more than 90 days are deobligated.




                                    - 44 -
39.   Remedy the $3,077,157 in questioned costs related to drawdowns
      occurring more than 90 days past the grant end date.

40.   Deobligate and put to better use the $6,487,356 in remaining funds
      related to expired grants that are more than 90 days past the grant
      end date.


      We recommend that OJP:

41.   Ensure that expired grants are closed in a timely manner.

42.   Review grant drawdowns prior to the end of the grant period to
      determine if all grant funds have been drawn down, and follow up on
      any grants with remaining funds to determine if the grantee has
      expended or plans to expend remaining funds prior to the grant end
      date.

43.   Ensure that grantees are not allowed to draw down funds more than
      90 days after the grant end date and that all funds remaining on
      grants that have been expired for more than 90 days are deobligated.

44.   Remedy the $2,305,298 in questioned costs related to drawdowns
      occurring more than 90 days past the grant end date.

45.   Deobligate and put to better use the $3,006,770 in remaining funds
      related to expired grants that are more than 90 days past the grant
      end date.


      We recommend that OVW:

46.   Ensure that expired grants are closed in a timely manner and that
      remaining grant funds are deobligated prior to closing grants.

47.   Deobligate and put to better use the $6,869 in remaining funds related
      to grants which have been closed.

48.   Review grant drawdowns prior to the end of the grant period to
      determine if all grant funds have been drawn down, and follow up on
      any grants with remaining funds to determine if the grantee has
      expended or plans to expend remaining funds prior to the grant end
      date.



                                   - 45 -
49.   Ensure that grantees are not allowed to draw down funds more than
      90 days after the grant end date and that all funds remaining on
      grants that have been expired for more than 90 days are deobligated.

50.   Remedy the $681,016 in questioned costs related to drawdowns
      occurring more than 90 days past the grant end date.

51.   Deobligate and put to better use the $1,250,922 in remaining funds
      related to expired grants that are more than 90 days past the grant
      end date.




                                   - 46 -
IV.    ALLOWABILITY OF COSTS CHARGED
       TO TRIBAL-SPECIFIC GRANT PROGRAMS

       We conducted audits of tribal-specific grants, including a total of
       41 COPS Office grants totaling $16.80 million, 21 OJP grants
       totaling $36.64 million, and 6 OVW grants totaling $3.69 million.
       Based on the results of the individual grant audits, we found that
       unallowable and unsupported costs totaling $4.57 million were
       charged to the grants. Further, we identified funds put to better
       use totaling $0.97 million related grant funds that will not or
       should not be used. As a result, these costs were not used to
       meet the criminal justice needs funded under the grant program.
       We also found that essential grant requirements were not met.
       The frequency and magnitude of issues identified in our
       individual grant audits indicate that critical grant requirements
       are not being met. These findings indicate that the COPS Office,
       OJP, and OVW are not adequately monitoring the tribal-specific
       grant programs, resulting in significant numbers of tribal
       grantees that are not administering their grant(s) in accordance
       with applicable laws, regulations, guidelines, and terms and
       conditions of the grant(s).

      After the grant award has been accepted, the COPS Office, OJP, and
OVW are responsible for managing and administering the programmatic and
financial aspects of the award. As stated in the Background section of this
report, from FYs 1998 through 2003 the OIG performed individual audits of
14 COPS Office grants and 13 OJP grants awarded to tribal governments.28
For the 27 prior grant audits, the OIG identified $4.19 million in questioned
costs and $3.04 million in funds put to better use.29 Specifically, the prior
audits disclosed that:

   •   Unallowable costs were charged to the COPS Office grants by
       43 percent of the COPS Office grantees and 77 percent of OJP
       grantees audited. Additionally, unsupported costs were charged to the
       grants by 21 percent of the COPS Office grantees and 31 percent of
       the OJP grantees audited.



       28
        Executive summaries of these audits are available for public review at
www.usdoj.gov/oig.
       29
           See Appendices VII and VIII for a listing of audits, including dollar-related
findings, of COPS Office and OJP tribal grantees conducted by the OIG.




                                            - 47 -
  •   Financial reports were not submitted or submitted in a timely manner
      by 79 percent of the COPS Office grantees and 54 percent of OJP
      grantees audited. Further, financial reports were inaccurate for
      36 percent of the COPS Office grantees and 23 percent of OJP
      grantees audited.

  •   Progress reports were not submitted or were not submitted in a timely
      manner by 57 percent of the COPS Office grantees and 69 percent of
      OJP grantees audited. Further, progress reports were inaccurate for
      21 percent of the COPS Office grantees audited.

  •   There was no formal plan to retain grant funded positions for
      36 percent of COPS Office grantees audited, while grant funded
      positions were not retained for 14 percent of the COPS Office grantees.

  •   Grant funds were used to supplant local funds by 29 percent of the
      COPS Office grantees audited.

  •   Grant activities were not implemented in a timely manner by 7 percent
      of the COPS Office grantees audited. Additionally, grant activities
      were not implemented or fully implemented by 8 percent of the OJP
      grantees audited.

  •   The COPS Office failed to deobligate remaining grant funds for expired
      grants for 7 percent of the grantees audited.

  •   Grant funds were drawn down after the expiration of the grant for
      7 percent of the COPS Office grantees audited.

  •   Reimbursements in excess of grant expenditures were received by
      8 percent of OJP grantees audited.

      The results of these prior audits indicate that the COPS Office and OJP
are not effectively managing the DOJ’s grant programs for tribal
governments.30 Therefore, as a part of our audit, we conducted additional
audits of selected COPS Office, OJP, and OVW tribal grantees to determine
whether costs charged to the grant programs are allowable and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants.


      30
           No OVW grants were included in the 27 prior audits conducted by the OIG.




                                          - 48 -
     We selected a total of 41 COPS Office grants totaling $16.80 million,
21 OJP grants totaling $36.64 million, and 6 OVW grants totaling
$3.69 million. Eighteen separate audit reports were issued for the grantees
and grants selected.

      The individual grantee audits disclosed costs charged to the grant
programs that were not allowable and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the grants. Additionally,
the individual grantee audits disclosed that grantees were not always in
compliance with grant conditions and reporting requirements. Specifically,
these audits disclosed that:

   •   Unallowable and unsupported costs were charged to the grants.

   •   Grant funds in excess of grant expenditures were drawn down.

   •   Financial and progress reports were missing, late, and inaccurate.

   •   Drawdowns occurred after the grant end date.

   •   Grants funds awarded were not used.


Dollar-Related Findings

       Allowable costs are those costs identified in the Office of Budget and
Management (OMB) Circulars and in the grant program’s authorizing
legislation. Grantees are only allowed reimbursement for those costs that
are reasonable in nature and permissible under the specific guidance of the
grant. For each grant award, the COPS Office, OJP, and OVW issue a
financial clearance memorandum to the grantee. The financial clearance
memorandum includes: 1) the approved budget, budget categories, and
budget period; 2) statements regarding the results of the fiscal integrity and
financial capability reviews; 3) matching requirements; 4) verification of
correct name, address and vendor number of the award recipient; and
5) any special conditions to the award.

      For each grant audited, we determined whether costs charged to the
grant programs were allowable and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the grants. Based on
the results of the individual grant audits, we found that unallowable and
unsupported costs were charged to the grants. Further, we identified funds
put to better use related grant funds that will not or should not be used. As



                                    - 49 -
a result, these costs were not used to meet the criminal justice needs funded
under the grant program. In summary, the individual grant audits identified
$5,542,540 in dollar-related findings, as shown in Table 15.

TABLE 15. DOLLAR-RELATED FINDINGS FOR AUDITS OF GRANTS
          AWARDED TO TRIBAL GOVERNMENTS
                                                          QUESTIONED     FUNDS PUT TO
GRANTEE NAME                               REPORT NO.       COSTS         BETTER USE
Passamaquoddy Tribe and Pleasant
                    31
  Point Reservation                       GR-70-05-006     $1,332,906              -
Blackfeet Tribal Council                  GR-60-04-010      1,173,045       $597,465
Oglala Sioux Tribe                        GR-60-05-004      1,046,176              -
Navajo Nation Division of Public Safety   GR-60-05-001        237,445              -
Lummi Indian Nation                       GR-90-05-007        173,040              -
Mississippi Band of Choctaw Indians       GR-40-05-003        191,872              -
Eastern Band of Cherokee Indians          GR-40-05-004        109,457              -
Chickasaw Nation                          GR-80-05-003        103,518              -
Chickasaw Nation                          GR-80-05-004         52,711         20,701
Sault Ste. Marie Tribe of Chippewa
  Indians                                 GR-50-05-006         50,890               -
Chickasaw Nation                          GR-80-05-002         47,371               -
St. Regis Mohawk Tribe                    GR-70-05-008         20,479          15,284
Blackfeet Fish and Wildlife Department    GR-60-04-008         18,375               -
Lummi Indian Nation                       GR-90-05-004          9,805               -
Navajo Nation Department of Resource
  Enforcement                             GR-60-04-011          6,272        115,632
Choctaw Nation Law Enforcement            GR-80-05-001              -        220,096
Columbia River Inter-Tribal Fisheries
  Enforcement                             GR-90-04-014             -              -
White Earth Reservation Tribal Council    GR-50-05-005             -              -
                          TOTALS                          $4,573,362       $969,178
Source: OIG Audit Division

      The dollar-related findings for the individual grant audits included
$4,573,362 in questioned costs and $969,178 in funds put to better use
consisting of the following.

   •   The grantee failed to provide auditable accounting records for one of
       the sites selected; therefore, we were unable to conduct the audit.

   •   The grantee charged unallowable costs to the grant for 65 percent of
       the audits conducted, including: 1) costs that were not allowable per
       statutory or grant requirements; 2) costs that were not allowable per

       31
         The Passamaquoddy Tribe was unable to provide auditable accounting records for
the grants selected for audit; as a result, we questioned all drawdowns for the grants.




                                          - 50 -
       the financial clearance memorandum; and 3) salaries and fringe
       benefits in excess of approved amounts or for positions that were not
       approved for the grant.

   •   The grantee charged costs that were not supported by adequate
       documentation for 59 percent of the audits conducted.

   •   The grantee received drawdowns in excess of grant expenditures for
       35 percent of the audits conducted.

   •   The grantee received funding in excess of grant program needs
       resulting in funds put to better use for 35 percent of the audits
       conducted, e.g., the grantee did not intend to fill all positions approved
       under the grant; the grantee overestimated grant costs and funds that
       remained unspent after a reasonable amount of time.

   •   The grantee transferred costs between budget categories in excess of
       10 percent for which prior approval was not obtained from the
       granting agency for 50 percent of the OJP audits conducted.

   •   The grantee failed to retain grant-funded positions for 13 percent of
       the audits conducted for COPS Office grants.


Periodic Grantee Reports

      Financial and progress reports provide the awarding agency basic
information regarding the status of the funds, the status of the project, a
comparison of actual accomplishments to the grant’s objectives, and other
pertinent information. For each individual grant audit, we reviewed the
grantee’s compliance with financial and progress reporting requirements.
Specifically, we: 1) determined if the last four financial reports and all
progress reports were submitted in a timely manner; 2) determined if the
financial and progress reports were not submitted or were submitted late,
determined if the grantee received reimbursement(s) during the period(s)
that the reports were overdue and the total amount of federal funding
reimbursed to the grantee during these period(s); and 3) verified the
accuracy of all financial and progress reports by comparing the reports to
the source documentation maintained by the grantee.

      Based on the results of the individual grant audits, we found that
periodic financial and progress reports were not regularly submitted or
submitted in a timely manner. Specifically, we found that:



                                     - 51 -
   •   Not all required financial reports were submitted in a timely manner
       for 80 percent of the grantees audited.

   •   Grantees were able to draw down funds totaling $1,263,942 during
       periods for which a current financial report had not been submitted.

   •   Financial reports submitted were not accurate for 67 percent of the
       grantees audited.

   •   Not all required progress reports were submitted for 53 percent of the
       grantees audited.32

   •   Not all required progress reports were submitted in a timely manner
       for 73 percent of the grantees audited.

   •   Grantees were able to draw down funds totaling $9,425,823 during
       periods for which a current progress report had not been submitted.


Other Findings Reported

   •   The grantee did not properly account for equipment purchased for
       24 percent of the audits conducted.

   •   The grantee did not have a formal plan to retain grant-funded
       positions for 25 percent of the audits conducted for COPS Office
       grants.

   •   The grantee used grant funds to supplant local funds for 13 percent of
       the audits conducted for COPS Office grants.

   •   The grantee charged unallowable or unsupported matching costs to
       the grant for 56 percent of audits conducted for OJP and OVW grants.

   •   The grantee did not adequately monitoring subgrantees for 11 percent
       of the audits conducted for OJP and OVW grants.




       32
        The COPS Office had not yet required progress reports for the 2001 through
2003 THRGP grants, and the 2002 and 2003 TRGP Hiring and Equipment grants.




                                        - 52 -
Conclusion

      Based on the results of the individual grant audits, we found that
unallowable and unsupported costs totaling $4,573,362 were charged to the
grants. Further, we identified funds put to better use totaling $969,178
related grant funds that will not or should not be used. As a result, these
costs were not used to meet the criminal justice needs funded under the
grant program. We also found that essential grant requirements were not
met. Specifically,

   •   Financial reports were not submitted in a timely manner and were
       often inaccurate.

   •   Progress reports were not submitted or not submitted in a timely
       manner.

   •   Grantees were allowed to draw down grant funds during periods when
       required reports had not been submitted.

   •   Grantees did not properly account for equipment purchased.

   •   COPS Office grantees did not have formal plans to retain grant funded
       positions and used grant funds to supplant local funds.

   •   OJP grantees charged unallowable or unsupported matching costs and
       did not adequately monitor subgrantees.

       Based on the individual grant audits, we found that costs charged to
the grant programs that were not allowable and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grants. Further, the frequency and magnitude of issues identified in our
individual grant audits indicate that critical grant requirements are not being
met. In our judgment, these findings support our conclusion that the COPS
Office, OJP, and OVW are not adequately monitoring the tribal-specific grant
programs, resulting in significant numbers of tribal grantees who are not
administering their grants in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grants.

      We are not offering any recommendations related to the individual
grant audits since recommendations were included in the separate audit
reports. Additionally, recommendations related to the failure of the COPS
Office, OJP, and OVW to adequately monitor tribal-specific grant programs
are included in Findings I and II of this report.



                                    - 53 -
V.   DOJ STRATEGY FOR AWARDING GRANTS
     TO TRIBAL GOVERNMENTS

     The BJA proposed to restructure its tribal-specific grant
     programs into a combined criminal justice program. Currently,
     the DOJ provides funding to tribal governments primarily
     through mandatory set-asides or programs intended specifically
     for tribal governments. This approach benefits tribal
     governments because they are not required to compete with
     state and local governments for limited funding. We found that
     the COPS Office, OJP, and OVW did not ensure that tribal
     grantees submitted the information necessary to assess grant
     implementation and the achievement of grant program
     objectives. However, based on other measures, we determined
     that the tribal-specific grant programs were not always fully
     implemented in a timely manner or adequately monitored.
     Consequently, officials from the COPS Office, OJP, and OVW
     could not fully assess whether grant objectives have been
     achieved or whether current grant programs are effective in
     meeting the criminal justice needs of tribal governments. From
     past DOJ initiatives, we identified that coordination and training
     are critical to the success of any DOJ grant funding strategy.
     However, based on interviews with the granting agency and
     other DOJ officials, we found that the DOJ does not currently
     have a formalized process for coordination, information sharing,
     and training staff responsible for monitoring and administering
     grants awarded to tribal governments.

       A 1999 study found that from 1992 through 1996 the crime rate,
especially the violent and juvenile crime rates, increased in Indian County
while crime rates declined nationwide. According to a 2001 study conducted
by the BJS, Native Americans are more likely to experience rape or sexual
assault, robbery, aggravated assault, and simple assault than people of any
other race.33 The DOJ recognizes that most of the responsibility for crime
control and prevention rests with state and local governments, including
tribal governments. To this end, the DOJ provides leadership and support to
state, local, and tribal governments to further develop their capacity to
prevent and control crime and administer justice fairly and effectively
through various grant programs, training, technical assistance, research,
and statistics.

     33
          BJS Special Report, Violent Victimization and Race, 1993-98, March 2001.




                                         - 54 -
       Our audit was initiated at the request of OJP who asked that the OIG
conduct a review of the DOJ criminal justice funding awarded to tribal
governments. In its request, OJP stated that “. . . a review should be
conducted to determine how effective the various approaches [funding
mechanisms] are in meeting short-term and long-term objectives and in
having a long-term impact in the way criminal justice issues are handled by
tribal governments.” During our audit, we learned that the audit request
was initiated by the BJA in part because of a proposal to restructure its
tribal-specific grant programs into a combined criminal justice program.


Proposed Funding Strategy

       The BJA has proposed consolidating the Tribal Courts, Indian Alcohol
and Substance Abuse, Tribal Drug Courts, and Tribal Youth programs “in an
effort to streamline funding” that would allow tribal governments increased
flexibility in prioritizing criminal justice needs and determining how the grant
funds will be utilized. According to the BJA, the proposed Tribal Justice
Assistance Grant (TJAG) Program would also streamline the application
process and grant requirements, and attempt to eliminate duplication of
monitoring efforts. In its proposal, the BJA states that the design of the
TJAG Program will:

   •   Broaden the flexibility of tribal governments to use their funding by
       blending purpose areas to create a wider range of options that will
       more fully support the funding decisions made by tribal grantees.

   •   Streamline funding initiatives and improve communication and
       cooperation among federal, tribal, state, and local partners.

   •   Support a structured and intensive assessment and planning process
       that leads to the development and implementation of comprehensive
       justice system planning.

   •   Provide efficient and effective services that make the most of limited
       program funding.

   •   Implement strategies that reflect the values and culture of the people
       being served.

   •   Maintain focus on sustainability from the program’s start.




                                     - 55 -
       In our judgment the BJA proposal does not provide support that the
TJAG Program will accomplish the objectives listed above. The TJAG
Program may provide more flexibility to tribal governments in assessing
their criminal justice priorities and determining how the grant funds will be
utilized. However, the proposal also does not provide any details on how the
TJAG Program will improve: 1) the development and implementation of
comprehensive justice system planning, 2) provide efficient and effective
services with limited funding, or 3) maintain sustainability from the program
start.

       The proposed TJAG Program is in line with the DOJ policy on tribal
sovereignty, in that it would allow tribal governments to assess their criminal
justice priorities and determine how the grant funds will be utilized.
However, any proposed strategy must balance accountability with flexibility.
Our audit identified several concerns that should be addressed to ensure
that any planned or future strategy, including the TJAG Program, is
successful. In Findings I through IV, we found that current grant programs
have not been adequately monitored or effectively administered by the
granting agencies. Further, we found that tribal grantees were not always in
compliance with grant requirements, and did not always expend grant funds
in accordance with laws, regulations, and the terms and conditions of the
grant.


Effectiveness of the Current DOJ Funding Strategy

       Currently, the DOJ provides funding to tribal governments mostly
through mandatory set-asides or programs intended specifically for tribal
governments. The approach benefits tribal governments because they are
not required to compete with state and local governments for limited
funding. For example, at least 5 percent of criminal justice funding is set
aside specifically for grants to tribal governments for the: 1) Grants to
Encourage Arrest Policies and Enforcement of Protection Orders Program,
2) Rural Domestic Violence and Child Victimization Enforcement Grants
Program, and 3) Safe Havens for Children Pilot Program.34 Additionally, The
COPS Office, OJP, and OVW administer the following tribal-specific grant
programs designed to address issues of law enforcement, domestic violence,
child abuse, juvenile justice, and victims’ services.35
       34
          See Appendices IV and V for a detailed description of mandatory set-asides and
nontribal-specific grants awarded to tribal governments.
       35
           See the Background section of this report for a detailed description of the
tribal-specific grant programs.




                                            - 56 -
                         TRIBAL-SPECIFIC GRANT PROGRAMS

      COPS Office                          OJP                        OVW
 • Tribal Resource Grant    •   Indian Alcohol and           •   S•T•O•P Violence
   Program                      Substance Abuse Program          Against Indian
 • Tribal Hiring Renewal    •   Tribal Courts Assistance         Women Program
   Grant Program                Program
 • Mental Health and        •   Correctional Facilities on
   Community Safety             Tribal Lands Program
   Initiative               •   Tribal Youth Program
 • Tribal Courts Pilot      •   Tribal Victim Assistance
   Program                      Program
                            •   Children’s Justice Act
                                Partnerships for Indian
                                Communities Program




Grant Program Effectiveness

       To adequately evaluate the effectiveness of the current tribal-specific
grant programs, it is necessary to assess whether the grants have been fully
implemented and whether program objectives have been achieved. We
found that the COPS Office, OJP, and OVW did not ensure that tribal
grantees submitted the information necessary to assess grant
implementation and the achievement of grant program objectives.
Additionally, there was no consistency in the information provided in the
required progress reports that were submitted. As a result, our audit
focused on the utilization of grant funding as an indicator of whether the
grants have been fully implemented and program objectives have been
achieved. The OIG is also planning to initiate a separate follow-on audit of a
tribal-specific grant program to obtain grant performance information
directly from the grantees and evaluate whether grant objectives are being
achieved.

      Required financial and progress reports contain the minimum
information necessary to determine whether grant programs have been
implemented and grant objectives are being achieved. Financial reports
include actual and cumulative expenditures, while progress reports provide
information on grant activities and accomplishments during the reporting
period. However, these reports generally do not contain documentation
supporting the information reported and there was no consistency in the
information provided in the required progress reports that were submitted.
Additionally, we found that 81 percent of the grant files reviewed were



                                         - 57 -
missing one or more financial reports and financial reports were not
submitted in a timely manner for 97 percent of grants. Additionally,
80 percent were missing one or more progress reports and progress reports
were not submitted in a timely manner for 88 percent of the grants.
Further, the COPS Office has only sporadically required progress reports for
its grants and no progress reports have been required for grants awarded
after FY 2001. As a result, the COPS Office, OJP, and OVW do not have the
most basic information necessary to determine whether grant programs
have been implemented and grant objectives have been achieved.

      Further, timely closure of expired grants is important in determining
whether grant programs have been effective in meeting the needs of tribal
governments. As a part of the closeout process, grant managers are
required to ensure that final financial and progress reports are submitted.
They then review the reports to determine if grant objectives have been
achieved. As discussed in Finding III of this report, we found that the COPS
Office, OJP, and OVW are not closing grants in a timely manner.

       Since the COPS Office, OJP, and OVW did not ensure that the grantees
are providing the most basic information necessary to determine whether
grant programs have been implemented and grant objectives have been
achieved, DOJ grant managers cannot currently assess the effectiveness of
tribal-specific grant programs. However, as a part of our audit we identified
several measures that may help evaluate the effectiveness of the
tribal-specific grant programs. Specifically, our review of the obligations and
drawdowns of grant funds provides an indication of whether the grants were
fully implemented in a timely manner and the overall grantee progress
toward achieving the grant objectives. We realize that while the rate of
drawdowns is not a definitive indicator of grant activity, drawdowns can be
an important indicator of overall grantee progress toward achieving the
grant objectives.

      Based on our review, we determined that the tribal-specific grant
programs were not always fully implemented in a timely manner. This is an
indication that grant objectives have not been achieved and that the current
programs are not effective in meeting the criminal justice needs of tribal
governments. Based on the results of our review, we found that:

   •   Funds were not obligated (made available) until more than 6 months
       after the award start date for 128 OJP grants totaling $29.50 million,
       and 71 OVW grants totaling $29.43 million. If grant funds are not
       obligated in a timely manner, tribal governments may encounter
       significant delays in implementing essential criminal justice programs.



                                     - 58 -
   •   For more than 2 years after grant funds were obligated, no funds had
       been drawn down for 52 COPS Office grants totaling $17.22 million,
       23 OJP grants totaling $20.84 million, and 3 OVW grants totaling
       $0.15 million, indicating the grant programs had not been
       implemented.

   •   The initial drawdown did not occur for over 1 year after the funds were
       obligated for 200 COPS Office grants totaling $31.90 million, 71 OJP
       grants totaling $71.89 million, and 10 OVW grants totaling
       $1.96 million, indicating that the grant programs were not
       implemented in a timely manner.

   •   The last drawdown occurred more than 1 year prior to our review for
       126 COPS Office grants with remaining funds totaling $2.80 million,
       34 OJP grants with remaining funds totaling $1.71 million, and
       11 OVW grants with remaining funds totaling $1.09 million, indicating
       the grant programs were not fully implemented.

      In sum, our audit disclosed that the COPS Office, OJP, and OVW did
not ensure that the grantees are providing the most basic information
necessary to determine whether grant programs have been implemented
and grant objectives have been achieved. Specifically, for the majority of
the grants reviewed one or more required financial and progress reports,
which contain the minimum information necessary to determine whether
grant programs have been implemented and grant objectives are being
achieved (especially final reports), were not submitted or were not
submitted in a timely manner. Further, despite the fact that grant closeout
includes a review to determine whether grant objectives were achieved, we
found that grants were not closed out in a timely manner.


Impairments to the Current Funding Strategy

       Our audit identified several concerns that could be impairments to the
effectiveness of any strategy for providing criminal justice funding to tribal
governments. These concerns must be addressed to ensure that any
planned or future strategy is successful.

      In Finding I, we reported that the COPS Office, OJP, and OVW did not
adequately monitor tribal-specific grant programs. All required financial and
progress reports that are essential for effective monitoring generally were
not submitted or were not submitted in a timely manner. Further, the COPS
Office has not routinely required grantees to submit progress reports and



                                    - 59 -
has not required any progress reports for grants awarded since FY 2001. If
grant programs are not adequately monitored, the awarding agency cannot
ensure that programs are meeting the criminal justice needs of tribal
governments. Further, early identification and follow up with concerns
related to tribal-specific grants is essential to the successful implementation
of the grant programs to ensure that the needs of tribal governments are
met.

      In Finding II, we reported that OJP and OVW did not always ensure
that funds were obligated in a timely manner due to inadequacies in
proposed grant budgets and delays in grantees complying with single audit
requirements or other conditions of prior grants. In our judgment, any
future strategy should ensure that OJP and OVW improve the grant award
and funding process.

       In Finding II, we also reported that the COPS Office, OJP, and OVW do
not monitor grant drawdowns. We recognize that failure to draw down funds
is not a definitive indicator that grant funds are not being utilized and grant
programs have not been implemented. However, in our judgment,
monitoring grant drawdowns is an effective tool for identifying potential
problems encountered by grantees in implementing grant programs. Early
detection of potential problems in implementing grants is essential in
ensuring the success of tribal-specific grant programs. Any successful
strategy for funding tribal governments should ensure that grant managers
are required to monitor grant drawdowns and follow up with grantees that
are not drawing down grant funds in a timely manner.

      Finally, in Finding IV we reported that grantees are not always using
grant funds in accordance with laws, regulations, and the terms and
conditions of the grants. In our judgment, future funding strategies should
ensure that grant programs are adequately monitored and that grantees are
held accountable for complying with grant requirements. The successful
implementation of the grant program, meeting grant objectives, and
expending grant funds in accordance with laws, regulations, and the terms
and conditions of the grant is essential to any successful funding strategy.


Analysis of Current Tribal-Specific Grant Programs

     The BJA also requested that our audit identify areas to better
administer grants. Based on the results of our audit, we have identified
several tribal-specific grant programs that appear to be less effectively
administered and, therefore, less effective in improving criminal justice in



                                     - 60 -
Indian Country. Our conclusions are based on the weaknesses identified
previously in Findings II and III of this report.

      In Finding II, we identified 199 OJP and OVW grants totaling
$58,928,223, for which grant funds were not always obligated in a timely
manner. Delays in obligating grant funds could result in significant delays in
the implementation of the grant programs. As shown in Table 16, concerns
related to timely obligation of grant funds were most frequently identified for
the following grant programs.

TABLE 16. GRANT PROGRAMS MOST FREQUENTLY IDENTIFIED FOR
          WHICH OBLIGATIONS WERE NOT TIMELY (Dollars in Millions)
                                                          % OF                % OF
                                              NO. OF     PROGRAM   GRANT     PROGRAM
                   PROGRAM                    GRANTS     AWARDS    FUNDING   FUNDING
 Indian Alcohol and Substance Abuse
   Program                                          13     52%       $3.71    49%
 S●T●O●P Violence Against Indian Women
   Program                                          71     51%      $29.43    70%
 Tribal Youth Program                               90     46%      $20.69    43%
 Children’s Justice Act Partnerships for
   Indian Communities Program                        5     16%       $1.42    24%
 Tribal Courts Assistance Program                   20     12%       $3.67    16%
Source: OIG Audit Division

       In Finding II, we identified 78 COPS Office, OJP, and OVW grants
totaling $38,210,363 for which no grant funds had been drawn down. We
recognize that failure to draw down funds is not a definitive indicator that
grant funds are not being utilized and grant programs have not been
implemented. However, failure to draw down grant funds may be an
indication that the grant program is not meeting the criminal justice needs of
tribal governments. As shown in Table 17, concerns related to grant funds
not being drawn down were most frequently identified for the following grant
programs.




                                           - 61 -
TABLE 17. GRANT PROGRAMS MOST FREQUENTLY IDENTIFIED FOR
          WHICH GRANT FUNDS HAD NOT BEEN DRAWN DOWN
               (Dollars in Millions)
                                                          % OF                % OF
                                              NO. OF     PROGRAM   GRANT     PROGRAM
                   PROGRAM                    GRANTS     AWARDS    FUNDING   FUNDING
 Correctional Facilities on Tribal Lands
   Program                                           2    13%      $16.76     15%
 Tribal Resource Grant Program - Hiring             22     9%      $12.56     19%
 Indian Alcohol and Substance Abuse
   Program                                           2     8%       $0.52      7%
 Tribal Youth Program                               11     6%       $3.10      6%
 Tribal Resource Grant Program -
   Equipment                                        29     5%       $4.62      6%
Source: OIG Audit Division

       In Finding II, we identified 281 COPS Office, OJP, and OVW grants
totaling $105,748,735 for which the initial drawdown occurred more than
1 year after the funds were obligated, indicating that the grantee may have
encountered problems implementing the grant program. As shown in
Table 18, concerns related to the initial drawdown were most frequently
identified for the following grant programs.

TABLE 18. GRANT PROGRAMS MOST FREQUENTLY IDENTIFIED FOR
          WHICH THE INITIAL DRAWDOWN OCCURRED MORE
          THAN ONE YEAR FROM THE DATE GRANT FUNDS WERE
          OBLIGATED (Dollars in Millions)
                                                          % OF                % OF
                                              NO. OF     PROGRAM   GRANT     PROGRAM
                   PROGRAM                    GRANTS     AWARDS    FUNDING   FUNDING
 Correctional Facilities on Tribal Lands
  Program                                           9      56%     $60.38      54%
 Tribal Mental Health and Community
  Safety Initiative - Hiring                         3     27%      $0.31      28%
 Tribal Resource Grant Program - Hiring             65     26%     $15.52      23%
 Tribal Mental Health and Community
  Safety Initiative - Equipment                     4      21%      $0.15      18%
 Tribal Resource Grant Program -
  Equipment                                     125        21%     $15.08      18%
 Tribal Hiring Renewal Grant Program              2        17%      $0.31       4%
 Tribal Youth Program                            32        16%      $8.31      17%
 Tribal Victim Assistance Discretionary
  Grant Program                                      8     14%      $1.02      15%
 Tribal Courts Assistance Program                   20     12%      $1.82       8%
Source: OIG Audit Division




                                           - 62 -
      In Finding III, we identified 322 grants that are 90 days past the grant
end date with total funds remaining of $10,745,048, indicating that grant
funds had not been fully utilized and that the grant program may not have
been fully implemented. As shown in Table 19, concerns related to expired
grants that are 90 days past the grant end date with funds remaining were
most frequently identified for the following grant programs.

TABLE 19. GRANT PROGRAMS MOST FREQUENTLY IDENTIFIED FOR
          WHICH GRANT FUNDS REMAINED FOR EXPIRED GRANTS
          90 DAYS PAST THE GRANT END DATE (Dollars in Millions)
                                                                  % OF
                                                                 EXPIRED
                                                        NO. OF   PROGRAM   GRANT
                         PROGRAM                        GRANTS   AWARDS    FUNDING
 Tribal Mental Health and Community Safety Initiative
  - Equipment                                              16      94%      $0.26
 Tribal Victim Assistance Discretionary Grant Program      18      69%      $0.62
 Tribal Courts Assistance Program                          33      69%      $0.93
 S●T●O●P Violence Against Indian Women Program             30      56%      $1.25
 Children’s Justice Act Partnerships for Indian
  Communities Program                                       5      56%      $0.31
 Tribal Youth Program                                      16      47%      $0.51
 Tribal Resource Grant Program - Equipment                172      42%      $4.33
 Correctional Facilities on Tribal Lands Program            2      40%      $0.46
 Tribal Resource Grant Program - Hiring                    27      36%      $1.83
Source: OIG Audit Division



Tribal Response to Current Funding Strategy

       As a part of our audit, the BJA also requested that we determine the
tribal grantee’s opinion of the DOJ tribal-specific grant programs. For the
15 grantees we conducted interviews to determine the grantee’s opinion of
the DOJ grant programs audited.

       For the COPS Office grants overall, we found that the tribal grantees
generally were satisfied with the DOJ strategy for awarding grants because
they did not have to compete with state and local governments for funding.
However, several tribal grantees told the OIG that the COPS Office
monitoring of its grant programs is inadequate. For example, they said that
grant managers did not routinely contact them to determine if the grant
program was being implemented as planned. The tribal grantees stated that
they are only contacted by grant managers after a mistake has been
identified. Further, one grantee stated that the COPS Office does not seem




                                         - 63 -
to understand the uniqueness of tribal structure and tribal systems, including
procurement and record maintenance.

      We found that the grantees generally were satisfied with the COPS
Office equipment grants. Grantees stated that the equipment grants were
very helpful in bringing the tribal police department up-to-date
technologically. Further, the equipment grants allow the tribal grantees to
purchase much-needed equipment for the entire police department.
However, grantees had concerns related to the TRGP hiring grants because
the programs only provide funding for a 3-year period which does not meet
long-term personnel needs.

       Generally, grantees also were satisfied with OJP and OVW grant
programs. Grantees stated that the programs were effective in meeting
immediate funding needs. According to the grantees, the grant programs
provide the funding necessary to get new programs started and continue
existing programs. The OJP and OVW grant programs also provide funding
for equipment and technology needs. One grantee stated that she did not
have any concerns since there were so many options available for obtaining
grant funding for programs.

       However, several grantees identified concerns that criminal justice
programs will have to be discontinued if the DOJ funding for the program is
not approved for future years. One grantee had concerns that the overall
funding strategy appeared to be a piecemeal approach to meeting criminal
justice needs and that funding is limited. Another grantee stated that the
turnover of OJP employees responsible for monitoring grants appears to be
high.


Prior DOJ Funding Strategies

       Historically, the DOJ implemented a series of initiatives designed to
improve law enforcement and the administration of criminal and juvenile
justice in Indian Country. These initiatives also attempted to address some
of the problems (discussed in the Background section of this report) that
significantly impact the federal government’s ability to effectively implement
grant programs that provide funding to tribal governments.

   •   Indian Country Justice Initiative - In November 1995, the DOJ
       launched the Indian Country Justice Initiative to improve the
       responsiveness of the DOJ to the criminal justice needs in Indian
       Country. The intent of this initiative was to: 1) improve coordination



                                    - 64 -
       among federal and tribal justice systems as well as relevant service
       providers; 2) encourage and develop innovative approaches to justice;
       3) improve existing systems including communications and
       procedures; 4) strengthen offender supervision and treatment;
       5) expand prevention, intervention and training activities; and
       6) enforce laws against major crimes, especially those involving
       violence.

   •   Comprehensive Indian Country Law Enforcement Initiative - In
       October 1999, the DOJ announced the Comprehensive Indian Country
       Law Enforcement Initiative. This initiative was a 4-year joint project
       between the DOJ and the Department of Interior designed to improve
       law enforcement and the administration of criminal and juvenile justice
       in Indian Country. The initiative also addressed the need for additional
       resources to respond to crime in tribal communities, including
       increased funding for police officers, courts, detention facilities, and
       prevention and intervention programs.

   •   Comprehensive Indian Resource for Community and Law Enforcement
       (CIRCLE) Project - The CIRCLE project was one component of the 1999
       Comprehensive Indian Country Law Enforcement Initiative. The
       CIRCLE Project was a 3-year program designed to empower tribal
       governments to more effectively fight crime, violence, and substance
       abuse. The goal of the CIRCLE project was to assist tribal
       governments in addressing local problems in a comprehensive way
       through effective planning and appropriate funding. The CIRCLE
       project required tribal governments to develop a comprehensive
       strategy that incorporated coordinated and multi-disciplinary efforts for
       developing and implementing crime, violence, and drug control efforts.

      In 2000, the National Institute of Justice (NIJ) initiated an evaluation
of the effectiveness of the CIRCLE project, including the development and
use of the comprehensive strategy, and coordination of the individual
components. The CIRCLE project evaluation is a multi-phased 4-year
evaluation. The first phase of the evaluation found that the CIRCLE project
made significant contributions to the participating tribes’ efforts to design
and build stronger justice systems.36 Specifically, the first phase of the
evaluation recommended that:



       36
         The second phase of the CIRCLE Project evaluation is now in process and is
planned for completion in FY 2005.




                                         - 65 -
   •   Efforts should be continued to support comprehensive justice system
       planning and improve communication and cooperation among federal
       agencies and between the federal and tribal governments.

   •   Future initiatives should be supported only with a structured and
       intensive period of assessment and planning. Strategies that are
       implemented should result from this process. The notion that
       strategies will likely vary within the tribal setting should be built into
       any future initiative.

   •   Future projects should focus on sustainability from the start. A critical
       investment in such an initiative is high quality, culturally competent
       technical assistance. This investment will increase the likelihood that a
       project will result in system change. At the least, such a project will
       leave behind human capital, data, or procedural tools.

   •   The project coordinator position was found to be vital in promoting an
       emphasis on system planning and should be included in any future
       DOJ initiatives.

     Based on the results identified above, two key practices critical to the
success of any DOJ funding strategy are training and coordination.


Coordination and Training

       Based on discussions with the COPS Office, OJP, OVW, and Office of
Tribal Justice (OTJ) officials, we found that agencies administering
tribal-specific grant programs are faced with a wide range of unique issues
specific to Indian Country. These issues include the following:

   •   Granting agencies and staff generally have little understanding of tribal
       culture.

   •   There tends to be a high turnover in tribal leadership and tribal staff
       responsible for managing the grant programs.

   •   There is a lack of adequate technology within Indian Country. Many
       tribal governments do not have funding necessary for advanced office
       automation, including accounting systems and training for staff.




                                       - 66 -
   •   There is a lack of comprehensive statistical data on crime committed in
       Indian Country, which is required in applications for many criminal
       justice grant programs.

      Further, the DOJ grants are administered by various DOJ components,
bureaus, and offices, including the COPS Office, BJA, Office of Juvenile
Justice and Delinquency Prevention (OJJDP), Office for Victims of Crime
(OVC), and OVW.37 The OJP is responsible for policy coordination and
general management of the BJA, OJJDP, OVC, and the American Indian and
Alaska Native Affairs Desk (AI/AN Affairs Desk).38 Additionally, the OTJ
coordinates DOJ policies and positions on Indian Country issues. As a result,
any comprehensive strategy to improve the responsiveness of the DOJ to
criminal justice needs in Indian Country must start with the development of
a formal process for coordination and training.

       To identify the extent of coordination and information sharing related
to the DOJ efforts to address criminal justice needs in Indian Country, we
interviewed program officials for each of the tribal-specific grant programs
and supporting agencies. Based on our review, we determined that each
component generally has an informal mechanism in place for coordination
and information sharing. However, these coordination efforts appear to be
ad hoc, occurring only when one of the participants initiates efforts for
specific activities. There is currently no formal mechanism in place for
ongoing coordination and information sharing within OJP and among the DOJ
components. Nonetheless, all of the components, bureaus, and program
offices stated that it would be beneficial to meet on a regular basis with
representatives who are involved in the DOJ efforts to address criminal
justice needs in Indian Country.

      In our judgment, coordination is essential in developing funding
strategies and administering and monitoring grant activities. As stated
previously, the first phase of the CIRCLE project evaluation conducted by the
NIJ found that efforts should be continued to improve communication and
cooperation among federal agencies and between the federal and tribal
governments. The evaluations also found any future initiatives should be
supported only with a structured and intensive period of assessment and


       37
         See Appendix III for a detailed description of the OJP bureaus, program offices,
and agency-wide support offices.
       38
           The AI/AN Affairs Desk is designed to enhance access to information by federally
recognized American Indian and Alaska Native tribes regarding funding opportunities,
training and technical assistance, and other relevant information.




                                          - 67 -
planning. Any such effort would require systematic coordination among the
DOJ components that provide criminal justice funding in Indian Country.

       Coordination and information sharing are also essential for effectively
providing assistance to tribal governments and dealing with the wide range
of issues specific to Indian Country. If a formalized mechanism for
coordination and information sharing was in place, all granting agencies
would be informed in a timely manner of changes in tribal leadership or
staff. Further, if one grant manager has useful information related to new
contacts within the tribe, that information could be shared with all of the
grant mangers administering grants for the same tribe.

       As noted in Findings I through IV of this report, our audit revealed that
the DOJ’s monitoring and administration of tribal-specific grant programs is
ineffective. Frequently, monitoring related issues identified by one grant
manager impact more than one grant. If grant managers were to meet on a
regular basis to coordinate and share information, then other grant
managers responsible for monitoring and administering grants for the same
tribe could be alerted to look for similar problems. This process could be
further enhanced by requiring grant mangers to provide copies of monitoring
reports to the other DOJ components, bureaus, and offices.

       In addition to a formalized process for coordinating and sharing
information related to the administration of DOJ grants awarded to tribal
governments, a formal process for training staff is also essential. To identify
the extent and need for training staff responsible for administering and
monitoring grants awarded to tribal governments, we interviewed program
officials for each of the tribal-specific grant programs and supporting
agencies. Officials from the BJA and OJJDP stated that they provide training
to new grant managers on tribal-specific issues; however, the DOJ has not
effectively implemented a formal process for training staff responsible for
administering tribal-specific grants. Officials from all of the components,
bureaus, and program offices stated that it would be beneficial to develop
such a training program.

       In our judgment, training for staff responsible for administering and
monitoring tribal-specific grants should focus on: 1) cultural awareness,
including the history of the relationship between the federal and tribal
governments, 2) the sovereign status of tribal governments, and 3) the
jurisdictional complexities and limitations in Indian Country. Further, the
training should provide the grant manager with techniques for assisting
tribal governments with concerns related to grant administration.
Specifically, training should include information related to:



                                     - 68 -
   •   High turnover of tribal leadership. Turnover in tribal leadership may
       require that the grant managers consult with tribal leaders each time
       there is a change in the tribal leadership to ensure that new tribal
       leaders understand and “buy into” the existing grant programs.

   •   High turnover in tribal staff. Turnover in tribal staff may result in new
       personnel who are not aware of the fact that the tribe has DOJ grants.
       Grant mangers should be prepared to answer questions, provide grant
       documentation and reports, and refer new staff for training.

   •   Technological issues. Many tribal governments have limited
       technology, including accounting systems or staff who are not trained
       to use available technology. Some tribes may still be using
       hand-written accounting records. Grant managers should be aware of
       technological issues and be prepared to refer tribes to funding sources
       for new technology and training.


Conclusion

       During our audit, we learned that the audit request was initiated by
the Bureau of Justice Assistance (BJA) in part because of a proposal to
restructure its tribal-specific grant programs into a combined criminal justice
program. Currently, the DOJ provides funding to tribal governments
primarily through mandatory set-asides or programs intended specifically for
tribal governments. This approach benefits tribal governments because they
are not required to compete with state and local governments for limited
funding. We found that the COPS Office, OJP, and OVW did not ensure that
tribal grantees submitted the information necessary to assess grant
implementation and the achievement of grant program objectives. However,
based on other measures, we determined that the tribal-specific grant
programs were not always fully implemented in a timely manner, indicating
that grant objectives have not been achieved and that the current programs
are not effective in meeting the criminal justice needs of tribal governments.
We also identified the areas where the tribal-specific grant programs that
appear to be less effectively monitored and administered and therefore,
possibly less effective in improving criminal justice in Indian Country.

      Based on the successful practices identified from past tribal grant
funding initiatives, coordination and information sharing are an essential part
of any strategy for effectively providing assistance to tribal governments and
addressing the wide range of unique issues specific to Indian Country. The
DOJ grants to tribal governments are administered by various DOJ



                                     - 69 -
components, bureaus, and offices. Additionally, the OTJ coordinates DOJ
policies and positions on Indian Country issues. As a result, any
comprehensive strategy to improve the responsiveness of the DOJ to
criminal justice needs in Indian Country must start with the development of
a formal process for coordination and training within and among the DOJ
components.

      We found that there is no formal mechanism in place for coordination
and information sharing within OJP and among the DOJ components. While,
each component had an informal mechanism in place for coordination and
information sharing, these efforts appear to be ad hoc, occurring only when
one of the participants initiates efforts for specific activities. A formal
mechanism for coordination and information sharing could, for example,
require grant mangers to provide copies of monitoring reports to the other
components, bureaus, and offices.

       We also found the DOJ has not effectively implemented a training
program to deal with the unique issues related to tribal governments. In our
judgment, the DOJ should establish a formal process to train staff
responsible for administering and monitoring tribal-specific grant programs.
Training should focus on: 1) the wide range of unique issues specific to
tribal governments, 2) cultural awareness including the history of the
relationship between the federal and tribal governments, 3) the sovereign
status of tribal governments, and 4) the jurisdictional complexities and
limitations in Indian Country.


Recommendations

      We recommend that the COPS Office, OJP, and OVW:

52.   Work with OTJ to develop a formalized mechanism for coordinating
      and sharing information, including monitoring reports, related to a DOJ
      strategy, administration, and monitoring of grants awarded to tribal
      governments.

53.   Work with OTJ to develop a formalized process for training staff
      responsible for administering and monitoring tribal-specific grant
      programs.




                                    - 70 -
                 STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of the administration of DOJ
grants awarded to tribal governments, we considered the COPS Office, OJP,
and OVW’s internal controls for the purpose of determining our auditing
procedures. The evaluation was not made for the purpose of providing
assurance on the internal control structure as a whole; however, we noted
certain matters that we consider reportable conditions under generally
accepted government auditing standards.39


Finding I

   •   The COPS Office, OJP, and OVW did not ensure that grantees
       submitted or submitted in a timely manner all required financial and
       progress reports.

   •   The COPS Office, OJP, and OVW did not prohibit grantees from
       drawing down grant funds during periods where required financial and
       progress reports had not been submitted.

   •   The COPS Office did not require that periodic progress reports be
       submitted at least annually for the 3-year hiring grants and
       semi-annually for the 1-year equipment grants, which are due within a
       reasonable period of time after the end of the reporting period.

   •   The COPS Office, OJP, and OVW did not ensure that monitoring plans
       were developed for each grantee that included a risk assessment of
       each grantee based on past performance and compliance with grant
       requirements to determine the timing and frequency of office-based
       and on-site monitoring.


Finding II

   •   The OJP and OVW did not ensure that grant funds were obligated in a
       timely manner.


       39
           Reportable conditions involve matters coming to our attention relating to
significant deficiencies in the design or operation of the management control structure that,
in our judgment, could adversely affect the ability of the COPS Office, OJP, and OVW to
administer its grants awarded to tribal governments.




                                           - 71 -
  •   The OJP and OVW did not withhold grant awards if the grant
      application budget required significant adjustments or if the applicant
      was delinquent in complying with prior requirements.

  •   The COPS Office, OJP, and OVW did not ensure that grant managers
      monitor grant drawdowns to determine if grant funds were being
      utilized.

  •   The COPS Office, OJP, and OVW did not ensure that grant managers
      follow up with grantees that had not drawn down any grant funds to
      determine whether the grantee had encountered any difficulties in
      implementing the grant program.

  •   The COPS Office, OJP, and OVW did not ensure that grant funds were
      deobligated and the grants closed for grantees unable or unwilling to
      implement grant programs in a timely manner.

  •   The COPS Office, OJP, and OVW did not ensure that grantees were not
      allowed to draw down grant funds in excess of immediate needs.


Finding III

  •   The COPS Office, OJP, and OVW did not ensure that expired grants
      were closed in a timely manner and that remaining grant funds were
      deobligated prior to closing the grant.

  •   The COPS Office, OJP, and OVW did not always review grant
      drawdowns prior to the end of the grant to determine if all grant funds
      had been drawn down, or follow up on any grants with remaining grant
      funds to determine if the grantee had expended or planned to expend
      remaining funds prior to the grant end date.

  •   The COPS Office, OJP, and OVW did not ensure that grantees were not
      allowed to draw down funds more than 90 days after the grant end
      date and that all funds remaining on grants that had expired for more
      than 90 days were deobligated.


Finding V

  •   The COPS Office, OJP, and OVW had not developed a formalized
      mechanism for coordinating and sharing information related to a DOJ



                                    - 72 -
      strategy, administration, and monitoring of grants awarded to tribal
      governments.

  •   The COPS Office, OJP, and OVW had not developed a formalized
      process for training staff responsible for administering and monitoring
      tribal-specific grant programs.

  •   The COPS Office, OJP, and OVW did not ensure that monitoring reports
      were provided to other components, bureaus, and offices responsible
      for administering and monitoring tribal-specific grant programs.

       PricewaterhouseCoopers LLP (PwC) performed the FY 2004 financial
statement audit of the Office of Justice Programs (OJP). During this audit
they evaluated the general controls over OJP’s financial systems, mixed
feeder systems, and general support systems to determine if the internal
controls over these systems were sufficient to provide reasonable assurance
that transactions processed by these systems could be relied upon by the
auditors in performing the financial statement audit testing. However, as a
result of the work performed, PwC identified material weaknesses in internal
controls over computerized information systems at OJP. Weaknesses
identified included inadequate controls over changes to applications and
program changes in these systems, over the integrity of data passed
between the feeder and core financial systems, and over access to systems
and data. PwC concluded OJP did not have effective internal controls over
the computerized information systems it uses to process grant transactions
and as a result it could not rely upon the internal controls over these
systems. PwC also identified material weaknesses in OJP’s overall control
environment, grant accounting and monitoring, documentation of adjusting
journal entries, and the financial reporting process. Accordingly, PwC was
unable to complete the financial statement audit and issue a disclaimer of
opinion on OJP’s financial statements.

      Because we are not expressing an opinion on the overall management
control structure of the COPS Office, OJP, or OVW, this statement is intended
solely for the information and use by the COPS Office, OJP, and OVW in
managing its grant programs awarded to tribal governments.




                                    - 73 -
               STATEMENT ON COMPLIANCE WITH
                   LAWS AND REGULATIONS

       As required by the Government Auditing Standards, we tested the
COPS Office, OJP, and OVW records and documents pertaining to each
tribal-specific grant program and audited tribal-specific grants to obtain
reasonable assurance that each component complied with laws and
regulations that, if not complied with, in our judgment could have a material
effect on the administration of its grant programs awarded to tribal
governments. Compliance with laws and regulations applicable to the
administration grant programs awarded to tribal governments is the
responsibility of the COPS Office, OJP, and OVW management. An audit
includes examining, on a test basis, evidence about compliance with laws
and regulations. At the time of our audit, the pertinent legislation and the
applicable regulations were:

        •   Omnibus Crime Control and Safe Street Act of 1968
        •   Missing Children’s Assistance Act
        •   Victims of Crime Act of 1984
        •   Violent Crime Control and Law Enforcement Act of 1994
        •   Victims of Child Abuse Act of 1990
        •   Victims of Trafficking and Violence Protection Act of 2000
        •   Juvenile Justice and Delinquency Prevention Act of 1974


      Except for the issues discussed in the Findings and Recommendations
section of this report, nothing came to our attention that caused us to
believe that the COPS Office, OJP, and OVW management was not in
compliance with the laws listed above.




                                    - 74 -
                                                                          APPENDIX I

            SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS:40                                         AMOUNT             PAGE

   Excess drawdowns on expired grants                          $930,248          34

   Drawdowns occurring more than 90 days
   past the grant end date                                   $6,063,471          41

TOTAL QUESTIONED COSTS                                      $6,993,719



FUNDS PUT TO BETTER USE:41

   Grant funds remaining for closed grants                     $207,249          39

   Grant funds remaining for expired grants
   that are more than 90 days past the grant
   end date                                                 $10,745,048          42

TOTAL FUNDS PUT TO BETTER USE                             $10,952,297

    TOTAL DOLLAR-RELATED FINDINGS                         $17,946,016




      40
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.
      41
            Funds Put to Better Use are funds not yet expended that could be used more
efficiently if management took actions to implement and complete audit recommendations.




                                         - 75 -
                                                                         APPENDIX II

             OBJECTIVES, SCOPE, AND METHODOLOGY


       We reviewed the administration of DOJ grants awarded to tribal
governments. Our audit included the COPS Office, OJP, and OVW.42 The
objectives of the audit were to evaluate: 1) the adequacy of monitoring and
administration of tribal-specific grant programs; 2) whether costs charged to
the tribal-specific grants are allowable and in accordance with applicable
laws, regulations, guidelines, and terms and conditions of the grants; and
3) the effectiveness of the DOJ’s overall strategy for awarding grants to
tribal governments.

       We conducted our audit in accordance with Government Auditing
Standards. We included such tests as were necessary to accomplish the
audit objectives. The audit generally covered, but is not limited to,
tribal-specific grants awarded during the period of FYs 2000 through 2003.
Audit work was conducted at the COPS Office, OJP, and OVW, and selected
tribal grantees.

      To determine whether the COPS Office, OJP, and OVW were
adequately monitoring their tribal-specific grant programs, we judgmentally
selected a sample of tribal-specific grants in order to examine the grant files
for compliance with reporting requirements and monitoring activities. For
each grant selected, we reviewed the grant file to determine whether: 1) all
required financial and progress reports were submitted, 2) financial and
progress reports were submitted in a timely manner, 3) the granting agency
followed-up with grantees to request missing and late financial and progress
reports, 4) progress reports were annotated to document that the report
was reviewed by the grant manager, 5) a monitoring plan was developed,
6) telephone monitoring was documented, 7) office-based desk reviews were
conducted, and 8) on-site program monitoring visits were conducted. It
should be noted that the COPS Office did not provide timely access to its
grant monitoring files. After repeated requests the COPS Office finally
provided its grant monitoring files; however, it was clear that the COPS
Office had updated the files during the period that access was withheld from
the OIG. Information that was added to the files included: 1) Issues
Reports, 2) Site Visit Checklists, and 3) other information related to work

      42
         Under a provision in the 2002 Justice Department reauthorization bill, passed in
October 2002, OVW became a permanent, separate and independent office within the DOJ.




                                         - 76 -
that was conducted up to 2 years previously. This matter was addressed in
a memorandum from the OIG to the COPS Office, dated March 3, 2004.

       To determine whether the COPS Office, OJP, and OVW were ensuring
that grant funds were made available to grantees in a timely manner, we
compared the award start date to the date the grant funds were obligated as
shown on the grant payment history to determine whether grant funds were
being obligated within 6 months of the award start date. For a sample of
tribal-specific grants for which funds were not obligated more than 6 months
after the award start date, we requested: 1) copies of all documentation
related to the grant budget from the initial budget review memorandum
through the final financial clearance memorandum, 2) documentation
supporting any issues that may have caused delays in obligating the grant
funds, and 3) any explanation as to why the obligation of grant funds was
delayed.

      To determine whether the COPS Office, OJP, and OVW were monitoring
the utilization of grant funds awarded to tribal governments, we analyzed
the total payments for each tribal-specific grant as shown on the grant
payment history in order to determine all tribal-specific grants for which no
grant funds had been drawn down. For a sample of tribal-specific grants for
which no grant funds had been drawn down within 1 year of the award start
date, we requested all financial and progress reports for the tribal-specific
grants to determine whether the grantees had reported financial or
programmatic activity.

        To determine whether the COPS Office, OJP, and OVW were monitoring
the utilization of grant funds awarded to tribal governments, we compared
the award start date to the date of the initial drawdown to determine the
length of time between the date the grant funds were obligated and the date
of the initial drawdown. For a sample of tribal-specific grants where the
initial drawdown occurred 1 year from the date grant funds were obligated,
we requested all financial and progress reports submitted prior to the initial
drawdown to determine whether the grantees reported financial or
programmatic activity prior to the initial drawdown.

       Additionally, we compared the date of the last drawdown to the date of
the grant payment history to determine the length of time between the date
of the last drawdown and the date of our review. For a sample of
tribal-specific grants where the last drawdown occurred 1 year prior to our
review, we requested all financial and progress reports submitted after the
last drawdown to determine whether the grantee reported financial or
programmatic activity since the last drawdown.



                                    - 77 -
      To determine whether grantees were drawing down funds in excess of
grant expenditures, for a sample of grants we compared the most recent
financial report to the grant payment history. For each grant with excess
drawdowns, we reviewed the grant end date to determine if the grant had
been expired. For all expired tribal-specific grants, we questioned the
excess drawdown amount.

       To determine the effectiveness of the COPS Office, OJP, and OVW
closeout process for tribal-specific grant programs we requested a listing of
grants that had been closed. We compared the listing of closed grants to
expired grants to determine whether grants had been closed. For grants
which had been closed, we reviewed the closeout date to determine whether
the grant was closed within 6 months of the grant expiration. For a sample
of tribal-specific grants where the grant had been expired for more than
6 months that had not been closed, we requested the final financial and
progress report in order to determine whether the final reports had been
submitted.

      To determine whether the COPS Office, OJP, and OVW allowed tribal
grantees to draw down funds more than 90 days past the grant end date, we
compared the grant end date with the date of the last drawdown as reported
on the grant payment history. For all tribal-specific grants where the date of
the last drawdown was made after the grant end date, we reviewed the
grant payment history to determine the number of grant drawdowns made
and the amount of those drawdowns. We questioned all grant drawdowns
occurring more than 90 days after the grant end date.

       To determine whether any grant funds remained on expired
tribal-specific grants administered by the COPS Office, OJP, and OVW, we
compared the grant end date with the date of the grant payment history to
determine all tribal-specific grants that had been expired for more than
90 days. For all expired tribal-specific grants more than 90 days past the
grant end, we reviewed the grant payment history to determine the amount
of remaining grant funds. We recommended that all remaining tribal-specific
grant funds be deobligated and be put to better use.




                                    - 78 -
      We also conducted external audits of the grantees and grants shown in
the following chart.

MISSISSIPPI BAND OF CHOCTAW INDIANS, PHILADELPHIA, MISSISSIPPI
   • Correctional Facilities on Tribal Lands Program, Grant No. 1999IPVX0001
   •   Tribal Victims Assistance Program, Grant No. 1999VRGX0011
   •   Tribal Youth Program, Grant No. 2001TYFX0038
   •   S●T●O●P Violence Against Indian Women Program, Grant No. 97WIVX0024
EASTERN BAND OF CHEROKEE INDIANS, CHEROKEE, NORTH CAROLINA
   • Tribal Youth Program, Grant No. 2000TYFX0030
   •   Tribal Youth Program, Grant No. 2002TYFX0069
   •   S●T●O●P Violence Against Indian Women Program, Grant No. 1997WIVX0028

WHITE EARTH RESERVATION TRIBAL COUNCIL, WHITE EARTH, MINNESOTA
  • Tribal Hiring Renewal Grant Program, Grant No. 2003HRWX0005
   •   Tribal Resource Grant Program - Equipment, Grant No. 2000HEWX0041
   •   Tribal Resource Grant Program - Equipment, Grant No. 2002HEWX0043
   •   Tribal Resource Grant Program - Hiring, Grant No. 2000HHWX0019

SAULT STE. MARIE TRIBE OF CHIPPEWA INDIANS, SAULT. STE. MARIE, MICHIGAN
   • Correctional Facilities on Tribal Lands Program, Grant No. 2001IPBX0004
   •   Tribal Victim Assistance Program, Grant No. 1999VRGX0006
   •   Drug Court Program, Grant No. 2000DCVX0111
   •   Tribal Courts Assistance Program, Grant No. 2002ICBX0027
   •   Tribal Youth Program, Grant No. 2001TYFX0047
   •   S●T●O●P Violence Against Indian Women Program, Grant No. 1996WINX0010

Choctaw Nation Law Enforcement, Durant, Oklahoma
   • Tribal Resource Grant Program - Equipment, Grant No. 1999HEWX0120
   •   Tribal Resource Grant Program - Equipment, Grant No. 2001HEWX0078
   •   Tribal Resource Grant Program - Equipment, Grant No. 2003HEWX0084
   •   Tribal Resource Grant Program - Equipment, Grant No. 2002HEWX0079
   •   Tribal Resource Grant Program - Equipment, Grant No. 2000HEWX0077
   •   Tribal Resource Grant Program - Hiring, Grant No. 2002HHWX0032

CHICKASAW NATION, ADA, OKLAHOMA
   • Tribal Courts Assistance Program, Grant No. 2002ICBX0011
   •   Tribal Youth Program, Grant No. 2001TYFX0007
   •   S●T●O●P Violence Against Indian Women Program, Grant No. 1996WINX0042




                                       - 79 -
ST. REGIS MOHAWK TRIBE, AKWESASNE, NEW YORK
    • Tribal Resource Grant Program - Equipment, Grant No. 2003HEWX0021
   •   Tribal Resource Grant Program - Equipment, Grant No. 2002HEWX0072
   •   Tribal Hiring Renewal Grant Program, Grant No. 2001HRWX0001
   •   Tribal Resource Grant Program - Equipment, Grant No. 2001HEWX0074
   •   Tribal Resource Grant Program - Equipment, Grant No. 2000HEWX0069

COLUMBIA RIVER INTER-TRIBAL FISHERIES ENFORCEMENT, HOOD RIVER, OREGON
   • Tribal Resource Grant Program - Equipment, Grant No. 1999HEWX0126
   •   Tribal Resource Grant Program - Equipment, Grant No. 2000HEWX0079
   •   Tribal Resource Grant Program - Equipment, Grant No. 2001HEWX0084
   •   Tribal Resource Grant Program - Equipment, Grant No. 2002HEWX0087

LUMMI INDIAN NATION, BELLINGHAM, WASHINGTON
   • Tribal Victim Assistance Program, Grant No. 2001VRGX0001
   •   Tribal Victim Assistance Program, Grant No.1999VRGX0012
   •   Children’s Justice Act Partnerships for Indian Communities Program,
       Grant No. 2001VIGX0002
   •   Drug Court Program, Grant No. 2002DCBX0066
   •   Tribal Courts Assistance Program, Grant No. 2002ICBX0019
   •   Tribal Youth Program, Grant No. 2002TYFX0004
   •   S●T●O●P Violence Against Indian Women Program, Grant No. 1996WINX0007

PASSAMAQUODDY TRIBE AND PLEASANT POINT RESERVATION, PERRY, MAINE
   • Tribal Resource Grant Program - Hiring, Grant No. 1999HHWX0018
   •   Tribal Resource Grant Program - Equipment, Grant No. 1999HEWX0018
   •   Tribal Resource Grant Program - Equipment, Grant No. 2000HEWX0033
   •   Tribal Resource Grant Program - Equipment, Grant No. 2003HEWX0116
   •   Tribal Resource Grant Program - Equipment, Grant No. 2002HEWX0030
   •   Tribal Resource Grant Program - Hiring, Grant No. 2003HHWX0040
   •   Tribal Resource Grant Program - Hiring, Grant No. 2002HHWX0013

BLACKFEET TRIBAL BUSINESS COUNCIL, BROWNING, MONTANA
   • Tribal Resource Grant Program - Hiring, Grant No. 1999HHWX0025
   •   Tribal Resource Grant Program - Equipment, Grant No. 1999HEWX0025
   •   Tribal Resource Grant Program - Hiring, Grant No. 2000HHWX0031
   •   Tribal Resource Grant Program - Equipment, Grant No. 2000HEWX0071
   •   Tribal Resource Grant Program - Equipment, Grant No. 2001HEWX0059
   •   COPS In Schools, Grant No. 2002SHWX0671




                                         - 80 -
BLACKFEET FISH AND WILDLIFE DEPARTMENT, BROWNING, MONTANA
   • Tribal Resource Grant Program - Hiring, Grant No. 2002HHWX0021
    •   Tribal Resource Grant Program - Equipment, Grant No. 2002HEWZ0051

NAVAJO NATION DIVISION OF PUBLIC SAFETY, WINDOW ROCK, ARIZONA
   • Tribal Resource Grant Program - Equipment , Grant No. 1999HEWX0076
    •   Tribal Resource Grant Program - Equipment, Grant No. 2000HEWX0011
    •   Tribal Resource Grant Program - Equipment, Grant No. 2001HEWX0015
    •   Tribal Resource Grant Program - Equipment, Grant No. 2002HEWX0008

NAVAJO NATION DEPARTMENT OF RESOURCE ENFORCEMENT, WINDOW ROCK, ARIZONA
   • Tribal Resource Grant Program - Hiring, Grant No. 2002HHWX0010
    •   Tribal Resource Grant Program - Hiring, Grant No. 2003HHWX0021
    •   Tribal Resource Grant Program - Equipment, Grant No. 2002HEWX0016
    •   Tribal Resource Grant Program - Equipment, Grant No. 2003HEWX0043
OGLALA SIOUX TRIBE, PINE RIDGE, SOUTH DAKOTA
   • Tribal Youth Program, Grant No. 2002TYFX0002
    •   Correctional Facilities on Tribal Lands Program, Grant No. 2002IPBX0002
    •   Tribal Victim Assistance Program, Grant No. 2002VRGX0011
    •   S●T●O●P Violence Against Indian Women Program, Grant No. 95WINX0007


       For each of these audits listed above, we assessed compliance with the
critical grant requirements to ensure that costs charged to the grant
programs were allowable and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the grants. Additionally,
we interviewed tribal officials to determine any concerns regarding the DOJ’s
current funding strategy meeting their short-term and long-term criminal
justice needs.

       Finally, to determine the effectiveness of the DOJ’s overall strategy for
awarding grants to tribal governments and the extent to which the DOJ
components coordinate and share information about program activities, we
interviewed program officials from the COPS Office, OJP, including the AI/AN
Affairs Desk, OVW, and OTJ.




                                         - 81 -
                                                                APPENDIX III

                 OFFICE OF JUSTICE PROGRAMS
               BUREAUS, PROGRAM OFFICES, AND
                AGENCY-WIDE SUPPORT OFFICES


     OJP consists of the following five bureaus, two program offices, and
seven offices that provide agency-wide support.


OJP Bureaus

  •   Bureau of Justice Assistance (BJA) provides funding, training, and
      technical assistance to state, local, and tribal governments to reduce
      and prevent crime, violence, and drug abuse and to improve the
      function of the criminal justice system.

  •   Bureau of Justice Statistics (BJS) is responsible for the collection,
      analysis, publication, and dissemination of statistical information on
      crime, criminal offenders, victims of crime, and the operations of
      justice systems at all levels of government.

  •   National Institute of Justice (NIJ) supports scientific research,
      development, and evaluation to enhance the administration of justice
      and public safety.

  •   Office of Juvenile Justice and Delinquency Prevention (OJJDP) supports
      states, local communities, and tribal jurisdictions in their efforts to
      develop and implement effective programs for juveniles. The OJJDP
      also strives to enable the juvenile justice system to better protect
      public safety, hold offenders accountable, and provide services tailored
      to the needs of youth and their families.

  •   Office for Victims of Crime (OVC) works to enhance the capacity to
      assist crime victims and to provide leadership in changing attitudes,
      policies, and practices to promote justice and healing for all victims of
      crime.




                                     - 82 -
OJP Program Offices

  •   Community Capacity Development Office (CCDO) assists communities
      around the United States as they seek to prevent crime, increase
      community safety, and revitalize neighborhoods. The CCDO includes
      the American Indian and Alaska Native Affairs Desk, and Weed and
      Seed.

  •   Office of the Police Corps and Law Enforcement Education (OPCLEE)
      addresses violent crime by helping state and local law enforcement
      agencies increase the number of officers with advanced education and
      training assigned to community patrol.


OJP Agency-wide Support Offices

  •   Office of Communications (OCOM) is responsible for working with
      congressional members, committees, and staff on legislation, policies,
      and issues affecting OJP, its bureaus and program offices, as well as
      keeping Congress, the criminal justice community, the news media
      and the public informed.

  •   Office of Administration (OA) is responsible for matters involving
      human resources recruitment and management; labor relations;
      contracting and procurement; property and space management; and
      the maintenance, safety, and security of facilities.

  •   Equal Employment Opportunity Office (EEO) promotes full realization
      of equal employment opportunity through a continuing affirmative
      employment program that aims to eliminate discrimination based on
      factors irrelevant to job performance.

  •   Office of Civil Rights (OCR) ensures that recipients of financial
      assistance from OJP, its component organizations, or the COPS Office
      are not engaged in prohibited discrimination.

  •   Office of Budget and Management Services (OBMS) manages a wide
      variety of budget execution, formulation, and presentation activities,
      as well as management and planning, correspondence analysis, and
      coordination activities within OJP.

  •   Office of the Comptroller (OC) is responsible for matters involving
      fiscal policy guidance and control, and supports accounting, financial



                                    - 83 -
    and grants management, and claims collection services. The OC
    oversees: (1) the Financial Management Division, (2) the Accounting
    Division, (3) the Monitoring Division, and (4) the Training and Policy
    Division, which are responsible for assessing grantee and OJP financial
    management policies, procedures, and practices; and contributes to
    overall financial integrity and achievement of goals and objectives of
    OJP and its bureaus and program offices.

•   Office of General Counsel (OGC) provides legal advice and guidance to
    the Office of Justice Programs and its components.




                                  - 84 -
                                                                            APPENDIX IV

            OTHER GRANT PROGRAMS OFFERED TO TRIBAL
                GOVERNMENTS BY THE COPS OFFICE


     In addition to the tribal-specific grant programs, the COPS Office also
awarded grants under the following programs to tribal governments during
FYs 1999 through 2003:43

   •   COPS In Schools (CIS) was designed to provide assistance to law
       enforcement agencies to build collaborative relationships with schools,
       and to use community policing efforts to help combat violence and
       reduce the fear of crime in the schools by deploying officers as school
       resource officers. The CIS grant program provides grant funding
       directly to local, state, and tribal jurisdictions for the hiring and
       deployment of new, additional, career law enforcement officer
       positions in and around primary and secondary schools.

   •   Homeland Security Overtime Program (HSOP) was designed to
       supplement grantee agencies' state or locally funded officer overtime
       budgets, thereby increasing the amount of overtime funding available
       to support community policing and homeland security efforts. The
       HSOP grant program provides funding directly to local, state, and tribal
       jurisdictions to pay officer overtime during homeland security training
       sessions and other law enforcement activities that are designed to help
       prevent acts of terrorism and other violent or drug-related crimes.
       The HSOP grant funding also supports the overtime efforts of
       non-supervisory, sworn personnel such as intelligence officers, crime
       analysts, undercover officers, and others who work on homeland
       security or terrorism task forces.

   •   Methamphetamine Grants (METH) was designed to assist state and
       local law enforcement agencies in reducing the production,
       distribution, and use of methamphetamine. The METH grant program
       provides funding directly to state, local, Indian tribal, and other public
       law enforcement agencies that plan to utilize community policing
       strategies to address methamphetamine problems in their local and
       surrounding jurisdictions.

       43
            Grant funding under the grant programs listed are available to local, state, and
tribal jurisdictions.




                                            - 85 -
•   Making Officer Redeployment Effective (MORE) was designed to
    expand the amount of time current law enforcement officers can spend
    on community policing by funding technology, equipment, and support
    staff, including civilian personnel. The MORE grant program requires
    that grantees demonstrate that the items they request would increase
    the number of current law enforcement officers deployed into
    community policing by an equal or greater measure than would a
    COPS grant for hiring new officers.

•   Universal Hiring Program (UHP) is designed to help law enforcement
    agencies partner with their communities to develop creative and
    innovative ways to deal with long-standing problems by providing
    funding to local, state, and tribal jurisdictions for the salaries and
    benefits of newly hired officers engaged in community policing. The
    UHP grant program provides federal funding for 75 percent of a newly
    hired entry-level officer's salary and benefits, up to a maximum
    amount of $75,000 per officer, over the course of the 3-year grant
    period.




                                 - 86 -
                                                                             APPENDIX V

               OTHER GRANT PROGRAMS OFFERED TO
                  TRIBAL GOVERNMENTS BY OJP


      In addition to the tribal-specific grant programs, OJP administers the
following formula and discretionary grant programs that can be used to
enhance and support the ability of tribal governments to address crime,
violence, and victimization.44

Formula Grant Programs

   •   The Edward Byrne Memorial State and Local Law Enforcement
       Assistance formula grant program is administered by the BJA and
       provides funding to assist states and units of local government in
       controlling and preventing drug abuse, crime, and violence, and in
       improving the function of the criminal justice system. The Byrne
       Formula grant program has 29 designated purpose areas that include:
       prosecution, adjudication, community crime prevention, and
       development of criminal justice information systems.

   •   The Local Law Enforcement Block Grants Program (LLEBG) provides
       formula-based funding to units of local government to help reduce
       crime and improve public safety. Each year, BJA contacts local
       governments that are eligible to apply for direct awards under the
       program. Award amounts are determined by each local government’s
       crime rate, as reported to the Federal Bureau of Investigation’s
       Uniform Crime Reporting System. Local governments that qualify for
       awards over $10,000 receive direct awards from BJA. Each state
       receives LLEBG funds that can be used to hire or pay overtime to
       police officers, establish multi-jurisdictional task forces, purchase basic
       law enforcement equipment, and a number of other purpose areas.


       44
           Formula grants are awarded directly to state and local governments, including
tribal governments and nonprofit organizations, based on a predetermined formula that is
often based upon a jurisdiction’s crime rate, population, or some other factor. States
generally are required to pass a significant portion of formula awards to local agencies and
organizations in the form of subgrants. Discretionary awards may be awarded to states,
units of local government, Indian tribes and tribal organizations, individuals, educational
institutions, hospitals, and both private nonprofit and commercial organizations at the
discretion of the awarding agency.




                                           - 87 -
•   OJJDP’s Formula Grants Program, Title V Incentive Grants for Local
    Deliquency Prevention Programs, Enforcing the Underage Drinking
    Laws Program, and Part E State Challenge Grants programs support
    state and local efforts to improve the juvenile justice system to
    prevent delinquency.

•   The Juvenile Accountability Incentive Block Grants program supports
    state and local efforts to address juvenile crime by encouraging
    reforms that hold all offenders accountable for their crimes.

•   The Residential Substance Abuse Treatment program supports
    individual and group substance abuse treatment activities for offenders
    in residential facilities operated by state and local correctional
    agencies.

•   The Violent Offender Incarceration/Truth in Sentencing grant programs
    help states build or expand correctional facilities for adult or juvenile
    offenders. The Violent Offender Incarceration grant program is
    administered on a three-tiered formula basis, while the Truth in
    Sentencing awards are distributed as an incentive to states for
    enhancing sentencing reform to ensure that violent offenders serve
    longer portions of their sentences.

•   The S●T●O●P Violence Against Women Formula Grants program
    supports improvements in law enforcement response to violence
    against women, development of more effective strategies and
    programs to prevent crimes against women, and improvements in data
    collection and tracking systems. By law, at least a quarter of S●T●O●P
    funds must be dedicated to enhancing direct services to crime victims.

•   The Victim Assistance and Victim Compensation grant programs are
    funded through the Crime Victims Fund, which is derived from fines,
    penalty assessment, and bail forfeitures collected from federal criminal
    offenders (not from taxpayers). Victim Assistance subgrants provide
    funding for approximately 3,300 victims’ assistance programs,
    including rape crisis centers, battered women’s shelters, children’s
    advocacy centers, and victim services units within law enforcement
    agencies. Together, these organizations service more than 2 million
    crime victims each year. State victim compensation programs serve
    an additional 200,000 victims annually by providing financial
    assistance to victims to help defray some of the economic costs of
    crime.




                                  - 88 -
Discretionary Grant Programs

  •   The Grants to Encourage Arrest Policies and Enforcement of Protection
      Orders Program is designed to encourage state, local, and tribal
      governments, and state, local, and tribal courts to treat domestic
      violence as a serious violation of criminal law requiring the coordinated
      involvement of the entire criminal justice system. At least 5 percent of
      the funding for this program must be available for grants to Indian
      tribal governments.

  •   The Rural Domestic Violence and Child Victimization Enforcement
      Grants Program is designed to enhance services available to rural
      victims and children by encouraging community involvement in
      developing a coordinated response to domestic violence, dating
      violence, and child abuse. Eligible applicants include tribal
      governments in rural and nonrural states. At least 5 percent of the
      funding for this program must be available for grants to Indian tribal
      governments.

  •   The Legal Assistance for Victims Grants Program is designed to
      strengthen legal assistance programs for victims of domestic violence,
      sexual assault, and stalking. Five percent of the funding for this
      program is set aside for grants to programs that assist victims of
      domestic violence, sexual assault, and stalking on lands within the
      jurisdiction of an Indian tribe.

  •   The Safe Havens for Children Pilot Program is designed to help create
      safe places for visitation with and exchange of children in cases of
      domestic violence, child abuse, sexual assault, or stalking. At least
      5 percent of the funding for this program is available for grants to
      Indian tribal governments.




                                    - 89 -
                                                                APPENDIX VI

        CRIMINAL JURISDICTION IN INDIAN COUNTRY


        As stated previously, there are numerous jurisdictional complexities
and limitations in Indian Country, which contribute to the overwhelming
difficulties in any effort to improve the relationship between tribal
governments and the federal government. For example, crimes committed
in Indian Country could fall under the jurisdiction of the federal, state, or
tribal governments, depending on the identity of the victim and suspect,
(i.e., Indian or non-Indian), the seriousness of the offense, and the state in
which the offense was committed. There are three federal statutes that
affect criminal jurisdiction in Indian Country, including:

   •   Title 18, Chapter 53, Section 1152 – Law governing (18 USC § 1152).

   •   Title 18, Chapter 53, Section 1153 – Offenses committed within Indian
       Country (18 USC § 1153);

   •   Title 18, Chapter 53, Section 1162 – State jurisdiction over offenses
       committed by or against Indians in Indian Country (18 USC § 1162);
       and

The first federal code provision relating to crimes committed in Indian
Country is 18 USC § 1152. Under 18 USC § 1152, all crimes committed by
non-Indians against Indians in Indian Country are subject to exclusive
federal jurisdiction regardless of the seriousness of the offense.

     Jurisdiction in Indian Country is further complicated by the definition of
what constitutes Indian Country. Indian Country as defined by
18 USC § 1151, includes:

   •   all land within the limits of any Indian reservation under the
       jurisdiction of the federal government, notwithstanding the issuance of
       any patent, and, including rights-of-way running through the
       reservation;

   •   all dependent Indian communities within the borders of the United
       States whether within the original or subsequently acquired territory
       thereof, and whether within or without the limits of a state; and




                                     - 90 -
   •   all Indian allotments, the Indian titles to which have not been
       extinguished, including rights-of-way running through the same.

       The second federal code provision regarding jurisdiction over crimes
committed in Indian Country is 18 USC § 1153. Pursuant to 18 USC § 1153,
crimes committed in Indian Country, with the exception of crimes committed
in the states granted jurisdiction under 18 USC § 1162, are subject to
federal jurisdiction when the offense is committed by, or against, a Native
American. The crimes subject to federal jurisdiction under 18 USC § 1153,
include: murder, manslaughter, kidnapping, maiming, incest, assault with
intent to commit murder, assault with a dangerous weapon, assault resulting
in serious bodily injury, an assault against an individual who has not attained
the age of 16 years, arson, burglary, and robbery.

       Additionally, pursuant to 18 USC § 1153, all non-major crimes (those
not listed in 18 USC § 1153) committed by Indians against other Indians
within Indian Country, are subject to the jurisdiction of tribal courts.
Further, all crimes committed by non-Indians against other non-Indians, in
Indian Country, are subject to prosecution under state law. Table 20
illustrates jurisdiction over criminal offenses committed in states not covered
by 18 USC § 1162.

TABLE 20. CRIMINAL JURISDICTION OVER CRIMES COMMITTED IN
          INDIAN COUNTRY
 SUSPECT IDENTITY    VICTIM IDENTITY        TYPE OF OFFENSE    JURISDICTION
 Indian              Indian or Non-Indian   Major Crimes       Federal
 Indian              Indian or Non-Indian   Non-major Crimes   Tribal
 Non-Indian          Indian                 Any Offense        Federal
 Non-Indian          Non-Indian             Any Offense        State
Source: 18 USC § 1152 and 18 USC § 1153

       Finally, the third federal code provision concerning Indian Country
jurisdiction is 18 USC § 1162. Under 18 USC § 1162, certain states were
granted jurisdiction over crimes committed in all or part of Indian Country
within the state, except those specifically designed as matters of jurisdiction.
Table 21 illustrates those states granted jurisdiction pursuant to
18 USC § 1162.




                                      - 91 -
TABLE 21. STATES GRANTED JURISDICTION OVER CRIMES
          COMMITTED IN INDIAN COUNTRY UNDER 18 USC § 1162
 STATE        INDIAN COUNTRY AFFECTED
 Alaska       All Indian Country within the state, except that on Annette Islands;
              the Metlakatla Indian community may exercise jurisdiction over
              offenses committed by Indians in the same manner in which such
              jurisdiction may be exercised by Indian tribes in Indian country
              over which state jurisdiction has not been extended.
 California   All Indian Country within the state.
 Minnesota    All Indian country within the state, except the Red Lake
              Reservation.
 Nebraska     All Indian country within the state.
 Oregon       All Indian country within the state, except the Warm Springs
              Reservation.
 Wisconsin    All Indian country within the state.
Source: 18 USC § 1162




                                           - 92 -
                                                                     APPENDIX VII

 PRIOR AUDITS CONDUCTED BY THE OIG OF COPS OFFICE
     GRANTS AWARDED TO TRIBAL GOVERNMENTS


      During FYs 1998 through 2004, the OIG conducted 14 audits of COPS
Office grants awarded to tribal grantees. Based on the results of the
14 audits, the OIG identified questioned costs totaling $1,593,386 and funds
put to better use totaling $2,930,130.

                                                        QUESTIONED     FUNDS PUT TO
 GRANTEE NAME                             REPORT NO.      COSTS         BETTER USE
 Housing Authority of the Sac and Fox
   Tribe of Missouri                     GR-50-98-004              -               -
 Rosebud Sioux Police Department         GR-80-98-007     $427,357       $1,301,323
 Hoopa Valley Tribal Police Department   GR-90-98-007           -                  -
 Standing Rock Sioux Tribe               GR-80-98-010       52,122          933,319
 Mescalero Apache Tribe                  GR-80-98-016      105,620                -
 Iowa Tribe of Kansas and Nebraska       GR-50-98-022             -         436,054
 Las Vegas Paiute Tribal Police          GR-90-98-027             -               -
 Red Lake Band of Chippewa Indians       GR-50-98-031      156,842          161,004
 Kickapoo Tribe of Oklahoma Police
   Department                            GR-80-98-035        36,413           9,553
 Pyramid Lake Pauite Tribal Police
   Department                            GR-90-99-018        48,208          59,274
 Osage Tribe of Oklahoma                 GR-80-00-002         9,249          18,659
 Osage Tribe of Oklahoma                 GR-80-00-012        87,361          10,944
 Umatilla Tribal Police Department       GR-90-01-003        48,300               -
 Crow Creek Sioux Tribe                  GR-60-02-001       621,914               -
 TOTALS                                                 $1,593,386      $2,930,130
Source: OIG Audit Division




                                         - 93 -
                                                                APPENDIX VIII

         PRIOR AUDITS CONDUCTED BY THE OIG OF
      OJP GRANTS AWARDED TO TRIBAL GOVERNMENTS


      During FYs 1998 through 2004, the OIG conducted 13 audits of OJP
grants awarded to tribal grantees. Based on the results of the 13 audits, the
OIG identified questioned costs totaling $2,593,591 and funds put to better
use totaling $114,303.

                                                        QUESTIONED    FUNDS PUT TO
GRANTEE NAME                              REPORT NO.      COSTS        BETTER USE
Inter-Tribal Council of Nevada, Inc.     GR-90-98-014       $27,633                  -
Torres-Martinez Desert Cahuilla Indian
  Tribe                                  GR-90-98-032         2,515                  -
Yavapai-Apache Indian Nation             GR-90-98-034            -                   -
South Puget Intertribal Planning
  Agency                                 GR-90-98-037         3,858              -
Lac Courte Oreilles Tribal Government    GR-50-99-002        27,347              -
Osage Tribal Council                     GR-80-99-006         4,054              -
Osage Tribal Council                     GR-80-99-007           197              -
Southern Ute Indian Tribe                GR-80-00-004        32,921              -
Confederated Tribes of the
  Chugachmiut Indian Reservation         GR-90-00-011        14,601              -
Confederated Tribes of the
  Umatilla Indian Reservation            GR-90-00-012        11,872              -
Red Lake Band of Chippewa Indians        GR-50-03-003     1,831,866       $114,303
National American Indian Court Judges
  Association, National Tribal Justice
  Resource Center                        GR-60-04-001        31,921              -
Turtle Mountain Band of Chippewa
  Indians                                GR-60-04-003       604,806             -
TOTALS                                                  $2,593,591       $114,303
Source: OIG Audit Division.




                                         - 94 -
                                                                         APPENDIX IX

   COPS OFFICE TOTAL QUESTIONED COSTS RELATED TO
      EXCESS DRAWDOWNS ON EXPIRED GRANTS45


                                                                           QUESTIONED
NO.       GRANT NO.                        GRANTEE NAME                       COSTS
 1    1999HEWXK001         Washington State University                      $411,012.04
 2    1999HHWX0032         Picuris Pueblo                                     71,194.00
 3    1999HEWX0039         Walker River Paiute Tribe                          68,828.00
 4    1999HEWX0023         Bois Forte Reservation                             34,556.00
 5    1999HHWX0043         Citizen Potawatomi Nation                          28,708.91
 6    2000HHWX0058         Alakanuk Tribal Council                            27,927.39
 7    2000HHWX0023         Picuris Pueblo                                     20,000.00
 8    2000HEWX0009         Tuluksak Native Community                          13,765.64
 9    2000HEWX0049         Picuris Pueblo                                     13,374.30
 10   1999HEWX0045         Ponca Tribe of Oklahoma                             8,507.79
 11   2000HHWX0055         Wells Band Council                                  4,606.21
 12   2001HEWX0079         Kaw Nation of Oklahoma                              4,301.71
 13   1999HEWX0134         Shoalwater Bay Indian Tribe                         2,594.00
 14   1999HEWX0042         Cheyenne and Arapaho Tribe                          1,835.00
 15   1999HEWX0063         Native Village of Kwinhagak                         1,190.32
 16   2000HEWX0120         Alakanuk Tribal Council                               886.15
 17   2000HEWX0123         Seneca Nation Conservation Department                 177.00
 18   2000HEWX0092         Kalispel Tribe of Indians                             102.80
TOTAL QUESTIONED COSTS                                                     $713,567.26




       45
          To identify if grantees had drawn down grant funds in excess of expenditures, we
compared cumulative grant expenditures on the most recent financial report submitted to
grant drawdowns.




                                          - 95 -
                                                                          APPENDIX X

            OJP TOTAL QUESTIONED COSTS RELATED TO
            EXCESS DRAWDOWNS ON EXPIRED GRANTS46


                                                                           QUESTIONED
NO.       GRANT NO.                      GRANTEE NAME                         COSTS
 1    1999VRGX0021         Navajo Nation                                     $58,734.98
 2    2000ICVX0043         Klamath Tribes of Oregon                           28,704.24
 3    2002ICBX0013         Kickapoo Traditional Tribe of Texas                14,449.00
 4    2001VRGX0001         Lummi Indian Nation                                13,512.39
 5    1999VRGX0003         Osage Tribe of Oklahoma                             9,404.04
 6    2000ICVX0059         Northway Village Council                            7,060.25
 7    1999VRGX0005         Prairie Island Indian Community                     5,519.00
 8    2000ICVX0032         Aleknagik Traditional Council                       4,339.05
 9    2000ICVX0023         Chefornak Traditional Council                       4,095.00
TOTAL QUESTIONED COSTS                                                     $145,817.95




       46
          To identify if grantees had drawn down grant funds in excess of expenditures, we
compared cumulative grant expenditures on the most recent financial report submitted to
grant drawdowns.




                                          - 96 -
                                                                         APPENDIX XI

            OVW TOTAL QUESTIONED COSTS RELATED TO
            EXCESS DRAWDOWNS ON EXPIRED GRANTS47


                                                                           QUESTIONED
NO.       GRANT NO.                        GRANTEE NAME                       COSTS
 1    1995WINX0001         Jicarilla Apache Nation                           $66,801.36
 2    1996WINX0043         Leech Lake Band of Ojibwe                           4,061.29
TOTAL QUESTIONED COSTS                                                      $70,862.65




       47
          To identify if grantees had drawn down grant funds in excess of expenditures, we
compared cumulative grant expenditures on the most recent financial report submitted to
grant drawdowns.




                                          - 97 -
                                                                       APPENDIX XII

 COPS OFFICE TOTAL FUNDS PUT TO BETTER USE RELATED
   TO REMAINING GRANT FUNDS ON CLOSED GRANTS


                                                                        FUNDS PUT TO
NO.       GRANT NO.                     GRANTEE NAME                     BETTER USE
 1    2001HHWX0020        Sault Ste. Marie Tribe of Chippewa               $78,888.49
 2    1999HEWX0088        Sac and Fox Tribe of Missouri                     64,954.00
 3    2003HEWX0066        Lac Vieux Desert Band of Lake Superior
                          Chippewa                                          26,168.00
 4    2002HEWX0041        Little River Band of Ottawa Indians Police
                          Department                                        21,639.00
 5    1999HHWX0035        Taos Pueblo                                        5,563.00
 6    2002HEWX0037        Lac Vieux Desert Band of Lake Superior
                          Chippewa                                           1,337.00
 7    2002HEWX0040        Hannahville Indian Community                       1,178.26
 8    2000HEWX0092        Kalispel Tribe of Indians                            652.36
TOTAL FUNDS PUT TO BETTER USE                                            $200,380.11




                                         - 98 -
                                                                 APPENDIX XIII

     OVW TOTAL FUNDS PUT TO BETTER USE RELATED TO
       REMAINING GRANT FUNDS ON CLOSED GRANTS


                                                                    FUNDS PUT TO
NO.       GRANT NO.                     GRANTEE NAME                 BETTER USE
 1    1998WIVX0001        Oneida Tribe of Indians of Wisconsin         $6,869.22
TOTAL FUNDS PUT TO BETTER USE                                         $6,869.22




                                       - 99 -
                                                              APPENDIX XIV

      COPS OFFICE TOTAL QUESTIONED COSTS RELATED
      TO DRAWDOWNS ON EXPIRED GRANTS OCCURRING
       MORE THAN 90 DAYS PAST THE GRANT END DATE


                                                                QUESTIONED
NO.      GRANT NO.                    GRANTEE NAME                 COSTS
 1    2002HEWX0049   Fort Peck Tribes                            $168,389.41
 2    2002HEWX0014   Fort McDowell Yavapai Nation                  95,765.99
 3    2002HNWX0003   Crow Tribe of Indians                         92,118.00
 4    1999HHWX0001   Akiachak Native Community                     91,080.00
 5    1999HEWX0098   Grand Traverse Band of Ottawa and
                     Chippewa Indians                             89,643.00
6     2000HEWX0082   Chehalis Tribal Police Department            83,675.00
7     2000HEWX0068   Isleta Police Department                     76,593.00
8     1999HHWX0013   Yavapai and Apache Nation                    75,000.00
9     2002HEWX0070   Washoe Tribe of Nevada and California        73,430.49
10    1999HEWX0039   Walker River Paiute Tribe                    68,828.00
11    2002HEWX0030   Passamaquoddy Tribe and Pleasant Point
                     Reservation                                  67,000.00
12    2002HEWX0009   San Carlos Apache Tribe                      62,362.00
13    2002HEWX0035   Houlton Band of Maliseet Indians             61,680.00
14    1999HEWX0014   Coyote Valley Band of Pomo Indians           61,408.00
15    2002HEWX0038   Sault Ste. Marie Tribe of Chippewa           58,725.43
16    1999HEWX0053   Colville Tribal Police Services              55,438.21
17    2002HEWX0100   Nisqually Indian Tribe                       55,000.00
18    2000HEWX0047   Ramah Navajo Chapter                         53,894.35
19    1999HEWX0060   Eastern Shoshone Tribe                       52,197.00
20    2000HEWX0019   Hualapai Indian Tribe                        52,041.00
21    2000HHWX0026   Yerington Paiute Tribe                       50,000.00
22    2001HEWX0024   Hopland Band of Pomo Indians                 49,917.78
23    2000HHWX0008   Salt River Pima-Maricopa Indian Police
                     Department                                   49,602.00
24    2000HEWX0073   Cherokee Nation Marshal Service              44,926.20
25    2000HEWX0040   Red Lake Band of Chippewa Indians            44,342.30
26    2000HNWX0001   Nisqually Indian Tribe                       43,562.60
27    1999HEWX0108   Tesuque Pueblo                               43,251.00
28    1999HHWX0037   Lovelock Paiute Tribe                        42,910.00
29    2001HEWX0044   Grand Traverse Band of Indians
                     Conservation Department                      41,997.52
30    2002HEWX0053   Ft. Belknap Indian Community                 40,000.00
31    1999HEWX0110   Reno-Sparks Indian Colony                    40,000.00
32    1999HEWXK002   Western Oregon University                    39,503.79
33    1999HEWXK001   Washington State University                  39,064.79
34    2000HEWX0109   Yurok Tribe                                  38,496.58




                                  - 100 -
                                                                QUESTIONED
NO.      GRANT NO.                    GRANTEE NAME                COSTS
35    2002HEWX0018   Hopland Band of Pomo Indians                 37,646.69
36    1999HEWX0063   Native Village of Kwinhagak                  35,790.56
37    1999HEWX0009   Fort Mojave Tribal Police                    35,245.00
38    1999HEWX0129   Jamestown S'Klallam Tribe                    33,618.62
39    2002HEWX0093   Lower Brule Sioux Tribe Department of
                     Wildlife                                     32,514.00
40    1999HEWX0062   Village of Chickaloon                        32,395.00
41    2000HEWX0084   Lummi Indian Business Council                31,988.50
42    2002HEWX0068   Pyramid Lake Paiute Tribe                    29,117.00
43    2002HEWX0084   Coquille Tribal Police Department            28,748.00
44    2000HEWX0106   Fort Peck Tribes Department of Fish and
                     Wildlife                                     27,884.70
45    1999HEWX0065   Village of Manokotak                         27,428.00
46    2000HEWX0079   Columbia River Inter-Tribal Fisheries
                     Enforcement                                  27,343.00
47    2002HEWX0040   Hannahville Indian Community                 26,150.60
48    2002HEWX0050   Confederated Salish and Kootenai Tribes      25,595.85
49    2000HHWX0046   Chefornak Traditional Council                25,018.22
50    2002HEWX0115   Lac Courte Oreilles Conservation
                     Department                                   24,660.00
51    2000HEWX0033   Passamaquoddy Tribe and Pleasant Point
                     Reservation                                  21,778.00
52    2001HEWX0106   St. Croix Tribal Police Department           20,417.61
53    1999HEWX0114   Kickapoo Tribe of Oklahoma                   20,238.00
54    2001HEWX0095   Colville Tribal Police Services              19,603.00
55    1999HEWX0093   Bay Mills Indian Community                   18,869.00
56    2000HNWX0003   Pyramid Lake Paiute Tribe                    18,736.00
57    2000HEWX0004   Native Village of Gambell                    16,866.00
58    1999HHWX0036   Las Vegas Paiute Tribe                       16,487.71
59    2001HEWX0071   Washoe Tribe of Nevada and California        15,878.79
60    1999HEWX0083   Pascua Yaqui Police Department               15,000.00
61    1999HEWX0102   Fond du Lac Reservation                      14,383.00
62    2002HEWX0111   Red Cliff Band of Lake Superior Chippewa
                     Indians                                      14,002.77
63    2000HEWX0005   Village of Napakiak                          14,000.00
64    2000HEWX0009   Tuluksak Native Community                    13,765.64
65    2000HNWX0004   Eagle Village Council, IRA                   12,111.35
66    1999HEWX0111   Fallon Paiute-Shoshone Tribes                11,981.30
67    2001HEWX0034   Iowa Tribe of Kansas and Nebraska            11,632.03
68    1999HEWX0015   Hopland Band of Pomo Indians                 11,442.51
69    2002HEWX0019   Coyote Valley Band of Pomo Indians           10,509.00
70    1999HEWX0043   Citizen Potawatomi Nation                    10,447.00
71    2000HEWX0083   Lower Elwha Klallum Tribe Police
                     Department                                    9,493.00
72    1999HHWX0048   Narragansett Indian Tribe                     9,086.00
73    1999HEWX0080   Hopi Tribe                                    8,915.06
74    1999HEWX0133   Suquamish Tribe                               8,856.00



                                  - 101 -
                                                                   QUESTIONED
NO.      GRANT NO.                    GRANTEE NAME                   COSTS
75    1999HEWX0028   Fort Peck Tribes                                  7,985.00
76    1999HEWX0040   Yerington Paiute Tribe                           7,381.00
77    1999HEWX0044   Otoe-Missouria Tribe of Indians                   7,179.00
78    2000HHWX0003   Village of Napakiak                              6,700.00
79    1999HEWX0103   Fort Belknap Indian Community                    6,664.00
80    1999HHWX0053   Colville Tribal Police Services                  6,150.59
81    2001HEWX0094   Stillaguamish Tribe of Indians                    5,762.97
82    2001HEWX0093   Nisqually Indian Tribe                           5,440.20
83    2000HEWX0034   Penobscot Indian Nation Warden Service           5,369.00
84    2000HEWX0111   Tetlin Tribal Council                            5,031.00
85    1999HEWX0023   Bois Forte Reservation                            4,938.10
86    2001HEWX0061   Mescalero Apache Tribe                           4,904.92
87    2000HHWX0037   Puyallup Tribe of Indians                         4,855.85
88    1999HEWX0140   Red Cliff Band of Lake Superior Chippewa
                     Indians                                           4,688.00
89    2000HEWX0098   Stillaguamish Tribe of Indians                    4,366.25
90    1999HEWX0077   Colorado River Indian Tribes                      4,216.00
91    2000HEWX0124   Lac Courte Oreilles Conservation
                     Department                                        4,004.00
92    2002HEWX0032   Passamaquoddy Police Department                   4,000.00
93    2001HEWX0045   Grand Traverse Band of Ottawa and
                     Chippewa Indians                                  4,000.00
94    2001HEWX0065   Pueblo of Sandia                                  3,827.86
95    1999HEWX0016   Shoshone-Bannock Tribes                           3,540.87
96    1999HEWX0106   Ramah Navajo Chapter                              3,472.00
97    2001HEWX0040   Bay Mills Indian Community                        3,105.00
98    1999HHWX0018   Passamaquoddy Tribe and Pleasant Point
                     Reservation                                       3,000.00
99    1999HEWX0134   Shoalwater Bay Indian Tribe                       2,594.00
100   1999HEWX0109   Isleta Police Department                          2,400.00
101   2001HEWX0021   Pascua Yaqui Police Department                    2,249.56
102   2000HEWX0119   Elko Band Council                                 2,219.41
103   2001HEWX0026   Coyote Valley Band of Pomo Indians                2,213.00
104   1999HHWX0030   Turtle Mountain Band of Chippewa Indians          2,200.00
105   2000HEWX0108   Chefornak Traditional Council                     2,114.08
106   2002HEWX0047   Fond du Lac Band of Lake Superior
                     Chippewa                                          1,924.92
107   2000HEWX0103   Cabazon Band of Mission Indians                   1,650.89
108   1999HEWX0034   Pojoaque Tribal Police Department                 1,589.00
109   2001HEWX0066   Isleta Police Department                          1,467.00
110   2001HNWX0003   Isleta Police Department                          1,432.40
111   2000HEWX0118   Mille Lacs Band of Ojibwe Natural Resources       1,246.00
112   1999HHWX0005   Newtok Traditional Council                          724.00
113   2000HEWX0121   Lower Brule Sioux Tribe Department of
                     Wildlife                                           670.00
114   1999HEWX0116   Muscogee Creek Nation Tribal Police
                     Department                                         669.88



                                  - 102 -
                                                                      QUESTIONED
NO.       GRANT NO.                      GRANTEE NAME                    COSTS
115 2000HEWX0089         Puyallup Tribe Of Indians                          641.79
116 2000HEWX0126         Hopi Tribe                                         394.00
117 1999HHWX0031         Omaha Tribe Police Department                      388.00
118 2001HEWX0069         Pyramid Lake Paiute Tribe                          145.00
119 2000HEWX0092         Kalispel Tribe of Indians                          108.05
120 1999HEWX0030         Turtle Mountain Band of Chippewa Indians            36.00
121 2002HEWX0067         Isleta Police Department                             8.00
122 2001HEWX0008         Kasigluk Traditional Council                         4.00
TOTAL QUESTIONED COSTS                                              $3,077,156.54




                                      - 103 -
                                                                APPENDIX XV

       OJP TOTAL QUESTIONED COSTS RELATED TO
      DRAWDOWNS ON EXPIRED GRANTS OCCURRING
      MORE THAN 90 DAYS PAST THE GRANT END DATE


                                                                  QUESTIONED
NO.      GRANT NO.                   GRANTEE NAME                   COSTS
 1    1999IPVX0008   Three Affiliated Tribes of Fort Berthold
                     Reservation                                 $1,323,154.22
2     1996VIGX0013   Standing Rock Sioux Tribe                      211,027.65
3     2001TYFX0016   Knik Tribal Council                             72,572.00
4     2000ICVX0019   Swinomish Indian Community/Northwest
                     Intertribal Court System                       67,000.00
5     2001TYFX0030   Rosebud Sioux Tribe                            59,645.00
6     2000TYFX0001   Lower Elwha Klallam Tribe                      53,042.65
7     2002ICBX0008   Fallon Paiute-Shoshone Tribe                   50,766.60
8     2000ICVX0073   Pueblo of San Ildefonso                        44,934.89
9     2000ICVX0002   Winnebego Tribe of Nebraska                    42,051.19
10    1999IPVX0004   Shonshone-Paiute Tribes                        37,331.00
11    2001TYFX0037   South Puget Sound Intertribal Agency           26,420.00
12    2002VRGX0006   Pueblo of Zuni                                 25,192.00
13    2000TYFX0034   College of Menominee Nation                    25,141.68
14    2002VRGX0011   Oglala Sioux Tribe                             24,671.74
15    2000ICVX0046   Round Valley Tribal Council                    23,661.94
16    1999VRGX0007   Pueblo of Taos                                 19,606.00
17    2000ICVX0049   Morongo Band of Mission Indians                18,529.00
18    2000ICVX0035   Coyote Valley Band of Pomo Indians             16,455.00
19    2000VRGX0014   Pascua Yaqui Tribe of Arizona                  13,857.01
20    2000ICVX0043   Klamath Tribes of Oregon                       13,704.24
21    2001VRGX0001   Lummi Indian Nation                            13,512.39
22    2000ICVX0062   Native Village of South Naknek                 11,966.69
23    2000TYFX0025   Hannahville Indian Community                   11,891.43
24    2000ICVX0058   Native Council of Port Heiden                  11,127.36
25                   Bad River Band of Lake Superior Tribe of
      2000ICVX0077   Chippewa Indians                               10,000.00
26    2000ICVX0039   Samish Indian Nation                            9,200.00
27    2000ICVX0050   Pala Band of Mission Indians                    8,706.50
28    2000ICVX0015   Orutsararmiut Native Council                    8,302.00
29                   Three Affiliated Tribes of Fort Berthold
      1999VRGX0019   Reservation                                      8,293.00
30    1999VIGX0002   Chugachmiut                                      7,808.77
31    2000ICVX0068   Turtle Mountain Band of Chippewa Indians         6,918.87
32    2000TYFX0014   Winnebago Tribe of Nebraska                      6,412.77
33    1999VRGX0012   Lummi Indian Nation                              5,555.14
34    2000ICVX0014   Native Village of Eyak                           5,408.98




                                  - 104 -
                                                                   QUESTIONED
NO.       GRANT NO.                      GRANTEE NAME                 COSTS
 35   2000VRGX0004       Menominee Indian Tribe of Wisconsin           3,462.30
 36   2000ICVX0066       Wyandotte Tribe of Oklahoma                   3,000.00
 37   2000TYFX0019       Nisqually Indian Tribe                        1,559.26
 38   1999VIGX0001       Wiconi Wawokiya, Inc.                         1,197.94
 39   1999VRGX0018       Nez Perce Tribe                               1,099.95
 40   1999VRGX0017       Red Lake Band of Chippewa Indians               527.72
 41   2000ICVX0054       Kickapoo Traditional Tribe of Texas             311.00
 42   2002ICBX0010       National Institute for Trial Advocacy           252.50
 43   2000ICVX0060       Chickasaw Nation                                 20.00
TOTAL QUESTIONED COSTS                                           $2,305,298.38




                                       - 105 -
                                                                        APPENDIX XVI

       OVW TOTAL QUESTIONED COSTS RELATED TO
      DRAWDOWNS ON EXPIRED GRANTS OCCURRING
      MORE THAN 90 DAYS PAST THE GRANT END DATE


                                                                          QUESTIONED
NO.      GRANT NO.                      GRANTEE NAME                         COSTS
 1    1997WIVX0028       Eastern Band of Cherokee Indians                  $106,879.00
 2    1997WIVX0007       Round Valley Tribal Council                         85,176.00
 3    1998WIVX0026       Tulalip Tribes                                      75,000.00
 4    1997WIVX0011       Ho-Chunk Nation                                     53,519.00
 5    1999WIVX0010       Shoshone and Arapaho Joint Business
                         Council                                             50,574.00
  6   1996WINX0035       Lac Courte Oreilles/Chippewa Tribe                  42,408.00
  7   1999WIVX0008       Quinault Indian Nation                              40,000.00
  8   1998WIVX0003       Pyramid Lake Paiute Tribe                           35,463.00
  9   1999WIVX0004       Lower Elwha Klallam Tribe                           31,492.68
 10   1998WIVX0012       Spokane Tribe of Indians                            30,000.00
 11   1997WIVX0032       Sac and Fox Nation                                  27,946.00
 12   1998WIVX0016       Tonkawa Tribe of Oklahoma                           27,725.00
 13   1996WINX0023       Ketchikan Indian Corporation                        19,825.82
 14   1996WINX0025       Fort Mojave Indian Tribe                            16,500.00
 15   1997WIVX0025       Sac and Fox Tribe of Missouri                       15,000.00
 16   1998WIVX0006       Yavapai-Prescott Indian Tribe                        8,787.98
 17   1998WIVX0017       Trenton Indian Service Area                          8,223.00
 18   1996WINX0051       Mille Lacs Band of Ojibwe                            1,686.00
 19   1995WINX0003       Salt River Pima Maricopa Indian Community            1,391.00
 20   1997WIVX0001       Sitka Tribe of Alaska                                1,237.19
 21   2001WIBX0007       Wichita and Affiliated Tribe                         1,109.08
 22   1996WINX0014       Confederated Salish and Kootenai Tribe                 907.04
 23   1998WIVX0028       Northern Plains Intertribal Court of Appeals           166.00
TOTAL QUESTIONED COSTS                                                    $681,015.79




                                       - 106 -
                                                                         APPENDIX XVII

    COPS OFFICE TOTAL FUNDS PUT TO BETTER USE FOR
  EXPIRED GRANTS 90 DAYS PAST THE GRANT END DATE48


                                                                              FUNDS PUT TO
NO.       GRANT NO.                          GRANTEE NAME                      BETTER USE
 1     1999HHWX0028         Fort Peck Tribes                                   $419,201.00
 2     2000HEWX0011         Navajo Division of Public Safety                    391,069.20
 3     2000HHWX0052         Barona Band of Mission Indians                      300,000.00
 4     2000HHWX0067         Tonto Apache Tribe                                  202,319.00
 5     2000HHWX0013         Wampanoag Tribe of Gay Head                         196,675.00
 6     2001HEWX0054         Blackfeet Tribal Business Council                   166,473.00
 7     2001HEWX0020         Tonto Apache Tribe                                  152,167.00
 8     2000HHWX0069         Chehalis Tribal Police Department                   150,420.00
 9     2002HEWX0107         Swinomish Tribal Community                          142,500.00
10     1999HHWX0033         Pueblo of Laguna                                    142,247.63
11     2001HEWX0053         Northern Cheyenne Fish, Wildlife and
                            Recreation                                           132,644.00
 12    2001HEWX0030         Bishop Paiute Tribe                                  110,454.00
 13    2001HEWX0073         Te-Moak Tribe of Western Shoshone                    106,958.00
 14    2002HEWX0004         Mount Sanford Tribal Consortium                       95,631.00
 15    2001HEWX0017         Hualapai Indian Tribe                                 95,488.00
 16    2001HEWX0016         Salt River Pima-Maricopa Indian Police
                            Department                                             93,750.00
 17    1999HEWX0107         Pueblo of Santa Clara                                  93,485.00
 18    2001HEWX0027         Yurok Tribe                                            92,277.00
 19    2000HEWX0129         Tonto Apache Tribe                                     83,952.00
 20    1999HEWX0053         Colville Tribal Police Services                        77,035.79
 21    2001HEWX0018         Fort Mojave Tribal Police                              72,477.00
 22    2002HEWX0018         Hopland Band of Pomo Indians                           65,328.31
 23    2001HEWX0060         Pueblo of Jemez                                        55,836.00
 24    2000HEWX0009         Tuluksak Native Community                              54,552.36
 25    2002HEWX0023         Nez Perce Tribe                                        53,463.00
 26    2001HEWX0067         Picuris Pueblo                                         53,415.00
 27    2000HHWX0023         Picuris Pueblo                                         52,988.00
 28    2002HEWX0010         Hualapai Indian Tribe                                  52,815.00
 29    2002HEWX0096         Kickapoo Traditional Tribe of Texas                    52,813.75
 30    2002HEWX0091         Crow Creek                                             52,015.00
 31    2002HEWX0060         Mescalero Apache Tribe                                 51,975.00
 32    1999HHWX0018         Passamaquoddy Tribe and Pleasant Point
                            Reservation                                            50,802.00

       48
         Our listing includes all grants, regardless of the materiality of the funds
remaining, because all funds must be deobligated prior to closing the grant.




                                           - 107 -
                                                                FUNDS PUT TO
NO.      GRANT NO.                    GRANTEE NAME               BETTER USE
33    2002HEWX0027   Sac and Fox Tribe of Missouri                 50,000.00
34    1999HEWX0012   Tohono O'Odham Nation Police Department       49,217.60
35    2000HEWX0021   Hoopa Valley Tribal Police Department         47,850.00
36    2002HEWX0097   Confederated Tribes of the Goshute
                     Reservation                                   47,501.00
37    2000HHWX0026   Yerington Paiute Tribe                        44,080.00
38    2002HEWX0011   Fort Mojave Tribal Police                     43,161.00
39    1999HEWX0049   Cheyenne River Law Enforcement
                     Department                                    43,046.00
40    2002HNWX0003   Crow Tribe of Indians                         42,682.00
41    1999HEWX0028   Fort Peck Tribes                              42,268.57
42    2001HEWX0090   Rosebud Sioux Tribe Natural Resource
                     Program                                       41,678.28
43    2002HEWX0002   Metlakatla Police Department                  40,169.00
44    2002HNWX0005   Turtle Mountain Band of Chippewa Indians      39,975.00
45    2002HEWX0029   Wampanoag Tribe of Gay Head                   38,663.00
46    2001HEWX0028   Barona Band of Mission Indians                38,624.00
47    2002HNWX0006   Ponca Tribe of Oklahoma                       37,794.00
48    2001HNWX0002   Fort Peck Tribes                              37,356.78
49    1999HEWX0066   Asa'carsarmiut Tribal Council                 37,156.00
50    2001HEWX0026   Coyote Valley Band of Pomo Indians            36,303.00
51    2000HMWX0001   Pyramid Lake Paiute Tribe                     36,130.00
52    2001HEWX0004   Kipnuk Traditional Council                    36,090.00
53    1999HEWX0073   Native Village of Koyuk, IRA Council          35,256.00
54    1999HEWX0052   Ute Indian Tribe                              34,790.00
55    2002HEWX0049   Fort Peck Tribes                              33,149.59
56    2001HEWX0082   Comanche Indian Tribe                         33,139.25
57    2000HHWX0046   Chefornak Traditional Council                 32,990.11
58    1999HEWX0061   Kwigillingok Department of Public Safety      32,559.00
59    1999HHWX0038   Pyramid Lake Paiute Tribe                     30,236.00
60    1999HEWXK001   Washington State University                   29,772.52
61    2002HEWX0026   Iowa Tribe of Kansas and Nebraska             29,733.69
62    1999HEWX0070   Huslia Tribal Council                         29,400.00
63    2001HEWX0013   Native Village of Barrow                      28,974.00
64    2001HEWX0031   Mashantucket Pequot Tribal Police
                     Department                                    28,688.84
65    2000HHWX0057   Elko Band Council                             28,553.08
66    2000HHWX0058   Alakanuk Tribal Council                       28,486.00
67    2002HEWX0035   Houlton Band of Maliseet Indians              27,285.00
68    2001HEWX0092   Jamestown S'Klallam Tribe                     27,196.11
69    1999HHWX0040   Yerington Paiute Tribe                        25,594.00
70    1999HHWX0053   Colville Tribal Police Services               25,388.41
71    2001HEWX0099   Lummi Indian Business Council                 25,325.95
72    2001HEWX0087   Crow Creek                                    25,078.00
73    2001HEWX0056   Fort Peck Tribes Department of Fish and
                     Wildlife                                      24,744.00




                                  - 108 -
                                                                  FUNDS PUT TO
NO.      GRANT NO.                   GRANTEE NAME                  BETTER USE
74    1999HEWX0033   Pueblo of Laguna                                24,740.15
75    2000HEWX0123   Seneca Nation Conservation Department           24,662.00
76    2002HEWX0036   Bay Mills Indian Community                      23,606.00
77    2000HHWX0037   Puyallup Tribe of Indians                       23,229.21
78    2002HEWX0068   Pyramid Lake Paiute Tribe                       22,549.00
79    2002HEWX0080   Kaw Nation of Oklahoma                          22,111.00
80    2001HEWX0022   Fort Mojave Indian Nation Ranger
                     Department                                      20,937.00
81    2001HNWX0007   Lummi Indian Business Council                   20,904.11
82    2002HEWX0070   Washoe Tribe of Nevada and California           20,898.35
83    1999HHWX0020   Hannahville Indian Community                    20,499.72
84    2001HEWX0105   Lac Courte Oreilles Conservation
                     Department                                      19,865.00
85    1999HEWX0072   Native Village of Napaskiak                     19,553.87
86    2002HNWX0004   Coeur d' Alene Tribe                            19,270.44
87    2001HEWX0029   Sycuan Department of Public Safety              19,243.00
88    2001HEWX0094   Stillaguamish Tribe of Indians                  19,139.66
89    2001HNWX0006   Comanche Indian Tribe                           19,016.00
90    1999HEWX0007   Tuluksak Native Community                       18,254.09
91    1999HEWX0058   Sauk-Suiattle Police Department                 18,220.00
92    1999HEWX0112   Washoe Tribe of Nevada and California           17,287.74
93    2000HEWX0128   Passamaquoddy Warden Service at Pleasant
                     Point                                           17,076.00
94    2000HEWX0015   Pascua Yaqui Police Department                  16,877.00
95    2000HHWX0060   Caddo Tribe of Oklahoma                         16,615.26
96    1999HEWX0026   Chippewa-Cree Tribe                             16,402.74
97    1999HHWX0017   Kickapoo Tribe of Kansas                        16,363.00
98    1999HEWX0038   Pyramid Lake Paiute Tribe                       15,483.00
99    2000HEWX0108   Chefornak Traditional Council                   15,353.92
100   1999HEWX0004   Metlakatla Police Department                    14,508.42
101   1999HEWX0059   Squaxin Island Tribe                            14,432.49
102   1999HEWX0009   Fort Mojave Tribal Police                       14,411.00
103   2002HEWX0088   Narragansett Indian Tribe Natural
                     Resources Department                            14,122.00
104   2000HEWX0023   Table Mountain Rancheria                        14,113.92
105   1999HEWX0036   Las Vegas Paiute Tribe                          13,626.78
106   2000HEWX0103   Cabazon Band of Mission Indians                 13,064.90
107   1999HEWX0022   Little Traverse Bay Bands of Odawa Indians      12,992.00
108   2000HHWX0008   Salt River Pima-Maricopa Indian Police
                     Department                                      12,744.00
109   2002HEWX0093   Lower Brule Sioux Tribe Department of
                     Wildlife                                        12,474.00
110   2002HEWX0030   Passamaquoddy Tribe and Pleasant Point
                     Reservation                                     12,460.00
111   2001HEWX0006   Metlakatla Police Department                    12,105.24
112   2000HEWX0084   Lummi Indian Business Council                   11,807.04
113   2000HEWX0055   Keweenaw Bay Tribal Police Department           11,589.05



                                  - 109 -
                                                                FUNDS PUT TO
NO.      GRANT NO.                   GRANTEE NAME                BETTER USE
114   1999HEWX0131   Puyallup Tribe of Indians                     11,582.10
115   2000HEWX0016   Salt River Pima-Maricopa Indian Police
                     Department                                    11,397.00
116   2000HEWX0098   Stillaguamish Tribe of Indians                11,211.10
117   2000HEWX0122   Caddo Tribe of Oklahoma                       11,017.73
118   2002HEWX0061   Jicarilla Apache Tribe                        10,992.45
119   2000HEWX0126   Hopi Tribe                                    10,952.32
120   2000HNWX0003   Pyramid Lake Paiute Tribe                     10,678.00
121   2002HEWX0090   Catawba Indian Nation                         10,630.79
122   2000HEWX0022   Hopland Band of Pomo Indians                  10,349.91
123   1999HEWX0138   Oneida Police Department                      10,002.95
124   2000HEWX0017   Yavapai and Apache Nation                      9,852.12
125   2001HEWX0040   Bay Mills Indian Community                     9,500.93
126   2002HEWX0024   Coeur d' Alene Tribe                           9,457.39
127   2001HEWX0034   Iowa Tribe of Kansas and Nebraska              9,444.14
128   2001HEWX0059   Pueblo of Santa Ana                            9,389.00
129   2000HEWX0005   Village of Napakiak                            9,379.00
130   2000HEWX0004   Native Village of Gambell                      9,250.00
131   2002HEWX0111   Red Cliff Band of Lake Superior Chippewa
                     Indians                                        8,931.23
132   1999HEWX0123   Seminole Nation of Oklahoma                    8,726.00
133   1999HEWX0093   Bay Mills Indian Community                     8,626.00
134   2000HEWX0054   Bay Mills Indian Community                     8,100.07
135   2000HEWX0093   Yakama Nation Police Department                8,036.62
136   2000HEWX0010   Poarch Creek Tribal Police Department          7,978.00
137   2001HEWX0069   Pyramid Lake Paiute Tribe                      7,561.00
138   2000HNWX0001   Nisqually Indian Tribe                         7,452.40
139   2001HNWX0004   Pyramid Lake Paiute Tribe                      7,359.00
140   1999HEWX0063   Native Village of Kwinhagak                    7,289.44
141   1999HHWX0032   Picuris Pueblo                                 7,289.00
142   2001HEWX0076   Miami Tribe of Oklahoma                        7,268.00
143   2002HEWX0085   Burns Paiute Tribe                             7,122.45
144   2000HEWX0120   Alakanuk Tribal Council                        6,467.00
145   2000HEWX0114   Barona Band of Mission Indians                 6,258.00
146   2002HEWX0075   Absentee and Shawnee Tribe of Indians          6,189.00
147   2002HEWX0047   Fond du Lac Band of Lake Superior
                     Chippewa                                       5,948.08
148   2000HEWX0049   Picuris Pueblo                                 5,683.00
149   2001HEWX0003   Newtok Traditional Council                     5,628.37
150   2002HEWX0082   Comanche Indian Tribe                          5,601.25
151   2001HEWX0011   Ruby Tribal Council                            5,568.99
152   2001HEWX0041   Lac Vieux Desert Band of Lake Superior
                     Chippewa                                       5,425.00
153   2002HEWX0100   Nisqually Indian Tribe                         5,275.00
154   2002HEWX0020   Sycuan Department of Public Safety             5,236.00
155   2001HNWX0005   Kaw Nation of Oklahoma                         5,097.00




                                  - 110 -
                                                               FUNDS PUT TO
NO.      GRANT NO.                  GRANTEE NAME                BETTER USE
156   2000HNWX0002   Elko Band Council                              4,862.99
157   2001HNWX0003   Isleta Police Department                       4,715.69
158   2000HEWX0069   Regis Mohawk Tribal Police Department          4,565.00
159   2001HEWX0044   Grand Traverse Band of Indians
                     Conservation Department                       4,542.97
160   2001HEWX0024   Hopland Band of Pomo Indians                  4,482.22
161   2002HEWX0071   Yomba Shoshone Tribe                          4,339.00
162   2002HEWX0073   Otoe-Missouria Tribe of Indians               3,998.00
163   2000HEWX0029   Wampanoag Tribe of Gay Head                   3,939.00
164   2000HEWX0121   Lower Brule Sioux Tribe Department of
                     Wildlife                                      3,426.00
165   1999HEWX0096   Keweenaw Bay Tribal Police Department         3,322.56
166   1999HEWX0006   Scammon Bay Traditional Council               3,177.00
167   1999HHWX0014   Coyote Valley Band of Pomo Indians            3,171.00
168   1999HEWX0051   Confederated Tribes of the Goshute
                     Reservation                                   2,897.00
169   2001HEWX0083   Caddo Tribe of Oklahoma                       2,647.97
170   2000HEWX0070   Comanche Indian Tribe                         2,540.00
171   1999HEWX0029   Devils Lake Sioux Tribe                       2,382.83
172   2002HEWX0050   Confederated Salish and Kootenai Tribes       2,240.21
173   2002HEWX0101   Stillaguamish Tribe of Indians                2,101.68
174   2000HEWX0073   Cherokee Nation Marshal Service               1,985.75
175   2002HEWX0053   Fort Belknap Indian Community                 1,982.00
176   2001HEWX0071   Washoe Tribe of Nevada and California         1,892.47
177   2000HHWX0003   Village of Napakiak                           1,880.00
178   1999HEWX0014   Coyote Valley Band of Pomo Indians            1,690.00
179   2002HEWX0094   Oglala Sioux Tribe Parks and Recreation
                     Authority                                     1,494.95
180   1999HEWX0002   Anvik Tribal Council                          1,430.00
181   2000HEWX0089   Puyallup Tribe of Indians                     1,409.34
182   2000HEWX0078   Umatilla Tribal Police Department             1,276.90
183   1999HEWX0045   Ponca Tribe of Oklahoma                       1,251.00
184   2000HEWX0096   Oneida Police Department                      1,074.42
185   2001HEWX0077   Wyandotte Tribe of Oklahoma                   1,021.00
186   2000HEWX0057   Pueblo of Santa Ana                           1,006.18
187   2000HEWX0086   Swinomish Tribal Community                      987.98
188   2000HNWX0005   Miami Tribe of Oklahoma                         903.00
189   2001HEWX0061   Mescalero Apache Tribe                          870.08
190   2000HHWX0062   Lac Courte Oreilles Conservation
                     Department                                      727.00
191   2000HEWX0002   Eagle Village Council, IRA                      685.00
192   2000HEWX0047   Ramah Navajo Chapter                            519.65
193   2000HNWX0006   Bay Mills Indian Community                      441.00
194   2002HEWX0113   Menominee Indian Tribe of Wisconsin             399.14
195   2002HEWX0038   Sault Ste. Marie Tribe of Chippewa              392.12




                                  - 111 -
                                                                   FUNDS PUT TO
NO.      GRANT NO.                       GRANTEE NAME               BETTER USE
196   2000HEWX0124        Lac Courte Oreilles Conservation
                          Department                                     369.00
197   2002HEWX0032        Passamaquoddy Police Department                320.00
198   2001HEWX0045        Grand Traverse Band of Ottawa and
                          Chippewa Indians                               238.95
199   2002HEWX0005        Sleetmute Traditional Council                  225.00
200   2000HEWX0117        Wells Band Council                             143.00
201   2001HEWX0042        Sault Ste. Marie Tribe of Chippewa              80.16
202   2001HEWX0081        Sac and Fox Nation                              51.00
203   2002HEWX0077        Wyandotte Tribe of Oklahoma                     50.00
204   2000HHWX0017        Sault Ste. Marie Tribe of Chippewa              43.22
205   2002HEWX0003        Kasigluk Traditional Council                    20.00
206   2000HEWX0007        Newtok Traditional Council                       8.00
207   1999HEWX0119        Sac and Fox Nation                               4.00
208   2000HHWX0055        Wells Band Council                               4.00
209   2001HEWX0089        Lower Brule Sioux Tribe Department of
                          Wildlife                                         2.00
210 2001HEWX0005          Village of Manokotak                             1.00
211 2000HHWX0002          Native Village of Gambell                        1.00
212 2000HEWX0046          Lovelock Paiute Tribe                            1.00
213 2000HEWX0104          Kickapoo Tribe of Kansas                         0.81
214 2002HEWX0102          Suquamish Tribe                                  0.80
215 2000HNWX0004          Eagle Village Council, IRA                       0.30
216 2000HEWX0119          Elko Band Council                                0.08
217 2000HEWX0095          Menominee Indian Tribe of Wisconsin              0.02
TOTAL FUNDS PUT TO BETTER USE                                     $6,487,356.19




                                       - 112 -
                                                                        APPENDIX XVIII

       OJP TOTAL FUNDS PUT TO BETTER USE FOR EXPIRED
         GRANTS 90 DAYS PAST THE GRANT END DATE49


                                                                               FUNDS PUT TO
 NO.     GRANT NO.                           GRANTEE NAME                       BETTER USE
  1      1999IPVX0008        Three Affiliated Tribes of Fort Berthold
                             Reservation                                         $429,374.48
   2     2003ACBX1012        Kenaitze Indian Tribe, IRA                           174,746.00
   3     2001TYFX0030        Rosebud Sioux Tribe                                  172,881.18
   4     2000TYFX0036        Fort Mojave Indian Tribe                             141,870.00
   5     2001VIGX0007        Eastern Band of Cherokee Indians                     129,000.00
   6     2000VRGX0008        Shoshone Bannack Tribal Court                        101,716.01
   7     1999VRGX0021        Navajo Nation                                         84,922.00
   8     2000ICVX0077        Bad River Band of Lake Superior Tribe of
                             Chippewa Indians                                          77,569.00
  9      1997VIGX0001        Pueblo of Laguna                                          76,856.00
  10     2000ICVX0007        Clarks Point Village Council                              76,361.50
  11     2002ICBX0035        White Mountain Apache Tribe                               69,013.26
  12     2000VRGX0010        Confederated Tribes of Warm Springs                       62,612.67
  13     2000ICVX0006        Nunakauyak Traditional Council                            60,118.74
  14     2002ICBX0006        Prairie Island Indian Community                           60,000.00
  15     2002VRGX0010        Northern Cheyenne Tribe, Inc.                             60,000.00
  16     2002VRGX0006        Pueblo of Zuni                                            55,883.00
  17     2002ICBX0041        Crow Tribe of Indians                                     55,171.87
  18     1999VRGX0019        Three Affiliated Tribes of Fort Berthold
                             Reservation                                               50,839.00
  19     2000ICVX0025        Quileute Tribal Council                                   50,000.00
  20     2001VIGX0012        Shoshone and Arapaho Joint Business
                             Council                                                   49,853.00
  21     2000ICVX0036        Colorado River Indian Tribes                              49,455.00
  22     2002ICBX0008        Fallon Paiute-Shoshone Tribe                              46,889.86
  23     2000VRGX0001        Lac Vieux Desert Band of Lake Superior
                             Chippewa Indians                                          44,362.00
  24     2000ICVX0003        Tonto Apache Tribe                                        42,350.00
  25     2002VRGX0011        Oglala Sioux Tribe                                        41,322.16
  26     2002VIGX0001        Suquamish Tribe                                           41,241.50
  27     2000TYFX0014        Winnebego Tribe of Nebraska                               40,131.19
  28     2001TYFX0025        Prairie Band Potawatomi Nation                            37,976.00
  29     2000VRGX0011        Sisseton Wahpeton Sioux Tribe – Women’s
                             Circle                                                    37,781.00


        49
         Our listing includes all grants, regardless of the materiality of the funds
remaining, because all funds must be deobligated prior to closing the grant.




                                           - 113 -
                                                                  FUNDS PUT TO
NO.   GRANT NO.                      GRANTEE NAME                  BETTER USE
30    2002ICBX0005   Pueblo of Isleta                                35,000.00
31    2000ICVX0002   Winnebago Tribe of Nebraska                     30,050.95
32    2000ICVX0009   Native Village of Tatitlek                      30,000.00
33    2000ICVX0012   Native Village of Chenega                       30,000.00
34    2000ICVX0074   Pueblo of Jemez                                 28,299.54
35    1998IPVX0001   Fort Peck Assiniboine and Sioux Tribes          26,234.00
36    2002VRGX0001   Pueblo of Taos                                  24,443.00
37    2000ICVX0016   Confederated Tribes of the Chehalis
                     Reservation                                     23,682.00
38    1999VRGX0005   Prairie Island Indian Community                 21,170.00
39    2000ICVX0076   Pueblo of Acoma                                 20,922.49
40    2002ICBX0013   Kickapoo Traditional Tribe of Texas             20,000.00
41    2000ICVX0018   Te-Moak Tribe of Western Shoshone               19,613.00
42    2001TYFX0029   Hydaburg Cooperative Association                18,572.93
43    2000ICVX0062   Native Village of South Naknek                  18,033.31
44    2000TYFX0017   Hopi Tribe                                      17,917.78
45    2000ICVX0059   Northway Village Council                        15,914.98
46    2000TYFX0028   Ak-Chin Indian Community                        15,855.50
47    1996VIGX0006   Winnebago Tribe of Nebraska                     15,477.21
48    2000ICVX0024   Native Village of Point Hope                    15,318.51
49    2000ICVX0014   Native Village of Eyak                          14,298.00
50    2000TYFX0002   Big Valley Rancheria                            13,474.00
51    2000TYFX0034   College of Menominee Nation                     12,636.28
52    2000TYFX0026   Hualapai Indian Tribe                           12,288.00
53    2000ICVX0021   Skokomish Indian Tribe                          12,000.00
54    2000TYFX0025   Hannahville Indian Community                    11,835.18
55    2000VRGX0004   Menominee Indian Tribe of Wisconsin              8,336.69
56    1999VRGX0003   Osage Tribe of Oklahoma                          8,171.00
57    2001TYFX0012   Jamestown S’Klallam Tribe                        7,929.67
58    2000ICVX0072   Pueblo of Nambe                                  7,800.00
59    2000ICVX0023   Chefornak Traditional Council                    7,173.00
60    1999VRGX0009   Grand Traverse Band of Ottawa and
                     Chippewa Indians                                 6,893.78
61    1999VRGX0006   Sault Ste. Marie Tribe of Chippewa Indians       5,820.10
62    2000ICVX0055   Native Village of Napaskiak                      5,436.00
63    2002ICBX0010   National Institute for Trial Advocacy            5,284.00
64    2000ICVX0068   Turtle Mountain Band of Chippewa Indians         4,317.13
65    2000VRGX0007   Bay Mills Indian Community                       4,073.69
66    1999VRGX0018   Nez Perce Tribe                                  3,951.17
67    2000ICVX0032   Aleknagik Traditional Council                    2,985.00
68    2001TYFX0004   Nez Perce Tribe                                  2,450.35
69    2002ICBX0029   Confederated Tribes of Siletz Indians            1,595.53
70    2000TYFX0006   Grand Traverse Band of Ottawa and
                     Chippewa Indians                                   955.14
71    2000TYFX0030   Eastern Band of Cherokee Indians                   260.00
72    2001VRGX0001   Lummi Indian Nation                                  2.40




                                  - 114 -
                                                                  FUNDS PUT TO
NO. GRANT NO.                             GRANTEE NAME              BETTER USE
 73    2002ICBX0038       Inupiat Community of the Artic Slope              0.80
 74    2000ICVX0020       Sitka Tribe of Alaska                             0.61
 75    2000TYFX0005       Stockbridge-Munsee Community                      0.54
TOTAL FUNDS PUT TO BETTER USE                                    $3,006,769.68




                                       - 115 -
                                                                           APPENDIX XIX

    OVW TOTAL FUNDS PUT TO BETTER USE FOR EXPIRED
      GRANTS 90 DAYS PAST THE GRANT END DATE1

                                                                               FUNDS PUT TO
 NO.          GRANT NO.                      GRANTEE NAME                       BETTER USE
  1        1995WINX0001      Jicarilla Apache Nation                            $244,815.06
  2        1995WINX0014      Tanana Chiefs Conference, Inc.                      146,933.02
  3        1995WINX0008      Saginaw Chippewa Indian Tribe of Michigan            71,431.00
  4        1996WINX0003      Pueblo of Santa Ana                                  69,022.00
  5        1996WINX0044      Menominee Indian Tribe of Wisconsin                  62,614.04
  6        1995WINX0010      Hannahville Indian Community                         58,842.10
  7        1998WIVX0008      Winnebago Tribe of Nebraska                          54,092.30
  8        1997WIVX0028      Eastern Band of Cherokee Indians                     53,398.00
  9        2002WIBX0005      Hualapai Indian Tribe                                50,000.00
 10        2002WIBX0006      Alatna Tribal Council                                49,545.00
 11        1996WINX0051      Mille Lacs Band of Ojibwe                            48,332.00
 12        1999WIVX0009      Upper Skagit Indian Tribe                            46,207.00
 13        1999WIVX0001      Central Council of Tlingit and Haida Indian
                             Tribes                                                45,472.51
  14       1997WIVX0001      Sitka Tribe of Alaska                                 44,892.99
  15       1996WINX0045      Santee Sioux Tribe of Nebraska                        37,761.00
  16       1998WIVX0003      Pyramid Lake Paiute Tribe                             33,462.00
  17       1997WIVX0016      Fort Belknap Indian Community                         26,720.00
  18       1998WIVX0012      Spokane Tribe of Indians                              23,715.00
  19       2002WIBX0004      Confederated Tribes of Coos, Lower
                             Umpqua and Siuslaw Indians                            22,599.00
  20       1996WINX0025      Fort Mojave Indian Tribe                              21,000.00
  21       2001WIBX0004      Lac Vieux Desert Band of Lake Superios
                             Chippewa Indians                                       9,274.00
  22       1996WINX0043      Leech Lake Band of Ojibwe                              7,792.63
  23       1997WIVX0033      Lower Brule Sioux Tribe                                7,530.00
  24       1997WIVX0034      Forest County Potawatomi Community                     4,149.59
  25       1996WINX0049      Confederated Tribes of the Umatilla Indian
                             Reservation                                            3,508.13
  26       1997WIVX0022      Bad River Band of Lake Superior Tribe of
                             Chippewa Indians                                      3,448.00
  27    1999WIVX0008         Quinault Indian Nation                                2,057.16
  28    1997WIVX0006         Coeur D’Alene Tribe                                   2,008.58
  29    1996WINX0017         Ponca Tribe of Indians of Oklahoma                      300.00
  30    1995WINX0007         Oglala Sioux Tribe                                        0.10
 TOTAL FUNDS PUT TO BETTER USE                                               $1,250,922.21




       1
        Our listing includes all grants, regardless of the materiality of the funds remaining,
because all funds must be deobligated prior to closing the grant.


                                           - 116 -
          APPENDIX XX




- 117 -
- 118 -
- 119 -
- 120 -
- 121 -
- 122 -
- 123 -
- 124 -
- 125 -
- 126 -
- 127 -
- 128 -
                                                           APPENDIX XXI

             OFFICE OF THE INSPECTOR GENERAL
              COMMENTS ON THE COPS OFFICE
              RESPONSE TO THE DRAFT REPORT


      The OIG has identified several issues in the COPS Office response to
our draft report (see Appendix XX) that we believe should be addressed. As
a result, we are providing the following comments on the COPS Office
response to the draft report.

      In Appendix XX, pages 120 through 121, the COPS Office provided the
following statements in response to recommendations:

2.   Ensure that required financial and progress reports are
     submitted in a timely manner.

3.   Ensure that grant managers follow up with grantees if required
     financial and progress reports are not submitted or are not
     submitted in a timely manner.

4.   Ensure that grantees do not draw down grant funds if required
     progress reports are not filed.

     To improve the rate of compliance with submission of
     programmatic progress reports for hiring grants, the COPS Office
     has put in place over the past few years a process for contacting
     grantees that are delinquent in submitting their reports. Grant
     managers follow up with grantees to ensure that required
     progress reports are submitted by sending a series of two
     delinquency letters to the agency. Agencies would be barred
     from receiving additional COPS funding if they did not resolve
     the delinquent progress report issue.

     COPS will also continue our procedure of contacting delinquent
     agencies at regular intervals until the information [progress
     report] has been received. This procedure has been very
     effective for COPS, producing a near 100% submission
     compliance rate for progress reports in previous years.




                                  - 129 -
     The COPS Office ensures that grantees do not draw down grant
     funds if required progress reports are not filed pursuant to a
     detailed enforcement protocol for the failure to provide timely
     progress reports, dated November 22, 2000.

     The enforcement protocol has been systemically applied to
     progress reports for all hiring grants – which includes tribal
     hiring grants – since 2000. The protocol has proven
     overwhelmingly successful in obtaining progress reports for
     hiring grants and enforcing the grant requirement if a progress
     report is not filed.

       The OIG disagrees with the assertion that the COPS Office has been
effective in obtaining progress reports for hiring grants and enforcing the
grant requirement if a progress report is not filed. Based on our audit, we
determined that 62 percent of the COPS Office grant files we reviewed were
missing one or more progress reports, as shown in Table 6, page 23.
Therefore, the COPS Office’s statements that their enforcement protocol for
progress reports has proved to be “overwhelmingly successful” and that
almost 100 percent of progress reports are submitted does not appear to be
accurate. Additionally, we determined that progress reports had not been
required for any grants awarded after FY 2001; as a result, progress reports
were not required for an additional 24 percent of the COPS Office grant files
we reviewed, as stated on page 23 of our report.

      It should also be noted that the COPS Office allowed grantees to draw
down $484,975 during a period for which a current progress report had not
been submitted, as stated on page 24 of our report. Therefore, it does not
appear that the COPS Office is ensuring that grantees do not draw down
funds when required progress reports are not filed.

      In Appendix XX, page 121, the COPS Office provided the following
statement in response to recommendations:

2.   Ensure that required financial and progress reports are
     submitted in a timely manner.

3.   Ensure that grant managers follow up with grantees if required
     financial and progress reports are not submitted or are not
     submitted in a timely manner.

4.   Ensure that grantees do not draw down grant funds if required
     progress reports are not filed.



                                   - 130 -
      Given the COPS Office’s success with the delinquent progress
      report protocol being applied to hiring grants, as a result of this
      audit, COPS will ensure that the procedures in the protocol are
      also applied to all other tribal grants, such as technology,
      equipment and training grants.

      In response to this statement, it should be noted that our audit
revealed that 55 percent of the COPS Office grant files for hiring grants were
missing one or more progress reports. We also found that one or more
progress reports were not submitted in a timely manner for 76 percent of
the COPS Office grant files reviewed, as shown in Table 6, page 23 of our
report. Therefore, the COPS Office delinquent progress report protocol for
hiring grants does not appear to be effective. As a result, applying this
procedure to other tribal-specific grants would not ensure that progress
reports are submitted timely and does not adequately address progress
reports for hiring grants.

      In Appendix XX, page 122, the COPS Office provided the following
statement in response to recommendation:

5.    Ensure that periodic progress reports are required to be
      submitted at least annually for the 3-year hiring grants and
      semi-annually for the 1-year equipment grants. These reports
      should be due within a reasonable period of time after the end
      of the reporting period.

      The COPS Office disagrees with the recommendation to require
      semi-annual progress reports for Equipment and Training grants.
      The COPS Office continues to improve our reporting process for
      the one-year TRGP ET grants while, at the same time, trying to
      lessen the grantee’s reporting burden. However, we believe
      requiring the TRGP ET grantees to submit a progress report
      twice per year would dramatically increase the reporting burden
      on the grantee. For example, a grantee with three TRGP ET
      grants would be required to submit six progress reports per
      year. We recognize that implementation delays are not unusual
      for equipment and training grants; therefore the increase in the
      number of progress reports would not supply COPS with enough
      substantive information on the grants to warrant the increased
      reporting.




                                    - 131 -
      To ensure that reports are due within a reasonable period of
      time after the reporting period, the COPS Office will mail ET
      programmatic progress reports in conjunction with extension
      requests prior to the end of the grant period.

      The OIG disagrees with the assertion that requiring the grantees to
submit a semi-annual progress report for the 1-year equipment and training
grants would dramatically increase the reporting burden on the grantee. It
should be noted that OJP and OVW already require semi-annual progress
reports for their grants. Further, there is nothing that prohibits the
COPS Office from requiring one consolidated semi-annual progress report for
all equipment and training grants awarded to a single grantee. The
OIG recognizes that any policy should balance accountability with flexibility;
however, progress reports are an essential management tool that the
COPS Office should use to ensure that grant programs are implemented and
objectives are achieved.

      The OIG disagrees with the assertion that requiring progress reports
be submitted semi-annually on 1-year equipment and training grants would
not supply the COPS Office with enough substantive information on the
grants to warrant the increased reporting. If progress reports are not
required semi-annually for the 1-year equipment and training grants, the
1-year grants could expire before the COPS Office received any information
on grant activities and accomplishments necessary to determine whether
grant programs were being implemented and objectives were being
achieved.

      Finally, the OIG disagrees with the assertion that mailing progress
reports in conjunction with grant extension is a proactive approach in
helping the COPS Office monitor grant activities and accomplishments
necessary to determine whether grant programs were being implemented
and objectives were being achieved. By waiting until the original 1-year
grant period has ended, the COPS Office cannot identify or resolve the
barriers that impede the effective and timely implementation of its grant
programs.

      In Appendix XX, page 122, the COPS Office provided the following
statement in response to recommendations:

2.    Ensure that required financial and progress reports are
      submitted in a timely manner.




                                   - 132 -
3.       Ensure that grant managers follow up with grantees if required
         financial and progress reports are not submitted or are not
         submitted in a timely manner.

4.       Ensure that grantees do not draw down grant funds if required
         progress reports are not filed.

         The COPS Office believes that we ensure financial reports are
         submitted by grantees in a timely manner. During FY 2003, the
         COPS Office closed a reportable condition on its financial
         statement audit for delinquent Financial Status Reports
         (SF-269A) and has maintained an average SF-269A compliance
         rate of 92 percent. Our Finance Office will continue to follow-up
         with grantees that are delinquent in submitting their SF-269As
         by initiating phone calls and/or writing letters to ensure financial
         reporting compliance. In addition, we will review and update our
         delinquent SF-269A policy as necessary.

      The OIG disagrees with the COPS Office assertion that it is ensuring
financial reports are submitted by grantees in a timely manner. Based on
our audit, we found that the COPS Office grants files reviewed were missing
one or more financial reports and almost all grants had one or more reports
that were not submitted in a timely manner. Specifically, as shown in Table
4, page 20 of our report, we found that:

     •   Eighty-three percent of the COPS Office grant files reviewed were
         missing one or more financial reports.

     •   Financial reports were not submitted in a timely manner for 97 percent
         of the COPS Office grants reviewed.

     •   Only 21 percent of the COPS Office grant files contained
         documentation requesting missing and late financial reports.

       On page 20 of our report, we noted that COPS Office officials stated
that if financial reports are not received, COPS Office officials make
telephone contact with grantees to request the delinquent reports. We also
noted that the COPS Office started sending “dunning letters” to follow up
with grantees that are delinquent in June 2003. However, we found that the
telephone contacts and “dunning letters” generally were not documented in
the case files reviewed. Therefore, based on the findings detailed above, the
COPS Office response does not adequately address how it will ensure that
required financial reports are submitted in a timely manner.



                                       - 133 -
      In Appendix XX, page 122, the COPS Office provided the following
statement in response to recommendations:

14.    Ensure that grant drawdowns are monitored to determine if
       grant funds are being utilized in a timely manner.

15.    Follow up with grantees that have not drawn down any grant
       funds to determine whether the grantees have encountered
       difficulties in implementing the grant program, and provide
       assistance as necessary.

       Grantees are required to submit SF-269As on a quarterly basis.
       The COPS Office monitors drawdowns through the continuous
       review and analysis of these reports and, based on their
       responses, grantees are contacted if they require any technical
       assistance.

       The OIG disagrees with the COPS Office assertion that it is monitoring
drawdowns through the continuous review and analysis of financial reports.
Based on our audit, we found that the COPS Office was not monitoring the
utilization of grant funds. Specifically, we found that:

   •   No funds had been drawn down for more than 2 years after the
       obligation date for 52 COPS Office grants totaling $17.22 million,
       indicating the grant programs had not been implemented at all, as
       shown in Table 8, page 30 of our report.

   •   The initial drawdown did not occur for over 1 year after the funds were
       obligated for 200 COPS Office grants totaling $31.90 million, indicating
       that the grant programs were not implemented in a timely manner, as
       shown in Table 9, page 32 of our report.

   •   The last drawdown occurred more than 1 year prior to our review for
       126 COPS Office grants with remaining funds totaling $2.80 million.
       These amounts include 112 COPS Office grants that had expired,
       indicating the grant programs were not fully implemented, as shown in
       Table 10, page 33 of our report.

      Based on the findings detailed above, the COPS Office is not
monitoring the utilization of grant funds and is not following up with
grantees that have not drawn down any grant funds. Therefore, the COPS
Office response does not adequately address how it will ensure that grant
drawdowns are monitored to determine if grant funds are being utilized in a



                                    - 134 -
timely manner. Further, the response does not address how the COPS Office
will follow up with grantees that have not drawn down any grant funds.

      In Appendix XX, page 122, the COPS Office also provided the following
statement in response to recommendations:

14.   Ensure that grant drawdowns are monitored to determine if
      grant funds are being utilized in a timely manner.

15.   Follow up with grantees that have not drawn down any grant
      funds to determine whether the grantees have encountered
      difficulties in implementing the grant program, and provide
      assistance as necessary.

      The COPS Office created a policy to waive the submission of
      SF-269As in September 2003 based on specific criteria. This
      policy seeks to identify grantees that have had awards for at
      least six months and have not yet submitted their SF-269As. A
      questionnaire is faxed to these grantees requesting the status of
      their grant implementation and whether the grantees wish to
      withdraw from the program. If grantees have not implemented
      their programs, they are not required to report. However, if
      grantees state that the program has been implemented;
      SF-269As are requested by the COPS Office. If no reply to the
      fax is received, a follow-up phone call is placed to request the
      documentation from the grantee.

       The OIG disagrees with the COPS Office assertion that its policy is
sufficient to follow up with grantees that have not drawn down any grant
funds. Under the proposed COPS Office policy, follow up with grantees
would occur only for those grantees that did not submit a financial report.
Our review of 41 COPS Office grants revealed that the financial reports for
6 grantees (15 percent) indicated the grantee did not expend any grant
funds. Additionally, the financial reports for 7 grantees (17 percent)
indicated the grantee expended less than 4 percent of the total grant
award.1 In both instances, since a financial report was submitted the follow
up policy would not apply. Although the OIG agrees that follow up with

      1
          Expenditures reported by the 7 grantees ranged from 0.7 percent to 3.94 percent
of the total award. Although, these grantees did report expenditures on their most recent
financial report, the OIG believes that follow up with these grantees is essential to
determine whether the grantees have encountered difficulties in implementing the grant
program, and to provide assistance as necessary.




                                         - 135 -
grantees who do not submit a financial report is important, the COPS Office
policy fails to address how they will follow up with grantees that have
submitted financial reports with zero or minimal expenditures.

      In Appendix XX, page 123, the COPS Office provided the following
statement in response to recommendation:

16.   Ensure that grant funds are deobligated and the grants are
      closed if grantees are unable or unwilling to implement grant
      programs in a timely manner.

      The COPS Office ensures that grant funds are deobligated and
      follows the proper procedures to close grants due to lack of
      implementation, as appropriate.

      The OIG disagrees with the COPS Office assertion that it is ensuring
that grant funds are deobligated and the grants are closed if grantees are
unable or unwilling to implement grant programs in a timely manner. Based
on our audit, we found that the COPS Office was not ensuring that grant
funds are deobligated and the grants are closed if grantees are unable or
unwilling to implement grant programs in a timely manner. Specifically, we
found that:

  •   As stated on pages 30 through 31 of our report, 52 COPS Office grants
      totaling $17.22 million, for which no funds had been drawn down as of
      the date of our review. Generally, these grants were awarded
      between FYs 1999 through 2002, more than 2 years prior to our
      review. Further analysis of the 52 grants revealed that 29 COPS Office
      grants totaling $2.28 million had expired, indicating that the grant
      programs had not been implemented.

  •   As stated on page 32 of our report, 200 COPS Office grants totaling
      $31.90 million, for which the initial drawdown did not occur for over
      1 year after the grant funds were obligated. Generally, these grants
      were awarded between FYs 1999 through 2002, indicating the grantee
      encountered problems implementing the grant program.

  •   As stated on page 33 of our report, 126 COPS Office grants with
      remaining grant funds totaling $2.80 million, for which the last
      drawdown occurred more than 1 year prior to our review. Additionally,
      based on further analysis of these grants, we determined that
      112 COPS Office grants had expired, indicating that the grant program
      was not fully implemented.



                                  - 136 -
      Based on the findings detailed above, the COPS Office response does
not adequately address how they will ensure that grant funds are
deobligated and the grants are closed if grantees are unable or unwilling to
implement grant programs in a timely manner.

      In Appendix XX, page 124, the COPS Office provided the following
statement in response to recommendation:

17.   Ensure that grantees are not allowed to draw down grant funds
      in excess of reported cumulative grant expenditures.

      The COPS Finance Office performs an excess of reported
      cumulated grant expenditures project annually to identify
      grantees that have drawn down unreported funds. We found
      that grantees do not have excess cash but rather a reporting
      issue due to a timing difference. The SF-269A is due 45 days
      after the end of the quarter. For example, a grantee that
      reports on September 30 is not required to report expenditures
      for October, November, and December until February 15. When
      comparing the disbursements for the 3rd quarter of FY 2004 to
      the reported expenditures for the 4th quarter of FY 2004 for all
      active grants, 76% of grantees were in compliance with respect
      to this issue. The COPS Finance Office will continue to perform
      an excess of reported cumulative grant expenditures project on
      a yearly basis.

      The OIG disagrees with the COPS Office assertion that it is ensuring
that grantees are not allowed to draw down grant funds in excess of
reported cumulative grant expenditures. As stated on page 34 of our report,
financial guidelines require that grantee drawdowns should be based on
immediate disbursement requirements. Grantees are required to time the
drawdown requests to ensure that federal cash on hand is the minimum
needed for grant disbursements to be made immediately or within a few
days. During our audit, we found that grantees were allowed to draw down
funds totaling $1.28 million in excess of reported cumulative grant
expenditures. Our audit took into account any timing differences noted by
the COPS Office by eliminating all grants which had not expired. Based on
our audit, we identified and took exception to 18 expired COPS Office grants
for which drawdowns exceeded reported cumulative grant expenditures by
$713,567.

     Based on the findings detailed above, in our judgment the COPS Office
response does not adequately address how it will ensure that grantees are



                                   - 137 -
not allowed to draw down grant funds in excess of reported cumulative grant
expenditures.

      In Appendix XX, page 124, the COPS Office provided the following
statement in response to recommendation:

18.   Remedy the $713,567 in questioned costs related to excess
      drawdowns on expired grants.

      The COPS Office has found that $542,552 of the $713,567 in
      questioned costs related to expenditures and payments that
      occurred during the grant funding period. Several agencies, that
      still have open compliance issues, account for the balance of
      $171,015 of the questioned costs. The COPS Office will continue
      to review and determine the best remedies to the respective
      compliance issues and associated questioned costs.

      The OIG does not disagree with the COPS Office’s statement that
excess drawdowns occurred during the grant funding period. However, we
questioned these amounts because the grants had expired and drawdowns
exceeded reported expenditures.

      In Appendix XX, page 125, the COPS Office provided the following
statement in response to recommendation:

36.   Deobligate and put to better use the $200,380 in remaining
      funds related to grants that have been closed.

      The balance of $200,380 was originally tied to eight grants, all of
      which have been corrected. Four grants were deobligated and
      four grants extended.

      The OIG disagrees with the action taken to extend the four grants
previously identified by the COPS Office as closed. According to
28 CFR 66.50, a federal agency may close out an award when it determines
that all applicable administrative actions and all required work under the
grant have been satisfactorily completed. According to the COPS Office’s
own Grant Closeout Notification Toolkit, a grantee may have excess funds
remaining in its grant account that are not necessary to complete the
project, which should be deobligated at closeout.

      In Appendix XX, page 125, the COPS Office provided the following
statements in response to recommendation:



                                   - 138 -
37.   Review grant drawdowns prior to the end of the grant period to
      determine if all grant funds have been drawn down, and follow
      up on any grants with remaining funds to determine if the
      grantee has expended or plans to expend remaining funds prior
      to the grant end date.

      Prior to end of the grant period, the COPS Office contacts all
      active grantees, asking if they to plan expend remaining funds
      and if they need more time to do so. If the grantee does not
      respond that it needs more time expend remaining funds then
      the grant is allowed to expire. If the grantee requests additional
      time to continue expending the funds, the COPS Office evaluates
      their responses, . . . Based on the evaluation of these factors,
      the grantee is notified whether its extension request is granted
      and, if so, a new grant expiration date is established. If the
      extension request is denied, the grant is allowed to expire and
      proceeds to the grant closeout process.

      We believe that this procedure should satisfy the OIG’s
      recommendation that COPS follow up on any grants before they
      expire to determine if the grantee plan to expend remaining
      funds prior to the grant end date.

        The OIG disagrees with the COPS Office assertion that its procedure
satisfies our recommendation that the COPS Office follow up on any grants
before they expire to determine if the grantee plans to expend remaining
funds prior to the grant end date. As stated on page 43 of our report, we
identified $6,487,356 in remaining funds related to expired grants;
therefore, the COPS Office procedures do not appear to be effective.

      In Appendix XX, page 126, the COPS Office provided the following
statement in response to recommendations:

38.   Ensure that grantees are not allowed to draw down funds more
      than 90 days after the grant end date and that all funds
      remaining on grants that have been expired for more than 90
      days are deobligated.

39.   Remedy the $3,077,157 in questioned costs related to
      drawdowns occurring more than 90 days past the grant end
      date.




                                   - 139 -
40.   Deobligate and put to better use the $6,487,356 in remaining
      funds related to expired grants that are more than 90 days past
      the grant end date.

      The COPS Office ensures that funds remaining on expired grants
      are deobligated, but to do so within 90 days is not an absolute
      rule, as the OIG suggests. Rather, the Uniform Administrative
      Requirements allow for the agency to reconcile accounts after
      90 days. Specifically, 28 CFR 66.23 (b) states that ‘a grantee
      must liquidate all obligations incurred under the award not later
      than 90 days after the end of the funding period. . .’ but there is
      an exception where ‘the federal agency may extend the deadline
      at the request of the grantee.’ Second, 28 CFR 66.50 (b) states
      that ‘within 90 days after the expiration of termination of the
      grant, the grantee must submit all financial, performance, and
      other reports required as a condition of the grant. . .’, but also
      provides the exception that ‘upon request by the grantee, federal
      agencies may extend this timeframe.’ It is then 90 days after
      the receipt of such reports that the ‘federal agency will make
      upward or downward adjustments to the allowable costs.’ (See
      28 CFR 66.50(c)) As a result, based on the Department of
      Justice regulations, the COPS Office may extend the 90-day time
      period in order to make adjustment to and reconcile grant
      accounts. Accordingly, the COPS Office will ensure that funds
      remaining on expired grants are deobligated but must, and will,
      do so consistently with, and not contradictory to, Department
      regulations that allow for extensions of the time limit to draw
      down funds.

       The OIG disagrees with the COPS Office assertion that it ensures that
funds remaining on expired grants are deobligated. Based on our audit, we
identified $6,487,356 in remaining funds related to 217 expired grants.
Although the COPS Office may extend the 90-day liquidation period, the
extension must be at the request of the grantee. We found that extensions
had not been granted in any of the grants reviewed. We also found no
evidence that grantees had requested an extension of the 90-day liquidation
period. It should also be noted that 8 of these grants had been expired for
more than 3 years. Our recommendation does not include a timeframe for
how quickly the COPS Office should deobligate funds remaining on grants
expired more than 90 days only that these funds should be deobligated. In
our judgment, the COPS Office response does not adequately address how it
will ensure that remaining grant funds are deobligated in a timely manner.




                                   - 140 -
      Additionally, the COPS Office response does not adequately address
the $3,077,157 in questioned costs related to drawdowns occurring more
than 90 days past the grant end date. We found no evidence that the
grantees requested extensions of the 90-day liquidation period for these
grants and no extensions were provided.

      The COPS Office response also does not adequately address the
$6,487,356 in funds to better use related to remaining funds for grants that
are more than 90 days past the grant end date. Again, we found no
evidence that the grantees requested extensions of the 90-day liquidation
period for these grants and no extensions were provided.




                                   - 141 -
          APPENDIX XXII




- 142 -
- 143 -
- 144 -
- 145 -
- 146 -
- 147 -
                                                           APPENDIX XXIII

              OFFICE OF THE INSPECTOR GENERAL
               COMMENTS ON THE OJP RESPONSE
                    TO THE DRAFT REPORT


       The OIG has identified several issues in the OJP response to our draft
report, (see Appendix XXI), that we believe should be addressed. As a
result, we are providing the following comments on the OJP response to the
draft report.

     In Appendix XXI, page 143, OJP provided the following statement in
response to recommendation:

9.    Ensure that grantees do not draw down grant funds if required
      financial or progress reports are not filed.

      Grant recipients are restricted from drawing down on grants
      through the Phone Activated Paperless Request System (PAPRS)
      if a current Financial Status Report (SF-269) has not been
      submitted. Based on our review of the drawdowns where it
      appeared that grantees were able to drawdown without a current
      SF-269 on file, we determined that the OIG did not use the
      correct submission date in some cases. In other cases, the
      drawdown occurred prior to the due date of the SF-269, but the
      drawdown was posted in the Integrated Financial Management
      Information System (IFMIS) after the due date of the SF-269.

       The OIG disagrees with the OJP assertion that grant recipients are
restricted from drawing down on grants through PAPRS system when a
current financial report has not been submitted. As shown in Appendix I of
OJP’s response on page 147, the OJP acknowledges that a financial report
date submitted for the quarter ended September 30, 2003, was entered into
its system when the grantee had not submitted the required report. In this
instance an OJP official overrode the controls in the PAPRS system that
should have prevented the grantee from drawing down funds during a period
when the current financial report had not been submitted. As a result,
OJP allowed this grantee to draw down $1,094,641 during the period for
which a current financial report had not been submitted.

      Additionally, our analysis was based on financial reports provided by
OJP officials. In some instances, it appears that OJP did not provide all



                                   - 148 -
requested financial reports; as a result, the OIG was not provided the
complete information necessary to conduct our analysis.

     In Appendix XXI, page 145, OJP provided the following statement in
response to recommendations:

 43. Ensure that grantees are not allowed to draw down funds more
     than 90 days after the grant end date and that all funds
     remaining on grants that have been expired for more than
     90 days are deobligated.

 44. Remedy the $2,305,298 in questioned costs related to
     drawdowns occurring more than 90 days past the grant end
     date.

 45. Deobligate and put to better use the $3,006,770 in remaining
     funds related to expired grants that are more than 90 days past
     the grant end date.

     Grant recipients are permitted to drawdown grant funds until the
     grant is closed out. At grant closeout, the Office of the
     Comptroller reconciles the expenditures reported on the final
     SF-269 to grant drawdowns. Before a grant can be closed out,
     drawdowns must be equal to or greater than the Federal share
     of expenditures reported on the final SF-269.

      The OIG disagrees with the OJP assertion that grant recipients are
permitted to drawdown grant funds until the grant is closed out.
Specifically, 28 CFR 66.23 (b) states that,

     A grantee must liquidate all obligations incurred under the award
     not later than 90 days after the end of the funding period (or as
     specified in a program regulation) to coincide with the
     submission of the annual Financial Status Report (SF–269). The
     Federal agency may extend this deadline at the request of the
     grantee.

      Although OJP may extend the 90-day liquidation period, the extension
must be at the request of the grantee. We found that extensions had not
been granted in any of the grants reviewed. We also found no evidence that
grantees had requested an extension of the 90-day liquidation period. It
should also be noted that 15 of these grants had been expired for more than
2 years. In our judgment, the OJP response does not adequately address



                                   - 149 -
how they will ensure that remaining grant funds are deobligated in a timely
manner.

      Additionally, the OJP response does not adequately address the
$2,305,298 in questioned costs related to drawdowns occurring more than
90 days past the grant end date. We found no evidence that the grantees
requested extensions of the 90-day liquidation period for these grants and
no extensions were provided.

      The OJP response also does not adequately address the $3,006,770 in
funds to better use related to remaining funds for grants that are more than
90 days past the grant end date. Again, we found no evidence that the
grantees requested extensions of the 90-day liquidation period for these
grants and no extensions were provided.




                                   - 150 -
          APPENDIX XXIV




- 151 -
- 152 -
- 153 -
- 154 -
- 155 -
- 156 -
- 157 -
- 158 -
- 159 -
- 160 -
- 161 -
                                                           APPENDIX XXV

            ANALYSIS AND SUMMARY OF ACTIONS
             NECESSARY TO CLOSE THE REPORT


1.   Resolved (COPS). This recommendation can be closed when we
     receive documentation supporting that the COPS Office has developed
     and implemented a monitoring plan which includes the enhanced
     risk-based criteria for determining the population of eligible grantees
     for site visits and office-based grant reviews and a monitoring plan
     that includes the number of site-visits and office-based desk reviews
     that will be conducted for tribal grantees.

2.   Unresolved (COPS). This recommendation can be resolved when the
     COPS Office provides an acceptable corrective action plan that
     addresses the recommendation to ensure that required financial and
     progress reports are submitted in a timely manner. The COPS Office
     response to the recommendation states that its current practices are
     sufficient to address the recommendation. However, as stated on
     page 20 of our report, we found that 83 percent of the grant files
     reviewed were missing one or more financial reports and 97 percent
     had financial reports that were not submitted in a timely manner.
     Further, as stated on page 23 of our report, we found that 62 percent
     of the grant files reviewed were missing one or more progress reports
     and 76 percent had progress reports that were not submitted in a
     timely manner. Therefore, the current COPS Office practices are not
     sufficient to address our recommendation.

3.   Unresolved (COPS). This recommendation can be resolved when the
     COPS Office provides an acceptable corrective action plan that
     addresses the recommendation to ensure that grant managers follow
     up with grantees if required financial and progress reports are not
     submitted or are not submitted in a timely manner. The COPS Office
     response to the recommendation states that its current practices are
     sufficient to address the recommendation. However, as stated on
     page 20 of our report, only 21 percent of the grant files reviewed
     contained documentation requesting missing or late financial reports.
     Further, as stated on page 23 of our report, only 33 percent of the
     grant files reviewed contained documentation requesting missing or
     late progress reports. Therefore, the current COPS Office practices are
     not sufficient to address our recommendation.




                                  - 162 -
4.   Unresolved (COPS). This recommendation can be resolved when the
     COPS Office provides an acceptable corrective action plan that
     addresses the recommendation to ensure that grantees do not draw
     down grant funds if required progress reports are not filed. The
     COPS Office response to the recommendation states that its current
     practices are sufficient to address the recommendation. However, as
     stated on page 24 of our report, we found that grantees were able to
     draw down grant funds totaling $484,975 during periods for which a
     current progress report had not been submitted. Therefore, the
     current COPS Office practices are not sufficient to address our
     recommendation.

5.   Unresolved (COPS). This recommendation can be resolved when the
     COPS Office provides an acceptable corrective action plan that
     addresses the recommendation to ensure that periodic progress are
     required to be submitted annually for the 3-year hiring grants and
     semi-annually for the 1-year equipment grants. The COPS Office
     response states that they disagree with our recommendation to
     require semi-annual progress reports for the 1-year equipment grants.
     However, the OIG disagrees with the COPS Office assertions that
     requiring semi-annual progress reports would increase the reporting
     burden on the grantee and that the semi-annual reports would not
     supply the COPS Office with enough substantive information on grants
     to warrant the increased reporting. In our judgment, if progress
     reports are not required on a semi-annual basis for the 1-year
     equipment grants these grants could expire before the COPS Office
     receives any information on issues that may impede the effective and
     timely implementation of these grants.

6.   Resolved (OJP). This recommendation can be closed when we
     receive documentation supporting that OJP has revised its Grant
     Manager’s Manual incorporating appropriate procedures to ensure that
     risk based monitoring plans are developed and implemented for each
     grantee.

7.   Resolved (OJP). This recommendation can be closed when we
     receive documentation supporting that OJP has revised its Grant
     Manager’s Manual incorporating appropriate procedures to ensure that
     grantees submit required financial and progress reports in a timely
     manner.




                                 - 163 -
8.    Resolved (OJP). This recommendation can be closed when we
      receive documentation supporting that OJP has revised its Grant
      Manager’s Manual incorporating appropriate procedures to ensure that
      grant managers follow up with grantees if required financial and
      progress reports are not submitted or are not submitted in a timely
      manner.

9.    Unresolved (OJP). This recommendation can be resolved when
      OJP provides an acceptable corrective action plan to ensure that the
      controls in its PAPRS system are not circumvented by OJP staff
      allowing grantees to draw down funds when required financial reports
      have not been filed and ensure that grantees do not draw down funds
      if required progress reports have not been filed. The OJP response
      states that grant recipients are restricted from drawing down on grants
      through the PAPRS system if a current financial report has not been
      submitted. However, as shown in Appendix I of OJP’s response on
      page 147, the OJP acknowledges that a financial report date was
      entered into its system when the grantee had not submitted the
      required report. In this instance an OJP official overrode the controls
      in the PAPRS system that should have prevented the grantee from
      drawing down funds during a period when the current financial report
      had not been submitted. As a result, OJP allowed this grantee to draw
      down $1,094,641 during the period for which a current financial report
      had not been submitted. Further, the OJP response states that grant
      managers can request that drawdowns be withheld if required
      progress reports are not submitted. However, the OJP response does
      not address how it will ensure that grantees do not draw down funds if
      required progress reports have not been filed.

10.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has developed and
      implemented a risk assessment tool to determine the timing and
      frequency of office-based and on-site monitoring and that grant
      managers are required to include their monitoring plans in the Grant
      Manager’s Memorandum.

11.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has developed a strategy
      to ensure that required financial and progress reports are submitted in
      a timely manner.

12.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has established



                                   - 164 -
      procedures to follow up with grantees if financial and progress reports
      are not submitted or are not submitted in a timely manner.

13.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has implemented a
      Memorandum of Understanding with OJP’s OC to ensure that grantees
      do not draw down funds if required financial reports are not filed and
      that OVW has assessed the viability of putting into place a mechanism
      that would automatically freeze funds as a result of late progress
      reports once its new system for submitting on-line progress reports is
      working.

14.   Unresolved (COPS). This recommendation can be resolved when the
      COPS Office provides an acceptable corrective action plan that
      addresses the recommendation to ensure that grant drawdowns are
      monitored to determine if grant funds are being utilized in a timely
      manner. The COPS Office response to the recommendation states that
      its current practices are sufficient to address the recommendation.
      However, as stated on page 30 of our report, no funds had been drawn
      down for more than 2 years after the obligation date for 52
      COPS Office grants totaling $17.22 million. Additionally, the initial
      drawdown did not occur for over one year after the funds were
      obligated for 200 COPS Office grants totaling $31.90 million. Finally,
      page 33 of our report states that the last drawdown occurred more
      than one year prior to our review for 126 COPS Office grants with
      remaining funds totaling $2.80 million. Therefore, the current COPS
      Office practices are not sufficient to address our recommendation.

15.   Unresolved (COPS). This recommendation can be resolved when the
      COPS Office provides an acceptable corrective action plan that
      addresses the recommendation to follow up with grantees that have
      not drawn down any grant funds to determine whether the grantees
      have encountered difficulties in implementing the grant program, and
      provide assistance as necessary. The COPS Office response to the
      recommendation states that its current practices are sufficient to
      address the recommendation. However, as stated on page 30 of our
      report, no funds had been drawn down for more than 2 years after the
      obligation date for 52 COPS Office grants totaling $17.22 million.
      Additionally, under the current COPS Office policy, follow up with
      grantees would only occur for those grantees that did not submit a
      financial report. Therefore, the current COPS Office practices are not
      sufficient to address our recommendation.




                                   - 165 -
16.   Unresolved (COPS). This recommendation can be resolved when
      the COPS Office provides an acceptable corrective action plan that
      addresses the recommendation to ensure that grant funds are
      deobligated and the grants are closed if grantees are unable or
      unwilling to implement grant programs in a timely manner. The COPS
      Office response to the recommendation states that its current practices
      are sufficient to address the recommendation. However, as stated on
      page 30 of our report, no funds had been drawn down for more than 2
      years after the obligation date for 52 COPS Office grants totaling
      $17.22 million. Additionally, the initial drawdown did not occur for
      over one year after the funds were obligated for 200 COPS Office
      grants totaling $31.90 million. Finally, page 33 of our report states
      that the last drawdown occurred more than one year prior to our
      review for 126 COPS Office grants with remaining funds totaling $2.80
      million. Therefore, the current COPS Office practices are not sufficient
      to address our recommendation.

17.   Unresolved (COPS). This recommendation can be resolved when the
      COPS Office provides an acceptable corrective action plan that
      addresses the recommendation to ensure that grantees are not
      allowed to draw down grant funds in excess of reported cumulative
      grant expenditures. The COPS Office response to the recommendation
      states that its current practices are sufficient to address the
      recommendation and that grantees do not have excess cash but rather
      a reporting issue due to a timing difference. However, as stated on
      page 34 of our report, excess grant funds totaling $713,567 were
      drawn down by 18 COPS Office grantees on expired grants.
      Additionally, our audit took into account any timing differences noted
      by the COPS Office by eliminating all grants which had not expired.
      Therefore, the current COPS Office practices are not sufficient to
      address our recommendation.

18.   Resolved (COPS). This recommendation can be closed when we
      receive documentation supporting that the COPS Office has remedied
      the $713,567 in questioned costs related to excess drawdowns on
      expired grants.

19.   Resolved (OJP). This recommendation can be closed when we
      receive documentation supporting that OJP has revised and
      implemented appropriate procedures incorporated into its Grant
      Manager’s Manual to monitor grants and to ensure that grant funds
      are obligated in a timely manner.




                                   - 166 -
20.   Resolved (OJP). This recommendation can be closed when we
      receive documentation supporting that OJP has revised and
      implemented appropriate procedures incorporated into its Grant
      Manager’s Manual to restrict part or all grant funds if certain conditions
      have not been met on current grants.

21.   Resolved (OJP). This recommendation can be closed when we
      receive documentation supporting that OJP has reviewed its current
      business processes to determine how to better assist grant recipients
      in responding to budget revision requests.

22.   Resolved (OJP). This recommendation can be closed when we
      receive documentation supporting that OJP has implemented
      appropriate procedures incorporated into its Grant Manager’s Manual
      to ensure that grant drawdowns are monitored to determine if grant
      funds are utilized in a timely manner.

23.   Resolved (OJP). This recommendation can be closed when we
      receive documentation supporting that OJP has implemented
      appropriate procedures incorporated into its Grant Manager’s Manual
      to follow up with grantees that have not drawn down any grant funds
      to determine whether the grantees have encountered difficulties in
      implementing the grant program, and provided assistance as
      necessary.

24.   Resolved (OJP). This recommendation can be closed when we
      receive documentation supporting that OJP has implemented
      appropriate procedures incorporated into its Grant Manager’s Manual
      to ensure that grant funds are deobligated and grants are closed if
      grantees are unable or unwilling to implement grant programs in a
      timely manner.

25.   Resolved (OJP). This recommendation can be closed when we
      receive documentation supporting that OJP has implemented revised
      procedures for its quarterly “excess cash” reviews to ensure that
      grantees are not allowed to draw down grant funds in excess of
      reported cumulative grant expenditures.

26.   Resolved (OJP). This recommendation can be closed when we
      receive documentation supporting that OJP has remedied the
      $145,818 in questioned costs related to excess drawdowns on expired
      grants.




                                    - 167 -
27.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has established and
      implemented guidelines which limit the amount of time allowed for
      reconciling budget issues to ensure that grant funds are obligated in a
      timely manner.

28.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has implemented
      procedures to withhold grant awards if the applicant is delinquent in
      complying with prior grant requirements.

29.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has established and
      implemented guidelines which limit the amount of time allowed for
      reconciling budget issues and limit the amount of time it should take
      to respond to budget revision requests.

30.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has developed and
      implemented procedures for reviewing quarterly financial reports
      submitted by grantees to determine if grant funds are being utilized in
      a timely manner in accordance with grant goals and objectives.

31.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has developed and
      implemented procedures for reviewing quarterly financial reports
      submitted by grantees to determine if grant funds are being utilized in
      a timely manner in accordance with grant goals and objectives and
      follow up with grantees if grant funds have not been drawn down, and
      provide assistance as necessary.

32.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has developed and
      implemented procedures to ensure that grant funds are deobligated
      and the grants are closed if the grantees are unable or unwilling to
      implement grant programs in a timely manner.

33.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has developed and
      implemented procedures for monitoring drawdowns to ensure that
      grantees are not allowed to draw down grant funds in excess of
      reported cumulative reported grant expenditures.




                                   - 168 -
34.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has remedied the
      $70,863 in questioned costs related to excess drawdowns on expired
      grants.

35.   Resolved (COPS). This recommendation can be closed when we
      receive documentation supporting that the COPS Office has developed
      and implemented an Expired Grant Policy to ensure that expired grants
      are closed in a timely manner and that remaining grant funds are
      deobligated prior to closing the grants.

36.   Resolved (COPS). This recommendation can be closed when we
      receive documentation supporting that the COPS Office has
      deobligated and put to better use the $200,380 in remaining funds
      related to grants that have been closed.

37.   Unresolved (COPS). This recommendation can be resolved when the
      COPS Office provides an acceptable corrective action plan that
      addresses the recommendation to review grant drawdowns prior to the
      end of the grant period to determine if all grant funds have been
      drawn down, and follows up on any grants with remaining funds to
      determine if the grantee has expended or plans to expend remaining
      funds prior to the grant end date. The COPS Office response to the
      recommendation states that its current practices are sufficient to
      address the recommendation. However, as stated on page 39 of our
      report, we identified $6,487,356 in remaining funds related to expired
      grants. Therefore, the current COPS Office practices are not sufficient
      to address our recommendation.

38.   Unresolved (COPS). This recommendation can be resolved when the
      COPS Office provides an acceptable corrective action plan that
      addresses the recommendation to ensure that grantees are not
      allowed to draw down funds more than 90 days after the grant end
      date and that all funds remaining on grants that have been expired
      more than 90 days are deobligated. The COPS Office response to the
      recommendation states that the COPS Office may extend the 90-day
      liquidation period at the request of the grantee. However, we found
      no evidence that the grantees requested extensions of the 90-day
      liquidation period for the grants we reviewed and no extensions were
      provided. Therefore, the COPS Office response does not adequately
      address our recommendation.

39.   Unresolved. This recommendation can be resolved when the
      COPS Office provides an acceptable corrective action plan that


                                   - 169 -
      addresses the recommendation to remedy the $3,077,157 in
      questioned costs related to drawdowns occurring more than 90 days
      past the grant end date. The COPS Office response to the
      recommendation states that the COPS Office may extend the 90 day
      liquidation period at the request of the grantee. However, we found
      that no evidence that the grantees requested extensions of the 90 day
      liquidation period for these grants and no extensions were provided.
      Therefore, the COPS Office response does not adequately address our
      recommendation.

40.   Unresolved (COPS). This recommendation can be resolved when the
      COPS Office provides an acceptable corrective action plan that
      addresses the recommendation to deobligate and put to better use the
      $6,487,356 in remaining funds related to expired grants that are more
      than 90 days past the grant end date. The COPS Office response to
      the recommendation states that the COPS Office may extend the 90-
      day liquidation period at the request of the grantee. However, we
      found no evidence that the grantees requested extensions of the 90-
      day liquidation period for these grants and no extensions were
      provided. Therefore, the COPS Office response does not adequately
      address our recommendation.

41.   Resolved (OJP). This recommendation can be closed when we
      receive documentation that OJP has implemented a formal process to
      close expired grants in a timely manner.

42.   Resolved (OJP). This recommendation can be closed when we
      receive documentation supporting that OJP has implemented
      appropriate procedures incorporated into its Grant Manager’s Manual
      to review grant drawdowns prior to the end of the grant period to
      determine if all grant funds have been drawn down, and follow up on
      any grants with remaining funds to determine if the grantee has
      expended or plans to expend remaining funds prior to the grant end
      date.

43.   Unresolved (OJP). This recommendation can be resolved when OJP
      provides an acceptable corrective action plan that addresses the
      recommendation to ensure that grantees are not allowed to draw down
      funds more than 90 days after the grant end date and that all funds
      remaining on grants that have been expired more than 90 days are
      deobligated. The OJP Response states that grant recipients are
      permitted to draw down funds until a grant is closed. However, this
      statement contradicts 28 CFR 66.23 (b), which states that grantees
      must liquidate all obligations incurred under the award not later than


                                  - 170 -
      90 days after the end of the funding period. Although the granting
      agency may extend the 90-day liquidation period, we found no
      evidence that the grantees requested extensions of the 90-day
      liquidation period for the grants we reviewed and no extensions were
      provided.

44.   Resolved (OJP). This recommendation can be closed when we
      receive documentation supporting that OJP has remedied the
      $2,305,298 in questioned costs related to drawdowns occurring more
      than 90 days past the grant end date.

45.   Resolved (OJP). This recommendation can be closed when we
      receive documentation supporting that OJP has deobligated and put to
      better use the $3,006,770 in remaining funds related to expired grants
      that are more than 90 days past the grant end date.

46.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that the OVW has developed and
      implemented procedures to ensure that expired grants are closed in a
      timely manner and that remaining grant funds are deobligated prior to
      closing the grants.

47.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has deobligated and put
      to better use the $6,869 in remaining funds related to grants which
      have been closed.

48.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has developed and
      implemented procedures for reviewing quarterly financial reports
      submitted by grantees to determine if all grant funds have been drawn
      down, and follows up on any grants with remaining funds to determine
      if the grantee has expended or plans to expend remaining funds prior
      to the grant end date.

49.   Resolved (OVW). This recommendation can be closed when we
      receive documentation that OVW has developed and implemented
      procedures to ensure that grantees are not allowed to draw down
      funds more than 90 days after the grant end date and that all funds
      remaining on grants that have been expired for more than 90 days are
      deobligated.

50.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has remedied the


                                  - 171 -
      $681,016 in questioned costs related to drawdowns occurring more
      than 90 days past the grant end date.

51.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has deobligated and put
      to better use the $1,250,922 in remaining funds related to expired
      grants that are more than 90 days past the grant end date.

52.   Resolved (COPS, OJP, and OVW). This recommendation can be
      closed when we receive documentation that the COPS Office, OJP, and
      OVW, in conjunction with OTJ, have developed a formalized
      mechanism for coordinating and sharing information, including
      monitoring reports.

53.   Resolved (COPS, OJP, and OVW). This recommendation can be
      closed when we receive documentation that the COPS Office, OJP, and
      OVW, in conjunction with OTJ, have developed a formalized process for
      training staff responsible for administering and monitoring tribal-
      specific grant programs.




                                  - 172 -
